<html>
<title> - BIOMASS FOR THERMAL ENERGY AND ELECTRICITY: A RESEARCH AND DEVELOPMENT PORTFOLIO FOR THE FUTURE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                     BIOMASS FOR THERMAL ENERGY AND
                      ELECTRICITY: A RESEARCH AND
                  DEVELOPMENT PORTFOLIO FOR THE FUTURE

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 21, 2009

                               __________

                           Serial No. 111-56

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
52-860                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Energy and Environment

                  HON. BRIAN BAIRD, Washington, Chair
JERRY F. COSTELLO, Illinois          BOB INGLIS, South Carolina
EDDIE BERNICE JOHNSON, Texas         ROSCOE G. BARTLETT, Maryland
LYNN C. WOOLSEY, California          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
DONNA F. EDWARDS, Maryland           RANDY NEUGEBAUER, Texas
BEN R. LUJAN, New Mexico             MARIO DIAZ-BALART, Florida
PAUL D. TONKO, New York                  
JIM MATHESON, Utah                       
LINCOLN DAVIS, Tennessee                 
BEN CHANDLER, Kentucky                   
BART GORDON, Tennessee               RALPH M. HALL, Texas
                  CHRIS KING Democratic Staff Director
         SHIMERE WILLIAMS Democratic Professional Staff Member
      ELAINE PAULIONIS PHELEN Democratic Professional Staff Member
          ADAM ROSENBERG Democratic Professional Staff Member
            JETTA WONG Democratic Professional Staff Member
         ELIZABETH CHAPEL Republican Professional Staff Member
          TARA ROTHSCHILD Republican Professional Staff Member
                      JANE WISE Research Assistant


                            C O N T E N T S

                            October 21, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Baird, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science and Technology, 
  U.S. House of Representatives..................................     8
    Written Statement............................................     9

Statement by Representative Bob Inglis, Ranking Minority Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    10
    Written Statement............................................    10

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    11

                               Witnesses:

Dr. Don J. Stevens, Senior Program Manager, Biomass Energy & 
  Environment Directorate, Pacific Northwest National Laboratory, 
  U.S. Department of Energy
    Oral Statement...............................................    12
    Written Statement............................................    13
    Biography....................................................    20

Mr. Joseph J. James, President, Agri-Tech Producers, LLC
    Oral Statement...............................................    20
    Written Statement............................................    23
    Biography....................................................    26

Mr. Scott M. Klara, Director, Strategic Center for Coal, National 
  Energy Technology Laboratory, U.S. Department of Energy
    Oral Statement...............................................    26
    Written Statement............................................    28
    Biography....................................................    31

Mr. Eric L. Spomer, President, Catalyst Renewables
    Oral Statement...............................................    31
    Written Statement............................................    33
    Biography....................................................    37

Dr. Robert T. Burns, Professor, Department of Agricultural & 
  Biosystems Engineering, Iowa State University
    Oral Statement...............................................    38
    Written Statement............................................    40
    Biography....................................................    48

Discussion
  Methane as a Greenhouse Gas....................................    49
  How DOE can Diversify Its Biomass Programs.....................    50
  Activities at Agri-Tech Producers, LLC.........................    52
  Landfill Biogas Production.....................................    53
  The Energy Needs of Biopower Fuel Production...................    54
  Forest Health..................................................    54
  Protecting Topsoils and Soil Quality...........................    55
  Manure Methane Production......................................    57
  Siting Biomass Research Within DOE.............................    57
  Biopower in Urban Areas........................................    59
  The Sustainability of Biopower Sources.........................    60
  Forest Products From Federal Lands as Biomass..................    62
  More on Siting Biomass Research at DOE.........................    63
  Closing........................................................    64

              Appendix: Answers to Post-Hearing Questions

Dr. Don J. Stevens, Senior Program Manager, Biomass Energy & 
  Environment Directorate, Pacific Northwest National Laboratory, 
  U.S. Department of Energy......................................    66

Mr. Scott M. Klara, Director, Strategic Center for Coal, National 
  Energy Technology Laboratory, U.S. Department of Energy........    68

Dr. Robert T. Burns, Professor, Department of Agricultural & 
  Biosystems Engineering, Iowa State University..................    70


BIOMASS FOR THERMAL ENERGY AND ELECTRICITY: A RESEARCH AND DEVELOPMENT 
                        PORTFOLIO FOR THE FUTURE

                              ----------                              


                      WEDNESDAY, OCTOBER 21, 2009

                  House of Representatives,
            Subcommittee on Energy and Environment,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Baird [Chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                     Biomass for Thermal Energy and

                      Electricity: A Research and

                  Development Portfolio for the Future

                      wednesday, october 21, 2009
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

Purpose

    On Wednesday, October 21 the Subcommittee on Energy and Environment 
will hold a hearing entitled ``Biomass for Thermal Energy and 
Electricity: A Research and Development Portfolio for the Future.'' The 
purpose of the hearing is to explore the role of the Federal Government 
and industry in developing technologies related to the conversion of 
biomass for thermal energy and electricity.
    Biomass includes any organic matter that is available on a 
renewable basis, including agricultural crops, agricultural wastes and 
residues, wood and wood wastes and residues, animal wastes, municipal 
wastes, and aquatic organisms. Biomass has received considerable 
attention for its ability to be converted into liquid transportation 
fuels, but it can also produce biopower or thermal energy (heat), power 
(electricity) and bio-based products. Biomass feedstocks are vital as 
the country moves toward a more diverse portfolio of energy sources, 
especially in the Southeast and Northwest of the country where there is 
a significant quantity of these renewable resources.

Witnesses

        <bullet>  Mr. Scott M. Klara, PE--Director, Strategic Center 
        for Coal, National Energy Technology Laboratory

        <bullet>  Dr. Don J. Stevens--Senior Program Manager, Pacific 
        Northwest National Laboratory

        <bullet>  Mr. Eric Spomer--President, Catalyst Renewables 
        Corporation

        <bullet>  Dr. Robert T. Burns--Professor, Agricultural & 
        Biosystems Engineering, Iowa State University

        <bullet>  Mr. Joseph J. James--President Agri-Tech Producers, 
        LLC (ATP)

Background

    Biomass is mankind's oldest source of energy. Since the time of the 
first nomadic hunter-gatherer societies, wood has been burned for 
cooking and heating. As few as five generations ago, 90 percent of our 
energy was supplied by the combustion of wood. Today, biomass provides 
about 10 percent of the world's primary energy supplies. Over the last 
century, the convenience and low cost of fossil fuels has allowed an 
emerging industrial society to meet its vast energy needs. However, 
decreasing availability of fossil fuel resources and simultaneous 
increases in demand, along with concerns over climate change, have 
given rise to renewed interest in biomass as an energy resource.
    In the United States renewable energy--water, wind, solar, 
geothermal, and biomass--currently accounts for approximately 10 
percent of total energy production.\1\ Of the renewable energy consumed 
in the country the largest portion, 53 percent, comes from biomass 
(this includes liquid transportation fuels). The U.S. Departments of 
Agriculture and Energy estimate that, by 2030, 1.3 billion tons of 
biomass could be available for energy production (including electricity 
from biomass, and fuels from corn and cellulose). Through improvements 
of existing technologies and development of new technologies biomass 
could meet its potential as a major resource of renewable energy 
production.
---------------------------------------------------------------------------
    \1\ EIA, Monthly Energy Review, September 2008.
---------------------------------------------------------------------------
    In the last decade, most legislative efforts concerning biomass 
have focused on promoting its use for the production of liquid 
transportation fuels. Comparatively little has been done to advance 
biomass for electricity generation and thermal energy, or ``biopower.''

Continued RD&D for Cost-Effective and Increased Energy Efficiency in 
                    Biopower Generation

    A variety of conversion technologies are used for biopower, many of 
which are capable of being integrated into the existing energy 
generation infrastructure. Technologies such as direct-fired systems 
(stoker boilers, fluidized bed boilers and co-firing), gasification 
systems (fixed bed gasifiers and fluidized bed gasifiers) and anaerobic 
digestion are in various stages of development, and some have already 
seen limited deployment in the energy sector. However, while efforts to 
deploy these technologies have been met with some success, there are 
still a number of technical barriers before these technologies reach 
their full potential.
    Efforts to promote biopower have largely focused on wood, wood 
residues, and milling waste. The pulp and paper industry has become a 
major producer of renewable energy in the United States. The industry 
uses ``black liquor,'' a byproduct of the pulping process, as well as 
``hog fuel'' or other wood wastes as its feedstock to produce energy. 
Generally most of this energy is used on-site to power various 
industrial processes. In 2008, the pulp and paper industry generated 38 
billion Kilowatt-hours, or more than two-thirds of all electricity 
generated from biomass.\2\
---------------------------------------------------------------------------
    \2\ Energy Information Administration/ Renewable Energy Consumption 
and Electricity Preliminary Statistics, 2008 http://www.eia.doe.gov/
fuelrenewable.html
---------------------------------------------------------------------------
    In a September 2009 report the Washington State Department of 
Ecology assessed the current energy profile of the state's pulp and 
paper industry and explored the potential for increasing the industry's 
biopower production. The Department found that while the state's pulp 
and paper mills already produce a substantial amount of biopower, they 
typically do so with outdated and inefficient boilers and ancillary 
equipment. With older equipment, the mills produce considerably less 
power than they could with new boilers, evaporators, and turbines. 
Factoring for capital costs and increased biomass demands, the report 
found the benefits of implementing existing state-of-the-art 
technologies to be compelling. It was found that the total electrical 
power from Washington mills could be increased from 220 MW to 520 MW 
with new boilers. Although this study identified key technologies that 
could be implemented immediately, it called for more research on 
gasification technologies which may be a viable replacement for 
existing boilers. Additionally, pulp and paper mills may be great 
demonstration facilities for integrated biorefineries which produce 
fuels, power and products. This currently is being researched through 
the DOE.
    Most of today's biopower plants are direct-fired systems, typically 
producing less than 50 MW of electrical output. The biomass fuel is 
burned in a boiler to produce high pressure steam that is used to power 
a steam turbine-driven power generator. In many applications, steam is 
extracted from the turbine at medium pressures and temperatures and is 
used for process heat or space heating. While these systems are 
generally very efficient and have superior emissions profiles over many 
conventional technologies, increased research is needed to drive down 
capital costs, especially in back-end air pollution control devices.
    Another technology of interest is co-firing, a near-term low-cost 
option for efficiently and cleanly converting biomass to electricity by 
adding it as a partial substitute fuel in existing coal-fired boilers. 
Biomass co-firing in modern, large-scale coal power plants is 
efficient, cost-effective and requires moderate additional investment. 
By blending suitable biomass into coal boilers for simultaneous 
combustion, co-firing reduces the amount of coal used by as much as 20 
percent. Little or no loss in overall boiler efficiency can be achieved 
if appropriate designs and operational changes occur.\3\ According to 
the International Energy Association, in the short-term co-firing is 
expected to be the most efficient use of biomass for power generation 
worldwide. As electricity from coal represents 40 percent of worldwide 
electricity, each percentage point replaced by biomass represents some 
8 GW of installed capacity, and approximately 60 Mt of CO<INF>2</INF> 
per year avoided.\4\
---------------------------------------------------------------------------
    \3\ Federal Energy Management Program (DOE): Biomass Co-firing in 
Coal-fired Boilers http://www1.eere.energy.gov/femp/pdfs/
fta<INF>-</INF>biomass<INF>-</INF>cofiring.pdf.
    \4\ IEA: Biomass for Power Generation and CHP. January 2007.
---------------------------------------------------------------------------
    Additionally, significant global market potential has been 
identified for small modular biomass systems in distributed, on-site 
electric power generation. These systems typically use locally 
available biomass fuels such as wood, crop waste, animal manure and 
landfill gas to supply electricity from five kilowatts to five 
megawatts per system to rural homes and businesses. Systems include 
combined heat and power systems for industrial applications, 
gasification and advanced combustion for utility scale power 
generation.\5\ Several prototype systems were developed in the early 
part of this decade, but continued research is required to optimize 
integration of these systems with existing infrastructure and to 
overcome a variety of other design issues.
---------------------------------------------------------------------------
    \5\ National Renewable Energy Laboratory: Small Modular Biomass 
Systems www.nrel.gov/docs/fy03osti/33257.pdf

Closing the Technology Gap for Biopower Technologies

    In addition to the numerous conversion technologies used to 
generate electricity from biomass, there are several technologies that 
could convert biomass into a gaseous energy product to replace natural 
gas and other energy resources (often described as ``renewable natural 
gas.'') Such products can be used in existing natural gas pipe lines, 
industrial processes, home heating, or any number of other situations 
where natural gas is normally used. Gasification, pyrolysis, and 
anaerobic digestion are all conversion technologies that exist in some 
form in today's market, but are generally not used to make renewable 
natural gas. Both gasification and pyrolysis are thermochemical 
conversion processes, whereas anaerobic digestion involves the natural 
decomposition of organic matter to produce methane.\6\
---------------------------------------------------------------------------
    \6\ National Renewable Energy Laboratory. ``Learning About 
Renewable Energy and Energy Efficiency: Biopower.'' July 25, 2008, 
http://www.nrel.gov/learning/re<INF>-</INF>biopower.html
---------------------------------------------------------------------------
    The thermochemical process of gasification begins with the 
decomposition of feedstocks such as wood and forest products, followed 
by the partial oxidation or reforming of the fuel with a gasifying 
agent--usually air, oxygen, or steam--to yield raw synthesis gas, or 
syngas. These gases are more easily utilized for power generation and 
often result in improved efficiency and environmental performance 
compared with the direct combustion of biomass. The gasification 
process is further optimized when operating at very high pressures, and 
process improvement and development is needed to make high-pressure 
feed systems commercially available.\7\
---------------------------------------------------------------------------
    \7\ National Renewable Energy Laboratory. ``An Overview of Biomass 
Gasification.'' July 25, 2008. http://www.nrel.gov/biomass/pdfs/
overview<INF>-</INF>biomass<INF>-</INF>gasification.pdf
---------------------------------------------------------------------------
    Nexterra Systems, based in Vancouver, Canada, has been at the 
industry forefront in developing biomass gasification systems. They 
have some operations in the United States, including a co-generation 
plant designed to power the University of South Carolina that consists 
of three gasifiers that convert wood biomass to syngas. In August they 
received $7.7M in funding from the BC Bioenergy Network (BCBN), 
Sustainable Development Technology Canada (SDTC), the National Research 
Council Canada Industrial Research Assistance Program (NRC-IRAP), and 
Ethanol BC. This funding will be used to support Nexterra's recently 
announced program to commercialize a new high efficiency biomass power 
system in collaboration with GE Jenbacher and GE Energy.
    Pyrolysis is a thermochemical process similar to gasification. 
Typical pyrolysis processes occur in environments with virtually no 
oxygen. Fast pyrolysis is being commercially developed by organizations 
such as Ensyn Technologies and DynaMotive, a corporation also based in 
Vancouver, Canada and with sites in the United States.\8\ DynaMotive 
has developed fast pyrolysis technologies that utilize non-food biomass 
to produce a renewable liquid fuel, BioOil, as well as several other 
products. These technologies operate in oxygen-free environments at 
moderate temperatures, thus improving overall efficiency.\9\ Despite 
limited deployment of this technology, development of new methods to 
control the pyrolytic pathways of bio-oil intermediates is needed in 
order to increase product yield.
---------------------------------------------------------------------------
    \8\ U.S. Department of Energy--Energy Efficiency and Renewable 
Energy. Biomass Program. ``Pyrolysis and Other Thermal Processing.'' 
October 13, 2005. http://www1.eere.energy.gov/biomass/
printable<INF>-</INF>versions/pyrolysis.html
    \9\ Dynamotive Energy Systems. ``Fast Pyrolysis.'' Copyright 
2009(c) http://www.dynamotive.com/technology/fast<INF>-</INF>pyrolysis/
---------------------------------------------------------------------------
    Anaerobic digestion involves the breakdown of organic matter 
through natural biological processes and is most commonly used on 
manure and municipal wastes. This breakdown produces a ``biogas'' that 
consists of methane, carbon dioxide, and trace levels of other 
gases.\10\ There are approximately 135 anaerobic digesters in the 
United States, 125 of which are used for generating electric or thermal 
energy. Electric generation projects account for almost 307,000 MWh 
generated annually, while boiler projects, pipeline injection, and 
other energy projects account for an additional 52,500 MWh equivalent 
per year.
---------------------------------------------------------------------------
    \10\ U.S. Department of Energy, Energy Efficiency and Renewable 
Energy. ``Energy Savers: Methane (Biogas) from Anaerobic Digesters.'' 
December 30, 2008. <http://www.energysavers.gov/
your<INF>-</INF>workplace/farms<INF>-</INF>ranches/index.cfm/
mytopic=30003>
---------------------------------------------------------------------------
    The Pacific Gas and Electric Company (PG&E) in California is 
partnering with dairies, industry, and municipal waste processing 
facilities in projects to transport biomethane to consumers through 
their natural gas pipeline. Additionally, in 2008 PG&E began to 
cultivate the next generation of biogas technologies through its 
biomethanation research project. This recently launched project 
explores emerging biomethanation technologies and processes that may 
increase conversion efficiency, expand the range of usable feedstocks 
and improve the quality of biomethane products. Although anaerobic 
digestion is considered carbon-neutral, the process does result in the 
formation of nitrogen oxides. Flue gas from electricity generation 
using biogas must be treated before being released into the atmosphere. 
There are two key technologies employed for this purpose: Selective 
Catalytic Reduction (SCR) and Selective Non-Catalytic Reduction (SNCR). 
Both technologies have the capability to reduce nitrogen oxide 
emissions, but require considerable more development to optimize cost 
and ease of installment.\11\
---------------------------------------------------------------------------
    \11\ U.S. Environmental Protection Agency. ``Air Pollution Control 
Fact Sheet.'' EPA-452/F-03-031. http://www.epa.gov/ttn/catc/dir1/
fsncr.pdf
---------------------------------------------------------------------------
    Thermochemical conversion processes also require the cleaning of 
syngas before it can be used for energy generation. Syngas clean-up and 
conditioning has the greatest impact on the cost of syngas and is a 
barrier to the commercialization of thermochemical conversion 
technologies.\12\ Gas Technology Institute (GTI) has taken action in 
developing cleaning technologies to be used in biomass gasification. 
Their projects focus on cost-effective contaminant removal to ensure 
that syngas after gasification meets standards for downstream 
applications, such as turbine generation. Many of their other gas-
cleaning projects are sponsored by the U.S. Department of Energy and 
focus on coal gasification and IGCC power plants. In order for 
thermochemical conversion processes to be commercialized to the extent 
where they can be utilized by small agricultural and forestry 
communities, the same focus needs to be placed on biomass gasification 
and pyrolysis clean-up.
---------------------------------------------------------------------------
    \12\ U.S. Department of Energy. Energy Efficiency and Renewable 
Energy. ``Biomass Program: Syngas Clean-up and Conditioning.'' http://
www1.eere.energy.gov/biomass/pdfs/syngas<INF>-</INF>cleanup.pdf

Cross-Cutting Issues

    Advancing biopower technologies requires research and development 
in a number of areas, including enhanced basic and applied research, 
technologies for collection and conversion of biomass, identification 
of biomass resources, cost analyses for the available biomass, and 
commercialization of emerging methods and technologies. Significant 
research breakthroughs are needed in a number of key areas including 
advances in plant science to improve the cost-effectiveness of 
converting biomass to fuel, power, and products. Some of biggest 
challenges remain in the areas of feedstock handling, densification and 
residue collection, where current inefficiencies make this resource 
costly to harvest. Furthermore, RD&D using Geographical Information 
Systems (GIS) will help the U.S. more accurately identify biomass 
availability, especially forest biomass.
    Pellet fuel biomass systems utilize biomass by-products or small 
diameter, low-value trees, and process them into pencil-sized pellets 
that are uniform in size, shape, moisture content, density and energy 
content. The moisture content of biomass pellets is substantially lower 
(four to eight percent water) than raw biomass (30 to 60 percent 
water). Less moisture means higher BTU value and easier handling, 
especially in freezing situations, than with green raw biomass 
materials. The density of pellet fuel is substantially higher than raw 
biomass: 40-45 lbs. per cubic foot vs. 15-30 lbs. per cubic foot in raw 
material form. This means that more fuel can be transported in a given 
truck space and more energy can be stored on site. Biomass pellets are 
more easily and predictably handled as well. Their uniform shape and 
size allows for a smaller and simpler feed system that reduces costs. 
This high density and uniform shape can be stored in standard silos, 
transported in rail cars and delivered in truck containers. Pellet fuel 
is made up of refined and densified biomass that allows for remarkable 
consistency and burn efficiency at a fraction of the particulate 
emissions of raw biomass. While, this is clearly a great improvement 
over raw biomass, the production of biomass pellets costs more. 
Research on mobile pelletizers has been discussed as a way to reduce 
the cost of transporting biomass, but little has been done to explore 
the actual technology and the difficulty of drying the feedstock on 
site.

Additional RD&D Support for Biopower

    The National Science Foundation (NSF) initiated efforts in 
bioenergy and subsequently transferred those efforts to DOE in the late 
1970s. Biofuels and biomass energy systems were the focus of most early 
projects. In 1991, the DOE created the Biopower Program with the stated 
goal of contributing 600 gigawatts of new electricity generating 
capacity globally within 10 years. According to the IEA in 2007 the 
global biomass electric generating capacity was approximately 47 GW. In 
2002, the Biomass Program was formed to consolidate the biofuels, 
bioproducts, and biopower research efforts across DOE into one 
comprehensive RD&D effort. From the 1970s to the present, approximately 
$3.5 billion (including $800 million in ARRA funds) has been invested 
in a variety of RD&D programs covering biofuels (particularly ethanol), 
biopower, feedstocks, municipal wastes, and a variety of bio-based 
products, including forest products and agricultural processing 
industries. A reinvigorated Biopower Program at DOE could help close 
the more than 500 gigawatt gap between the stated goal of the original 
Biopower Program and the actual global biomass electricity generation.
    Chairman Baird. Our hearing will come to order. I want to 
welcome everyone to our hearing on Biomass for Thermal Energy 
and Electricity: A Research and Development Portfolio for the 
Future.
    Before we begin to discuss the topic of today's hearing, I 
want to particularly recognize some special guests in our 
subcommittee today. Members of both the Liberian and Haitian 
Parliaments are here as guests of Representative David Price 
from North Carolina as part of a week-long seminar on committee 
operations. I understand there are fellow committee chairs here 
among our guests, and we are very honored that you are here. It 
is particularly appropriate we have international governments 
community with us today as biopower, of course, is very much 
linked to the global issues of climate change and energy 
security. Members of Parliament include the Speaker of the 
House of the Haitian Chamber of Deputies; the President of the 
Haitian Senate; the Chair of the Haitian Committee on Justice; 
and the Chair of the Haitian Committee on the Budget. The Chair 
of the Liberian Committee on Natural Resources, Energy and the 
Environment is also here with us along with other Members of 
Parliament and dignitaries.
    Excellencies, thank you all for joining us. We welcome you 
here. We also know that our committee hearings can go somewhat 
timely. If you have other engagements, we will not take it 
personally if you have to go to another meeting, but we are 
very grateful to have your presence here, and we are honored.
    Did you wish to offer any comments before we start, Bob?
    Mr. Inglis. Just to also add our welcome on this side. We 
are very grateful that you are here and hope that it is a good 
visit and a productive visit.
    Chairman Baird. Thank you very much. With that, we will 
proceed with our discussion of today's hearing. We will today 
examine a number of different technologies utilized to convert 
biomass feedstocks into biopower, and discuss the federal role 
in the development of these technologies.
    While more widely known as a feedstock for liquid 
transportation fuels, biomass can also be used to generate heat 
and electricity, a field otherwise known as biopower.
    Biomass includes, of course, any organic matter that is 
available on a renewable basis, including agricultural crops, 
wastes and residues, wood and wood wastes and residues, animal 
wastes, municipal wastes, and aquatic organisms. But of course, 
if these things are used for energy, they are not waste after 
all, are they? They are raw materials from which we can 
generate power.
    Biomass feedstocks are vital as the country moves toward a 
more diverse portfolio of energy sources, especially in the 
southeast and northwest of the country where there are 
significant quantities of these renewable resources.
    For example, a 2005 report published by the Washington 
State Department of Ecology and Washington State University 
found that our state, my own, has the potential for annual 
production of over 1,769 megawatts of electrical power from 
biomass. This is roughly 50 percent of Washington State's 
annual residential electrical consumption.
    Furthermore, in my home district we have abundant amounts 
of forest biomass. When this resource is harvested in 
conjunction with a sustainable forest management plan, 
important restoration goals can be achieved, such as wildfire 
mitigation, watershed protection, wildlife habitat restoration 
and reduced insect infestation, and we can generate valuable 
power as a result as well and reduce our CO<INF>2</INF> output.
    To realize these benefits, new research needs to be funded. 
Enhanced basic and applied research and commercialization of a 
diversity of conversion technologies needs to be advanced.
    In 2002 the Bush Administration consolidated liquid 
transportation fuels, bioproducts and biopower research efforts 
across DOE into the Biomass Program, and since then the large 
majority of the research has focused on liquid transportation 
fuels, primarily ethanol.
    However, given the decreasing availability of fossil fuel 
resources and simultaneous increases in demand, along with 
concerns over lethal overheating of the Earth and ocean 
acidification, a responsible 21st century energy policy will 
include a renewed commitment to biopower technologies.
    While the development of liquid transportation fuels from 
biomass is a critical research area, I am interested in hearing 
from our witnesses about increasing biopower research efforts 
in the federal research portfolio and the steps we need to 
overcome barriers to new biopower technologies.
    My apologies to the translator with our guests. I speak 
awfully fast. Good luck.
    With that I would like to thank this excellent panel of 
witnesses for appearing before the Subcommittee this afternoon.
    I yield to our distinguished Ranking Member, Mr. Inglis, 
for his opening statement.
    [The prepared statement of Chairman Baird follows:]

               Prepared Statement of Chairman Brian Baird

    In today's hearing we will examine a number of different 
technologies utilized to convert biomass feedstocks into biopower, and 
discuss the federal role in the development of these technologies.
    While more widely known as a feedstock for liquid transportation 
fuels, biomass can also be used to generate heat and electricity--a 
field otherwise known as ``Biopower.''
    Biomass includes any organic matter that is available on a 
renewable basis, including agricultural crops, agricultural wastes and 
residues, wood and wood wastes and residues, animal wastes, municipal 
wastes, and aquatic organisms.
    Biomass feedstocks are vital as the country moves toward a more 
diverse portfolio of energy sources, especially in the Southeast and 
Northwest of the country where there are significant quantities of 
these renewable resources.
    For example, a 2005 report published by the Washington State 
Department of Ecology and Washington State University found that my 
state has the potential for annual production of over 1,769 MW of 
electrical power from biomass. This equates to roughly 50 percent of 
Washington State's annual residential electrical consumption.
    Furthermore, in my district we have abundant amounts of forest 
biomass. When this resource is harvested in conjunction with a 
sustainable forest management plan important restoration goals can be 
achieved, such as wildfire mitigation, watershed protection, wildlife 
habitat restoration and reduced insect infestation.
    To realize these benefits new research needs to be funded. Enhanced 
basic and applied research and commercialization of a diversity of 
conversion technologies needs to be advanced.
    In 2002 the Bush Administration consolidated liquid transportation 
fuels, bioproducts, and biopower research efforts across DOE into the 
Biomass Program, and since then the large majority of the research has 
focused on liquid transportation fuels, mostly ethanol.
    However, given the decreasing availability of fossil fuel resources 
and simultaneous increases in demand, along with concerns over lethal 
overheating of the Earth and ocean acidification, a responsible 21st 
century energy portfolio will include a renewed commitment to biopower 
technologies.
    While the development of liquid transportation fuels from biomass 
is a critical research area, I am interested in hearing from our 
witnesses about increasing biopower research efforts in the federal 
research portfolio, and the steps we need to take to overcome barriers 
to new biopower technologies.
    With that I'd like to thank this excellent panel of witnesses for 
appearing before the Subcommittee this afternoon, and I yield to our 
distinguished Ranking Member, Mr. Inglis.

    Mr. Inglis. Thank you, Mr. Chairman, and thank you for 
holding this hearing today. For the last 10 years or so we have 
primarily been looking toward biomass as a replacement for 
petroleum-based transportation fuels. The result has been a 
substantial interest in converting food crops to fuel with 
small emphasis being placed on developing cellulosic ethanol.
    Environmental and cost concerns are cultivating interest in 
other types of biomasses of fuel for base load electricity and 
thermal power.
    Some biomass can be and is already being used in 
conventional generation technology. Paper mills generate power 
from milling waste, and woody biomass can be mixed with coal in 
co-fired in modern and large-scale power plants.
    More research and technological innovation can expand the 
reach of renewable biomass fuels in our energy sector.
    The subject of today's hearing represents a step in that 
direction. Developments in renewable natural gas, 
biorefineries, biomass transportation, and other technologies 
will help increase the efficiency of biomass energy, and a 
diversity of organic materials can be used for energy 
generation.
    I am looking forward to hearing about the state of the 
industry today and where we should direct federal research and 
development resources to overcome remaining technological 
hurdles.
    I also want to admit to a parochial interest in biopower. 
Two South Carolina universities, including Furman in the 
upstate and USC, have launched already bioenergy pilot 
projects. Our robust forest industry stands to gain jobs and a 
larger market. As we will hear from Mr. James, biomass energy 
is already creating jobs back home.
    Thank you, Mr. Chairman, for holding this hearing. I look 
forward to hearing from the witnesses and yield back the 
balance of my time.
    [The prepared statement of Mr. Inglis follows:]

            Prepared Statement of Representative Bob Inglis

    Good morning and thank you for holding this hearing, Mr. Chairman.
    For about the past 10 years, we've primarily been looking toward 
biomass as a replacement for petroleum-based transportation fuels. The 
result has been a substantial interest in converting food crops to 
fuel, with a smaller emphasis placed on developing cellulosic ethanol.
    Environmental and cost concerns are cultivating interest in other 
types of biomass as a fuel for base load electricity and thermal power. 
Some biomass can be and is already being used in conventional 
generation technology; paper mills generate power from milling waste, 
and woody biomass can be mixed with coal and co-fired in modern, large-
scale power plants. More research and technological innovation can 
expand the reach of renewable biomass fuels in our energy sector.
    The subject of today's hearing represents a step in that direction. 
Developments in renewable natural gas, bio-refineries, biomass 
transportation, and other technologies will help increase the 
efficiency of biomass energy and the diversity of organic materials 
that can be used for energy generation. I'm looking forward to hearing 
about the state of the industry today and where we should direct 
federal R&D resources to overcome remaining technological hurdles.
    I also want to admit a parochial interest in biopower. Two South 
Carolina universities, including Furman in the Upstate, have launched 
already bio-energy pilot projects, our robust forestry industry stands 
to gain jobs and a larger market, and as we'll hear from Mr. James, 
biomass energy is already creating jobs back home.
    Thank you again, Mr. Chairman, for holding this hearing. I look 
forward to hearing from the witnesses and I yield back the balance of 
my time.

    Chairman Baird. If there are other Members who wish to 
submit additional opening statements, your statements will be 
added to the record at this point.
    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good afternoon. Thank you, Mr. Chairman, for holding today's 
hearing to receive testimony on the research and development (R&D) of 
new technology to improve the use of biomass for thermal energy and 
electricity.
    Biomass is unique among renewable energy sources because of its 
abundant supply and long history as a source of energy. Nearly every 
state in the U.S. has a source of biomass fuel through agricultural 
waste, wood and wood waste products, or animal and municipal waste. 
Further, individuals and industries have used biomass as an energy 
source for centuries. These characteristics make biomass an effective 
and efficient source of renewable energy available in the U.S. today. 
However, additional R&D is necessary to modernize existing techniques 
for using traditional forms of biomass, such as wood, and to develop 
ways to use new forms, like municipal waste.
    In particular, I am interested to learn how biomass can be used in 
conjunction with abundant and inexpensive domestic energy sources such 
as coal. Co-firing coal and biomass fuel has proven to be an efficient 
means of producing abundant energy while reducing greenhouse gas 
emissions. Illinois has an abundant coal and agricultural products, and 
co-firing could provide a cost-effective way to produce clean energy 
while extending the supply of coal. I would like to hear from our 
witnesses, especially Mr. Klara of the Strategic Center for Coal, how 
the existing technology for co-firing coal and biomass can be improved 
and utilized to demonstrate its wide-spread use.
    Finally, I would like to hear from our witness how Congress and the 
public and private sector can work together to support biomass R&D.
    I welcome our panel of witnesses, and I look forward to their 
testimony. Thank you again, Mr. Chairman.

    Chairman Baird. At this point, it is my pleasure to 
introduce our witnesses at this time. Dr. Don J. Stevens is a 
Senior Program Manager at Pacific Northwest National 
Laboratory, PNNL. Mr. Scott M. Klara is the Director of the 
Strategic Center for Coal at DOE's National Energy Technology 
Laboratory. Mr. Eric Spomer is the President of Catalyst 
Renewables Corporation. Dr. Robert Burns is a Professor of 
Agricultural and Biosystems Engineering at Iowa State 
University, and I will again yield to my friend and Ranking 
Member, Mr. Inglis, to introduce our last witness.
    Mr. Inglis. Thank you, Mr. Chairman, for the opportunity to 
introduce Mr. Joseph James who is a terrific example of 
alternative energy industry that is creating new jobs in South 
Carolina. Mr. James has over 35 years of experience in economic 
development devoted to achieving equity for disadvantaged 
people in communities. Since 2004 his career has taken on a new 
focus aiming to create jobs and revitalize rural African-
American communities in South Carolina through opportunities in 
the emerging biomass and bioenergy fields. In recognition of 
his pioneering work, he was awarded the 2008 Purpose Prize. He 
also is a bioenergy entrepreneur. He is the founding member and 
Vice President of the Board of South Carolina Biomass Council 
and a member of the Southeast Agricultural Forest Energy 
Resources Alliance. He is the President of Agri-Tech Producers 
which is developing and commercializing biomass technology in 
South Carolina through partnerships with North Carolina State 
University and Kusters Zima Corporation in Spartanburg.
    Looking forward to hearing from him about this innovative 
torrefaction technology that Agri-Tech Producers is bringing to 
the market, and we thank him for being here.
    Chairman Baird. Thank you, Mr. Inglis. It is obvious we not 
only have professional interests as Members, Chair and Ranking 
Member of this Committee, we have personal interest as we 
represent districts with great potential. Our colleague, Dr. 
Bartlett, as you may discover when he offers his questions, is 
one of the real leaders in walking the talk of renewable 
energy. He has probably the lowest carbon footprint of any 
Member of Congress in his residence, and I admire that greatly. 
So he brings great expertise.
    With that, we will begin. As the witnesses know, we have 
five minutes for a testimony followed by questions from the 
panel, and we invite you to begin. We will begin now with Dr. 
Stevens. Thanks again to all of you for your presence.

   STATEMENT OF DR. DON J. STEVENS, SENIOR PROGRAM MANAGER, 
  BIOMASS ENERGY & ENVIRONMENT DIRECTORATE, PACIFIC NORTHWEST 
         NATIONAL LABORATORY, U.S. DEPARTMENT OF ENERGY

    Dr. Stevens. Thank you very much, Mr. Chairman, and the 
Members of the Committee. I very much appreciate this 
opportunity to be here today at a time when our nation is 
moving forward with a sense of purpose and urgency toward a 
more sustainable energy future, and biomass is certainly part 
of that future.
    As a nation, we have approximately 1.3 billion tons 
potentially available on an annual basis for a variety of 
energy purposes. As you indicated, those resources come from 
woody biomass, from agricultural residues, from dedicated 
energy crops, and others, all of which vary significantly on a 
regional basis. We can use that for a variety of purposes, 
biofuels, or for the topic of today, biopower.
    Several technology options exist to convert biomass to 
biopower including direct combustion, gasification, and 
pyrolysis, which I am talking about today.
    So what is pyrolysis and why is it important? Well, biomass 
pyrolysis is simply the process of heating biomass in the 
absence of air to produce a combination of liquids, solids and 
gaseous products, and we can control the relative amounts of 
those by selecting the process conditions accordingly.
    Today I will focus on so-called ``fast pyrolysis'' which 
produces a liquid product referred to as ``bio-oil.'' That bio-
oil has several important characteristics that are beneficial 
for power generation. Most importantly, the bio-oil can be used 
in high-efficiency electric generation systems, systems that 
can't directly use solid biomass. With stabilization and 
upgrading, the bio-oil can be used in industrial turbines, 
combined cycle systems, or potentially solid oxide fuel cells. 
These have electric generation efficiencies of 30 to 40 or more 
percent compared to a simple wood-fired boiler system with 
efficiencies of 15 to 25 percent. And since we have a finite 
amount of biomass in our nation, it is important to use that 
efficiently to meet our national energy needs.
    Both nationally and internationally at present, there is 
significant interest in using pyrolysis. Technologies to 
produce bio-oil are in the near-commercial stage of 
development, and there are several large-scale development 
units with capacities ranging from about five to about 200 tons 
per day in operation to produce bio-oil on a demonstration 
basis. However, at present, no fully integrated commercial bio-
oil to energy facilities exist.
    The primary technical barrier at this time is the need for 
stabilization and upgrading. Stabilization is necessary so the 
bio-oil can be stored and used for periods of several months, 
and additional upgrading is needed to meet equipment 
specifications for high-technology conversion systems. The 
upgrading, among other things, chemically neutralizes the bio-
oil and removes mineral salts.
    There are quite a few national and international research 
programs currently focused on removing these technical barriers 
for the utilization of biomass. Pacific Northwest National Lab, 
for example, is working with many partners, including industry, 
Department of Energy, USDA, and other national labs and 
universities to improve bio-oil stabilization and upgrading. 
And we are also looking at the use of catalysts to improve the 
initial quality of the bio-oil as it is formed to reduce the 
need for downstream stabilization and upgrading.
    In addition, we are working in collaboration with a range 
of international groups to understand just how much 
stabilization and upgrading is needed for various applications 
for bio-oil. PNNL leads the International Energy Agency's 
Pyrolysis Task, and we are also working with groups in Canada, 
Finland and Asia on other pyrolysis issues.
    As a result of this work, we are making significant 
progress in overcoming the technical barriers for using bio-
oil.
    In summary, I would like to conclude by noting that 
pyrolysis offers flexible options to meet our national and 
regional energy needs. The bio-oil gives us the opportunity to 
more efficiently produce the electricity, and national and 
international programs are assisting industry by resolving the 
existing technical barriers.
    Thank you.
    [The prepared statement of Dr. Stevens follows:]

                  Prepared Statement of Don J. Stevens

Introduction

    Chairman Baird and distinguished Members of this subcommittee, 
thank you for providing me an opportunity to testify today regarding 
biomass pyrolysis and its potential for contributing to our nation's 
energy needs.
    My name is Don Stevens, and I am a Senior Program Manager in the 
Energy & Environment Directorate at Pacific Northwest National 
Laboratory (PNNL). In this role I am responsible for developing PNNL's 
technical approach to sustainable production of biopower and biofuels. 
I have over 30 years of research and development experience in the area 
of biomass power and fuels, and much of that work has focused on the 
use of pyrolysis and gasification. During this time, I have worked with 
the U.S. Department of Energy's Office of the Biomass Program as well 
as a variety of other U.S. and international clients, including the 
International Energy Agency's Implementing Agreement on Bioenergy.
    Today I will provide information on biomass pyrolysis and its 
potential for contributing to our national needs for sustainable 
energy. I will:

        <bullet>  explain why biomass pyrolysis offers potential 
        advantages for producing both biopower and ``drop-in'' biofuels 
        from biomass

        <bullet>  address the current state of development for the 
        technology

        <bullet>  describe technical barriers that, if overcome, could 
        speed technology deployment

        <bullet>  describe national and international research efforts 
        that are addressing these technical barriers.

The Importance of Biomass Pyrolysis

    Over the past three or four years, biomass pyrolysis has attracted 
increasing attention as a technology with the potential to more 
effectively utilize biomass resources. Pyrolysis provides a flexible 
pathway to convert solid biomass to a liquid intermediate. Following 
stabilization and upgrading, the resulting product can be used to fuel 
higher-efficiency electric power generation technologies such as gas 
turbines or integrated combined cycle systems. With additional 
upgrading, the bio-oil can potentially be used in highly efficient fuel 
cells or can be refined to liquid transportation fuels. Biomass 
pyrolysis thus provides a continuum of options for efficiently 
producing electricity or fuels to meet a variety of our national needs.
    The production of bio-oil as an intermediate has several potential 
benefits. Liquid intermediates have higher bulk energy densities than 
the solid biomass and can be transported at lower cost. Liquid 
intermediates are more readily fed into advanced biomass conversion 
technologies than solids, and they are more readily fed, with other 
fuels, into to co-firing facilities. The liquid intermediates are 
particularly important because they are compatible with advanced 
conversion technologies such as industrial turbines, which more 
efficiently utilize our biomass resources. These high-efficiency 
systems are a priority because they can achieve the highest impact from 
our limited biomass resources. Biomass is also the only source of 
renewable liquid fuels to displace petroleum, and the bio-oil liquid 
intermediate is a promising opportunity for producing renewable ``drop-
in'' gasoline and diesel transportation fuels.
    The impact of using pyrolysis to increase utilization efficiency is 
shown in Figure 1. The raw bio-oil, as produced, can be combusted in 
conventional steam boilers with current biomass-to-electricity 
generation efficiencies typically ranging from about 15 percent to 25 
percent depending on scale and other factors. Following moderate 
stabilization and upgrading, the bio-oil can potentially be combusted 
in industrial turbines which have electrical efficiencies of about 30 
percent, or in combined cycle gas/steam turbines that have efficiencies 
of 35 percent or more. Additional stabilization and upgrading would 
potentially permit the pyrolysis product to be used in advanced solid 
oxide fuel cells with electric generation efficiencies of 40 percent or 
more. These ranges are approximate. The same type of upgrading needed 
for fuel cell use would also be relevant to producing liquid 
transportation fuels. This range of opportunities provides flexibility 
in meeting national and regional energy needs.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Overview of Pyrolysis and Bio-oil

    Biomass consists of a complex arrangement of natural, oxygen-
containing polymers, including cellulose, hemicelluloses, and lignin, 
which have fairly low energy density. A challenge exists in converting 
these constituents into a state that can be shipped inexpensively to 
large-scale central processing facilities and used efficiently in high 
technology conversion systems. Pyrolysis, which is defined as the 
heating of biomass in the absence of air, is one option for converting 
biomass to a liquid intermediate. Pyrolysis processes generate a liquid 
bio-oil along with gas and solid (biochar) by-products, and the 
relative portions of each can be controlled by the processing 
conditions. While pyrolysis has been used historically to produce 
charcoal, most current efforts are focused on advanced processes that 
maximize the yield of bio-oil.

Fast Pyrolysis
    At present, fast pyrolysis is the most developed pyrolysis 
technology for producing liquid bio-oil. In fast pyrolysis, the biomass 
is reacted at moderately high temperatures (450-550 <SUP>+</SUP>C), for 
very short times (less than one second). This produces bio-oil with 
physical properties superficially similar to #4 fuel oil, but different 
chemically. The bio-oil is less stable and more acidic than petroleum 
oil, and also may contain small percentages of inorganic mineral salts 
from the biomass. These characteristics make the raw product unsuitable 
for longer-term storage, for use in higher-efficiency electric 
generation systems, or for use as a liquid transportation fuel. 
However, the oil can be stabilized and upgraded using processes such as 
hydrotreating to produce stable fuels for advanced technologies such as 
industrial gas turbines for power generation. Depending on the extent 
of upgrading, the refined bio-oil can also potentially be used in 
advanced fuel cells or even gasoline- and diesel-range hydrocarbons for 
transportation fuels. The overall process is depicted in Figure 2.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Distributed Pyrolysis and Refining
    Pyrolysis technology provides a means by which biomass can be 
collected and initially converted near its source. Fast pyrolysis units 
can be located near biomass resources where the biomass would be 
converted to the higher energy density bio-oil. The resulting bio-oil 
can be collected from multiple facilities and transported to larger-
scale central facilities for stabilization or end-use (Figure 3), 
taking into account economies of scale to help reduce costs. This 
provides an effective way to decouple the biomass resource from the 
eventual conversion and potentially can reduce the costs of collecting 
and transporting biomass.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Related Pyrolysis Technologies
    In addition to fast pyrolysis, other pyrolysis technologies of 
value exist. Hydrothermal liquefaction has also been examined to 
convert feedstocks such as wet biomass to bio-oil. This technique 
liquefies wet biomass streams at temperatures of about 350 
<SUP>+</SUP>C and high pressures (200 atm) to produce a bio-oil with 
less oxygen than fast pyrolysis. This approach could be useful in cases 
where the biomass resource has high moisture content, such as the 
residual biomass from algae production.
    Pyrolysis is also used to produce solids. The oil yield from 
biomass decreases while the solid (biochar) content increases to about 
a 30 percent yield. The biochar is being examined as a method to remove 
atmospheric carbon (via plant growth) for storage in soil. As a soil 
amendment, biochar not only acts as a carbon pool, but it has been 
shown to reduce fertilizer requirements while enhancing crop yields and 
reducing phosphorous and nitrogen chemical runoff in some soils in 
certain geographical regions.\1\
---------------------------------------------------------------------------
    \1\ J. Lehmann and S. Joseph. 2009. ``Biochar for environmental 
management: An introduction.'' Chpt. 1 in J. Lehmann and S. Joseph 
(eds.) Biochar for Environmental Management: Science and Technology. 
Earthscan Publishers, London, UK.

Summary of the Current Biomass Pyrolysis Industry

    Presently, the use of fast pyrolysis to produce liquid bio-oil 
intermediates for energy uses is at the near-commercial stage. Smaller-
scale fast pyrolysis technologies are used by companies in the United 
States, Europe, and elsewhere to produce ``liquid smoke,'' which is 
processed into a food flavoring and additive. Larger-scale fast 
pyrolysis demonstration facilities are being built or operated in the 
United States, Canada, Europe, and Asia with companies such as Ensyn, 
Dynamotive, BTG, Renewable Oil International, and others. These 
demonstration units have capacities ranging from about five to 200 
tons/day of biomass feed, and they will produce bio-oil that could 
potentially be used in energy applications. At present, there are no 
integrated, fully commercial facilities where the bio-oil is converted 
to either electricity or transportation fuels.
    Conventional, slow-pyrolysis continues to be used to produce 
commercial charcoal for cooking and industrial purposes throughout the 
world. The efficiency of these processes varies widely depending on the 
type of process used. The charcoal is frequently sold as ``lump'' 
charcoal or briquetted to provide consistency in the product. 
Commercial charcoal may also contain carbon from other sources such as 
coal or residual petroleum.
    Biochar is produced using the same slow pyrolysis technologies as 
those for charcoal, but additives common to commercial charcoal are 
omitted. Several smaller companies have recently been established to 
produce biochar using slow pyrolysis technologies, but at present there 
is an uncertain market for the product. The value of biochar, to the 
producer or the user, has yet to be quantified.

Technology Barriers

    Although the capability to produce pyrolysis bio-oils exists, there 
are currently no integrated, pyrolysis-based facilities commercially 
producing either electricity or transportation fuel, as noted 
previously. Technical barriers impede the deployment of these 
technologies.

Stabilization and Upgrading:
    The primary technical barrier for biomass pyrolysis is related to 
the characteristics of the bio-oil. At a molecular level, the raw bio-
oil contains 30-35 percent oxygen by weight, with that oxygen coming 
from the biomass feedstock. The crude product is less stable than 
petroleum and will begin to change at room temperature over a period of 
several weeks or months, or more rapidly upon heating to even moderate 
temperatures. The product slowly becomes more viscous, and may separate 
into multiple phases. The oxygen content makes the raw bio-oil mildly 
acidic, and that can potentially lead to corrosion of tanks used for 
transportation and storage. The bio-oil also may contain small 
quantities of inorganic mineral salts that were part of the original 
biomass. When the bio-oil is subsequently burned, the salts can 
volatilize and then condense on cooler locations downstream, 
potentially creating deposits that reduce system performance or can 
cause significant damage in systems such as gas turbines with high 
rotation speeds.
    Effective, low-cost stabilization and upgrading of the bio-oil is 
needed to help biomass pyrolysis more rapidly enter the market. 
Stabilization and upgrading processes improve the quality of the oil by 
removing oxygen, reducing the acidity, and removing mineral salts from 
the intermediate.
    The extent of upgrading required will depend on the end-use for the 
bio-oil. In electric generation systems, raw bio-oil can potentially be 
used in simple boiler/steam systems, but stabilization is needed to 
ensure the bio-oil can be stored for reasonable periods of time at a 
variety of different temperatures. Additional upgrading is needed for 
more advanced conversion technologies, such as advanced boiler systems, 
industrial gas turbines, or combined cycle systems. The upgrading would 
reduce the acidity of the bio-oil and remove mineral content to be 
fully compatible with these advanced systems. The advanced systems 
provide higher electric generation efficiencies that better utilize the 
biomass resource. As is found with refining petroleum, additional 
upgrading would be required to provide a fuel for advanced fuel cells 
or for transportation fuels. The upgrading would remove small amounts 
of sulfur from the product and further reduce its oxygen content. 
Similarly, the more extensive upgrading is also needed to produce 
``drop-in'' gasoline, diesel, and jet fuels for transportation fuels. 
The need for stabilization and upgrading can be viewed as a continuum 
where stabilization is desirable for even the simplest conversion 
technology, and additional upgrading is required to produce a fuel that 
can be used in advanced technologies, either for electric generation or 
for transportation fuels.

Improving the Bio-oil Quality:
    The need for stabilization and upgrading of the bio-oil could 
potentially be reduced if a higher quality bio-oil could be produced. 
Current fast pyrolysis systems have been optimized to produce high 
liquid yields, and there is limited ability to change the properties of 
the bio-oil. Modified systems, such as those using catalysts during the 
pyrolysis process, could produce bio-oil that would also require less 
upgrading. The catalysts would enhance the rate of chemical reactions 
that remove oxygen from the biomass, thus providing an intermediate 
with lower oxygen content. Other processing techniques can also 
potentially be applied to bio-oil improvement. Improvement of the 
original bio-oil quality is needed for either electricity generation or 
for producing transportation fuels.

Expanding Bio-oil Standards:
    For bio-oil to enter the marketplace, standards are needed to 
define its characteristics and qualities. Working within the 
International Energy Agency's Bioenergy Agreement, PNNL recently helped 
establish the first standard for use of bio-oil as a burner fuel, ASTM 
Standard D-7544-09. This standard provides definition of the qualities 
the intermediate must have for use in boilers. Additional standards are 
needed to quantify the qualities necessary for higher efficiency uses 
of the bio-oil.

Improving Utilization of Byproducts:
    Pyrolysis creates a combination of liquid, gaseous, and solid 
(char) products. The liquid will primarily be used for energy purposes, 
but it also contains precursors to higher-value chemicals. Better 
extraction and utilization of these precursors for chemical products 
can potentially increase the economic rate of return for the pyrolysis-
based conversion facility (biorefinery). The bio-oil is a complex 
mixture of many individual components, and there is a need to better 
characterize the intermediate and better understand the processing 
involved in generating chemical byproducts.
    In addition to liquids, pyrolysis also produces solid char. The 
term biochar has been applied to the use of that material as a soil 
amendment. The impact of biochar is only partially understood at this 
time. While biochar can produce significant yield improvements in some 
soils, it has very little effect on others. This arises both from the 
variability of soils as well as the variability of biochar produced by 
different pyrolysis approaches. Improved understanding of the 
characteristics of the biochar and how those influence plant growth are 
needed. That information will provide a better quantification of the 
value of biochar to the farmer. In addition, work is needed to 
understand the sustainability impacts of biochar. For example, it is 
not presently clear whether there would be greater carbon savings to 
pyrolyze biomass and put biochar in the ground, or to alternatively 
convert that same biomass to liquid transportation fuels, thus 
displacing petroleum fuel emissions. Additional information on the 
total ``value'' of biochar is needed before effective markets can be 
established.

Industry Acceptance of Bio-oil:
    Bio-oil is a relatively new product, and the industries which might 
use it effectively are not familiar with bio-oil. Changing fuel 
presents both a market risk and a market opportunity. Programs to 
reduce the technical and financial risk of using bio-oil may be helpful 
to assist with deployment.
    The implementation of biomass pyrolysis also will depend on the 
complex match between regional feedstock resources, their availability, 
and the corresponding regional needs for fuels, power, and products, 
including chemicals and biochar. Analyses such as life cycle studies, 
technoeconomic projections, and related work will assist industry in 
making educated decisions on the most effective use of biomass on both 
a regional and a national basis.

Current Research

Overview of National and International Research:
    Biomass research is being conducted by many groups, both in the 
United States and in other countries.
    In the United States, research has been focused primarily on the 
production of liquid transportation fuels that will be ``drop-in'' 
hydrocarbon replacements for gasoline, diesel, and jet fuels. As such, 
these are compatible with the existing fuel supply, distribution, and 
utilization infrastructure. Research on pyrolysis-derived biofuels has 
focused on the major barriers of stabilization and upgrading the bio-
oil intermediate. The research in this area has included a range of 
thermal and catalytic techniques to convert biomass to refinery 
feedstock that can be finished to transportation fuels. This research 
has been funded primarily by the U.S. Department of Energy with 
additional efforts funded by the U.S. Department of Agriculture. The 
stabilization and upgrading research is directly relevant for producing 
bio-oil intermediates used in high-efficiency electric generation 
systems. While the amount of upgrading needed for electric power 
generation will be less than that needed for hydrocarbon fuels, the 
same types of processing techniques are likely to be used in both.
    In other countries including Canada, Finland, Germany, the United 
Kingdom, the Netherlands, Australia, and others, researchers are 
examining the use of pyrolysis bio-oil both for transportation fuel and 
electricity generation. There is international recognition of the 
flexibility of pyrolysis to meet a variety of fuel and electricity 
needs. The interest in producing electricity is particularly strong in 
countries such as Finland where renewable portfolio mandates provide 
very significant cost incentives to produce biopower. By comparison, 
incentives of that magnitude do not exist in the United States. In some 
countries, biopower is seen as the earliest use of bio-oil, with 
transportation fuels being viewed as an attractive alternative as the 
upgrading technology advances.
    International cooperation in the area of biomass pyrolysis is 
fostered by the International Energy Agency's Bioenergy Agreement 
through their Task 34, Biomass Pyrolysis. This Agreement promotes 
information exchange, exchange of researchers, and production of 
original scientific reports. The interests of this group are based on 
the priorities of the participating countries and include pyrolysis for 
both biofuels and biopower. The International Energy Agency's Bioenergy 
Pyrolysis Task has been renewed for a three-year period starting 
January 2010 through the end of 2012. Douglas C. Elliott, an 
international expert on biomass pyrolysis at PNNL, leads this Task.

PNNL's Research in Pyrolysis:
    PNNL is conducting research in each of the technical barrier areas 
described above. A primary area of research at PNNL focuses on 
stabilizing and upgrading bio-oil. Through the Laboratory's Department 
of Energy-funded program, PNNL teams with key partners, including other 
national laboratories and industry partners such as Ensyn, a pyrolysis 
oil company, UOP, a major petroleum refinery technology provider, and 
others to examine upgrading to produce transportation fuels. PNNL also 
has privately funded efforts exploring technology development for use 
with biomass feedstocks unique to Asia.
    PNNL is also working in two international collaborations, one with 
Canada and one with Finland, to examine the extent of stabilization and 
upgrading needed for utilization of bio-oil for either electric 
generation or biofuel applications. This work is examining the 
characteristics of bio-oils produced from a range of biomass 
feedstocks, including beetle-killed pine, with the intent of matching 
those with end-use requirements. The work leverages DOE's funding with 
equivalent amounts from Canada and Finland to organizations such as 
Finland's VTT Laboratory, Natural Resources Canada (Canmet) laboratory, 
and the University of British Columbia.
    PNNL also conducts research on ways to improve the quality of bio-
oil to reduce the need for stabilization and upgrading. Catalytic 
processing during the initial pyrolysis step is being used to remove 
more oxygen from the bio-oil. This work, funded by the DOE Office of 
the Biomass Program is relevant to production of bio-oil for either 
biopower or biofuel use.
    Research to assist in the establishment of bio-oil standards is 
being conducted at PNNL in association with the efforts of the 
International Energy Agency's Pyrolysis Task. As noted previously, PNNL 
leads this Task and helped establish the first ASTM standard for bio-
oil quality for boiler use in 2009. Additional work to establish 
standards for bio-oil use in more efficient applications is ongoing. 
The International Energy Agency Task also is coordinating research on 
higher-value chemical products that can potentially be produced from 
biomass pyrolysis in so-called biorefineries.
    Researchers at PNNL also are examining the use of biochar as a soil 
amendment as part of their work with DOE's Office of the Biomass 
Program. In collaboration with the U.S. Department of Agriculture at 
the Prosser Experimental Station, we are focusing on the 
characterization of biochar from various biomass sources and 
correlating those differences with changes in soil productivity.
    We are also completing a research Cooperative Research and 
Development Agreement (CRADA) with Archer Daniels Midland Company (ADM) 
and ConocoPhillips on hydrothermal liquefaction for producing bio-oil 
from wet biomass feedstocks. Finally, PNNL is involved in engineering 
studies aimed at developing technoeconomic models for pyrolysis 
technologies and evaluating life cycle impacts of pyrolysis versus 
other fuel production options.
    It is important to note that biomass pyrolysis must be accomplished 
in a sustainable manner that minimizes impacts to our water resources 
and the environment. PNNL, with part of its DOE funding, is examining 
the sustainability of biomass thermal conversion processes, including 
pyrolysis. We are also developing water availability and land-use 
change models that will help ensure a wide range of technologies, such 
as biomass pyrolysis that can be done on a sustainable basis.

Summary

    In summary, biomass pyrolysis offers a flexible and effective way 
to create a liquid intermediate that can be used for either 
transportation fuels or electricity generation. Converting the solid 
biomass to a liquid both increases the energy density and makes the 
intermediate easier to feed to conversion systems than solid biomass. 
These characteristics allow expanded use of biomass.
    Stabilization and upgrading of the bio-oil intermediate is 
important. While some systems can potentially operate with raw bio-oil, 
stabilization and upgrading greatly expands the opportunities for bio-
oil utilization. The upgraded bio-oil can be used in higher efficiency 
electric generation technologies to achieve higher productivity from 
our finite biomass resources. In addition, upgrading technologies can 
be utilized to produce ``drop-in'' transportation fuels compatible with 
present infrastructure.
    Current research programs internationally are addressing the key 
barriers to biomass pyrolysis utilization. The Federal Government can 
further advance these research efforts by funding strong core research 
programs. While emphasis on implementation is vital, it also is 
important to invest in our nation's science base, which provides the 
necessary foundation for developing next-generation technology aimed at 
addressing key research challenges within the scope of DOE's 
implementation projects and beyond.
    Finally, the Nation needs to conduct analyses such as life cycle 
assessments, technoeconomic projections, and others to help prioritize 
what the most important uses of our biomass resources are, both 
nationally and regionally. With finite amounts of biomass available 
annually, we need solid technical information on a regional and 
national basis to decide whether it is better to convert these to 
electricity, to fuels that reduce imported oil, or to some combination 
of both. This information will be essential to assist industry in 
determining how to best use biomass resources as they deploy these 
technologies.
    Thank you for this opportunity to share this information.

                      Biography for Don J. Stevens

    Dr. Stevens is presently a Senior Program Manager in the Energy 
Directorate of Pacific Northwest National Laboratory. He has over 30 
years of RD&D experience in the area of biomass energy systems.
    In his current position, he is responsible for developing programs 
with DOE and industry to convert biomass resources to chemicals, fuels 
and electricity. PNNL's work in this area focuses on the use of thermal 
catalysis and biotechnology to create fuels and higher value products 
from biomass residues. The biofuels help the nation meet its goals of 
reducing imports of petroleum, and the bio-based products are important 
in providing economic return in the integrated biorefineries of the 
future. Dr. Stevens is also involved in programs on biofuels sponsored 
the International Energy Agency and serves as a Director for the 
Biomass Energy Research Association.
    Over a 30-year period, he has conducted research and performed 
analysis on a variety of bioenergy systems. Dr. Stevens is the author 
or co-author of numerous publications and has been an editor of three 
books on biomass energy. He received his Ph.D. Degree in physical 
chemistry from University of Utah in 1976 and conducted postdoctoral 
work on biological membranes at the University of Illinois Champaign-
Urbana.

    Chairman Baird. Thank you. Mr. James.

    STATEMENT OF MR. JOSEPH J. JAMES, PRESIDENT, AGRI-TECH 
                         PRODUCERS, LLC

    Mr. James. Mr. Chairman and distinguished Members of the 
Subcommittee, thank you very much for the opportunity to appear 
before you today and discuss some things that Agri-Tech 
Producers, LLC, is doing. I want to give a special thanks to 
Congressman Inglis for his interest in our work. It turns out 
that our manufacturing partner is located in his district, even 
though our company is not within his district, but we greatly 
appreciate his interest and his support.
    I would like to state a problem. Cellulosic material, wood 
and agricultural material, is not an easy substance to work 
with. It is generally about 50 percent moisture, particularly 
in the case of wood, it is bulky, it is of relatively low 
energy value, and the economics of getting it from the place of 
harvest to the place where it is actually going to be used as a 
fuel or energy sometimes means that we leave a lot of that 
material, of that one billion that was referred to earlier, 
remains in place where it might have been growing.
    So a solution is required to that problem: A solution that 
removes as much of the water as possible, that densifies the 
energy content of the material, that also may change its 
physical characteristics in such a way that utilities can coal 
fire it and grind it very easily and mix it with coal as well 
as other users, and other logistical approaches such as 
densification or crushing the material into briquettes or 
pellets will help facilitate its usability.
    And of course, there is a challenge in developing the 
appropriate supply chains to get material from the point of 
where it has been grown and harvested to the point where it 
could be used. And I do want to emphasize there is a real need 
for a focus on solid fuels in addition to liquid fuels, so I 
appreciate your comments earlier, Mr. Chairman.
    About three years ago we got focused on something called 
torrefaction. Torrefaction is essentially a process. Again, it 
is a mild form of pyrolysis actually which dries off the water, 
and in the case of the innovations at North Carolina State 
University has developed, we are able to capture some of the 
off-gases and use those as process heat. So the process that we 
operate uses about 80 percent green fuel, if you will, and very 
little fossil fuel and outside energy. I won't go into anymore 
details in that. My written testimony has quite a bit about the 
process.
    But the key thing is that it creates fuels from either wood 
or from agriculture material that can be used cost effectively. 
When I say cost effectively, we are talking about producing 
material that may range in the $80 to $100 a ton range, and 
they have BTU counts or energy content in the 11,000 BTU range 
which is very comparable to coal, and the pricing of that is 
also comparable to coal.
    Our company has been very fortunate to have received a 
variety of federal and state support in our efforts to 
commercialize this very exciting technology. One of our 
affiliates years back was fortunate to get a grant from the 
U.S. Forest Service's Woody Biomass Utilization Program, and 
our assignment was to work in the national forest in South 
Carolina and try to create new markets for the biomass that 
results when the forest does its thinnings to reduce the hazard 
of fire and also to improve forest health. We have quickly 
learned what I have just described, that if you are close to 
the customer, it is easy to take that material and ship it to 
the customer for their use. If you are more than 30, 40, 50 
miles away, it is almost impossible to make the economics work. 
That is when we went looking for a solution to that problem and 
discovered the torrefaction process at NC State.
    We have also been fortunate to have received funding from 
the U.S. Forest Service's Wood Education Resource Center, and 
we are using those resources to help us investigate the 
differences between torrefying hard woods and torrefying soft 
woods. As you might guess, different materials have different 
characteristics, so there is a need for research to fine tune 
or possibly make different kinds of equipment to handle 
different kinds of material.
    Mr. Chairman, we are very fortunate as well recently to 
have gotten a grant from the Department of Energy (DOE) under 
their SBIR/STTR program which is allowing us to look at the 
feasibility of developing mobile torrefaction units, which 
would allow us to go from farm to farm or forest--logging deck 
to logging deck, be able to collect more material from 
disbursed places and put that into the channel of material that 
can be used.
    I do have some suggestions about some additional federal 
support that would be helpful to us. One is increasing 
availability of financing for small companies. We are very 
fortunate at the moment that we don't need financing to advance 
our manufacturing of torrefaction equipment. However, as we get 
into, and spend a little bit of our time on, the processing 
side, the credit crunch that our country is suffering, 
particularly for small companies, is creating some challenges 
that we are going to need some help with.
    In addition, we have some very exciting intellectual 
property (IP). Our intellectual property is much in demand 
around the world, and we are getting inquiries from China, 
India, Russia and other places, places which may or may not 
properly respect IP. We would like to be part of the global 
solution for renewable energy, but as a small company we are 
very nervous about sharing our IP in certain places abroad. Any 
help that the Federal Government, either legislatively or in 
negotiations, bilateral or otherwise, would be extremely 
helpful to us as well.
    And then lastly, we believe that in addition to industrial-
scale activity where hundreds and thousands of tons of material 
are processed by large, fixed units in large facilities, we 
think there is tremendous opportunity for forest-reliant 
communities and rural communities to use our technology on a 
community scale if you will, to work in their forests, to work 
with their farmers, improve forest health, but also generate 
new revenues and new jobs in those communities. DOE and the 
U.S. Department of Agriculture (USDA) have funded large-scale 
research, or research into large-scale biomass supply and 
biomass value train operations. We would suggest that in 
addition to that, in order for us and others to have impact on 
rural communities, that we should also be looking at the 
community scale or microscale as well, and we would be glad to 
participate in that. In your own state, Mr. Chairman, we have 
had a number of forest communities contact us looking for ways 
to add value to the materials that they have available to them. 
We would love to be able to provide demonstration units to them 
so that they might accomplish that particular mission.
    In summary, we are very excited to be with you today. We 
think there are some great opportunities to move forward, and 
we look forward to working with the Committee. Thank you.
    [The prepared statement of Mr. James follows:]

                 Prepared Statement of Joseph J. James

    Mr. Chairman and distinguished Members of the Subcommittee, thank 
you for this opportunity to appear before you today. I am Joseph J. 
James, President of Agri-Tech Producers, LLC (ATP), a company, which is 
commercializing innovative torrefaction technology, developed by NC 
State University, which cost effectively converts cellulosic biomass, 
like wood and agricultural materials, into a dry, more energy dense and 
more usable renewable fuel, which can be co-fired with coal and used 
for a variety of other renewable energy purposes. Most of our efforts 
are focused on making world-class torrefaction equipment, but we also 
plan to be involved in a limited number of biomass processing plants, 
using our torrefaction technology.

Overview of Testimony:

    I would like to discuss why it is important to treat cellulosic 
biomass, in order to make it a cost-effective source of renewable 
energy, and why that is important to developing effective biomass 
supply chains necessary for our nation's clean energy future. I will 
obviously talk about torrefaction and the important role that 
technology can play, in addition to the need for densification 
processes to enhance the logistics of shipping and handling cellulosic 
biomass. Lastly, I will describe the role our Federal Government has 
played in helping our company compete in the global market place and 
what additional measures are necessary for our company's and our 
nation's success.

The Problem:

    There are substantial economic and logistical challenges in 
shipping woody biomass out of the forested areas or agricultural 
biomass from farming areas, in a cost-effective manner, to distant end-
users. Untreated cellulosic biomass, woody or otherwise, is moist and 
bulky, which limits its ability to be cost-effectively transported to 
ultimate users and renders a lot of otherwise available biomass 
useless.
    In addition, many forests go without mechanical treatments to 
remove overgrown underbrush, which is necessary for fire hazard 
reduction and forest health, because the resultant biomass is not close 
enough to markets to generate sufficient offsetting revenues.

Solutions:

    Solutions to these economic and logistical problems will require 
new processes, which can cost-effectively remove much of the moisture 
found in cellulosic biomass, increasing the energy density of the 
material, converting it into a substance more easily used by the end-
user and making it a more valuable substance, before shipping. Also, it 
is common practice to use physical densification methods, to pelletize 
or briquette cellulosic biomass, in order to make it more physically 
dense, so that more energy per ton can be shipped. For example, 
toffefied biomass has been shown to make stronger, more energy rich and 
water resistant pellets and the torrefaction process may eliminate the 
need for a separate drying system, used by most pellet makers, who 
incur substantial capital and operating costs for such systems.
    The U.S. Department of Energy has funded projects to enhance the 
effectiveness of biomass supply chains and more planning and research 
in that area is needed, including, in my opinion, research and 
demonstrations on how to develop small-scale biomass operations, which 
can generate jobs in many, poor rural communities.

Torrefaction Technology:

    Torrefaction is a relatively mild heat treatment of biomass, 
carried out under atmospheric pressure in the absence of oxygen, at a 
temperature between 200-300 <SUP>+</SUP>C. North Carolina State 
University (NCSU) has a variation in the temperature by which its 
torrefaction process is run. During torrefaction, all moisture and 
volatile organic compounds in the biomass are removed and the 
properties of biomass are changed to obtain a much better fuel (more 
energy dense), lowering transportation costs and improving combustion 
(higher heating value).
    Water and the volatile organic compounds (e.g., pinenes and 
turpenes) are vaporized in the torrefaction process, as is some of the 
hemicelluloses. In NCSU's process, the gaseous products of torrefaction 
are captured and combusted to allow the process to run on minimal 
external energy inputs. When green wood (approximately 50 percent water 
by weight) is torrefied, ideally about 80 percent of the original 
energy is available in the final torrefied product, which is roughly 30 
percent of the initial green weight. The energy density of the 
torrefied biomass is approximately 11,000 BTUs, which is comparable to 
that of coal, at 12,000 BTUs, but with no net carbon dioxide emissions 
and other pollutants, that make coal a concern.
    The innovations to the basic torrefaction process, which NCSU has 
developed, is most easily understood as a mix of counter-flow heat 
exchanger, indirect heating gasification and wood chip conveyor (see 
Figure 1, below). The woody biomass (chips) enters a torrefaction 
chamber (mild steel pipe) that is sealed from the heating fluid 
surrounding it (combustion gases). The biomass is mechanically conveyed 
from the cool end to the hot end of the torrefaction chamber and is 
heated by simple conduction from hot gases moving from the hot end to 
the cool end, outside the torrefaction chamber. The biomass is also 
heated by pyrolitic reactions within the torrefaction chamber.
    As the biomass is heated, water vapor, volatile organic compounds, 
carbon monoxide, carbon dioxide, hydrogen, and methane are released and 
move from the torrefied material, under natural draft to a flame 
source, where all but the water vapor are combusted with atmospheric 
oxygen. The combusted gasses and water vapor move around the 
torrefaction chamber and release their heat to the incoming biomass, 
before being released to the atmosphere.
    The biomass in pipes, within the interior of the torrefaction 
chamber is not exposed to either a direct flame or the combustion 
gasses. Volatile organic compounds and water vapor are inhibited from 
moving out of the torrefaction chamber by the wood chips in the hopper 
above the wood-metering device, at the inlet of the torrefaction 
chamber. The torrefied wood is cooled in a sealed chamber while being 
conveyed to a briquetting or pelletizing machine, a waiting truck or a 
storage container.
    Torrefaction changes cellulosic biomass from a moist, fibrous, 
perishable, material into a dry, grind-able, stable fuel that can be 
used as a coal substitute and a feedstock for many other energy-making 
uses. Torrefaction eliminates the costs associated with transporting 
the moisture in the biomass, elevates the heating value of the biomass 
fuel, and reduces the volume of the biomass. The energy density of the 
torrefied product can be two to three times, more dense than untreated 
biomass, on a weight basis, and two to four times, on a volume basis. 
Torrefied biomass offers higher co-firing rates for coal-fueled power 
generation plants than can be achieved with the combustion of untreated 
biomass. In addition, torrefaction renders cellulosic a more brittle 
substance, which can easily be crushed along with coal, without any 
substantial equipment upgrades by the utility.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Federal Government Support Provided to ATP:

    ATP has been helped by several federal programs, including funding 
received by ATP's affiliate, under the U.S. Forest Service's Woody 
Biomass Utilization Grant Program, as well as a grant received by ATP 
from the Forest Service's Wood Education and Resource Center (WERC) and 
by ATP under the U.S. Department of Energy's Small Business Innovation 
Research (SBIR/STTR) Program.
    Under the Woody Biomass Utilization Grant Program, our affiliate is 
working with the Francis Marion & Sumter National Forest, in South 
Carolina, to find new markets for the woody biomass which results when 
the Forest does its mechanical thinning, to remove underbrush and small 
trees, in order to reduce the hazard of severe forest fires and to 
promote forest health.
    It was while operating that program that we learned of the 
challenges of shipping cellulosic biomass to distant customers. The 
Forest Service has amended that grant agreement to allow our affiliate 
to collaborate with ATP, this spring, to demonstrate how torrefaction 
might overcome the logistical challenges of shipping National Forest 
biomass to distant customers. Hopefully, the new revenues received 
might allow more acreage in the National Forest to receive much needed 
thinning.
    Our observations have shown that different types of cellulosic 
material torrefy differently. ATP's WERC grant allows ATP and NCSU to 
determine the differences between the way hardwoods torrefy, as 
compared to softwoods, and to develop processes which will allow 
hardwoods to be torrefied successfully.
    This week, Clemson University will be submitting a grant proposal, 
allowing us to collaboratively determine how best to torrefy and 
densify switchgrass, as well.
    Lastly, ATP has recently been awarded a Phase l Doe STTR grant, 
which will allow us to determine the feasibility of developing mobile 
torrefaction units. Such units may make it easier to convert smaller, 
dispersed sources of agricultural and forestry biomass, from individual 
farmers or from individual foresters. Such units might also be able to 
intercept urban wood waste, prevent it from clogging landfills and 
convert it into a renewable fuel. Such systems may also be able to 
convert downed trees, in a disaster area, into renewable fuels and much 
needed revenues.

Suggestions for Additional Federal Support:

        1.  ATP is ever so grateful for the support we have already 
        received from state and federal sources, but there are 
        additional things which need to be done to help companies, like 
        ours, effectively compete in the global marketplace.

    Three of these additional things are:

        <bullet>  Increasing the Availability of Financing for Small 
        Clean Energy Businesses--Although ATP does not now need 
        financing for its core equipment manufacturing operations, it 
        will need financing to become involved in developing biomass 
        processing plants, using its torrefaction technology. 
        Unfortunately, credit for small businesses, especially those 
        using new technologies, is nearly non-existent. Most federal 
        renewable energy financing programs are geared towards very 
        large projects or rural enterprises.

        <bullet>  Protecting Small Business IP in Third-World Markets--
        ATP has been regularly contacted by businesses from Third-World 
        countries, like China, India and Russia, where it is difficult 
        to protect intellectual property (IP). Although ATP would like 
        to offer its equipment in such countries, it is afraid to do 
        so, for fear of having its machines copied and losing U.S. 
        technology and jobs.

           We recommend that our government negotiate special 
        protections for small, clean energy business IP, as it has bi-
        lateral discussions with such Third-World countries, who are 
        demanding access to climate change technology. We also hope 
        that patent applications for renewable energy technologies, 
        which are pending in the U.S. Patent Office, be given expedited 
        treatment. We understand that such a measure may be under 
        consideration by the U.S. Secretary of Commerce.

        <bullet>  Funding to Create and Demonstrate Community-Scale 
        Biomass Production Systems--ATP believes that its torrefaction 
        process and other technologies might be able to reduce rural 
        poverty, if funding for developing small-scale biomass 
        conversion facilities was available. The development of 
        community-based biomass systems is complex and will take a 
        sustained and coordinated effort, especially encouraging and 
        assisting smaller farmers to grow dedicated bio-crops, as well 
        as developing the supply chain elements needed to make such 
        systems work. Funding, similar to DOE's large-scale Biomass 
        Supply Systems program, would be very helpful, along with 
        adding new flexibility to some of the Rural Development 
        Programs offered by the U.S. Department of Agriculture. By the 
        way, USDA's Biomass Capital Assistance Program (BCAP) looks 
        like a very helpful program.

Closing Remarks:

    In summary, it is important to treat cellulosic biomass, in order 
to make it a more cost-effective source of renewable energy. New 
technologies, including innovations to processes, like torrefaction, 
can play important roles, in addition to densification processes, to 
enhance the logistics of shipping and handling cellulosic biomass. 
Lastly, our Federal Government has played an important role in helping 
our company compete in the global market place, but there are 
additional federal measures necessary for our company's and our 
nation's success in the clean energy economy.
    On behalf of Agri-Tech Producers, LLC and our partners and 
supporters, I thank you for your time and attention. I would be pleased 
to answer any questions that you may have.

                     Biography for Joseph J. James

    Joseph J. James is President of Agri-Tech Producers, LLC (ATP), a 
for-profit company, which is commercializing biomass technology and 
promoting the utilization of highly productive bio-crops.
    ATP is commercializing innovative torrefaction technology, 
developed by North Carolina State University, which converts cellulosic 
biomass into a cost-effective fuel for electric utilities to co-fire 
with coal; makes superior energy pellets; and is a superior feedstock 
for certain cellulosic ethanol-making processes.
    Mr. James is Vice President of the Board of the South Carolina 
Biomass Council and a member of the Southeast Agriculture and Forestry 
Energy Resources Alliance (SAFER). Mr. James is a 2008 Purpose Prize 
winner, for his Greening of Black America Initiative, which seeks to 
assure the inclusion of rural African-American communities and 
individuals in the Nation's growing green economy in the Carolinas.
    Mr. James has been an economic development professional, for over 
35 years, has received a BS, in Science, from Union College and has 
studied law and business administration at New York University.

    Chairman Baird. Excellent testimony. Thank you. Mr. Klara.

STATEMENT OF MR. SCOTT M. KLARA, DIRECTOR, STRATEGIC CENTER FOR 
COAL, NATIONAL ENERGY TECHNOLOGY LABORATORY, U.S. DEPARTMENT OF 
                             ENERGY

    Mr. Klara. Thank you, Mr. Chairman, and Members of the 
Subcommittee. I appreciate this opportunity to provide 
testimony on behalf of the United States Department of Energy's 
Clean Coal Research Program, particularly those activities 
related to co-feeding biomass materials with coal that reduce 
the life cycle carbon intensity of electric power generation in 
large industrial processes.
    The Clean Coal Research Program, which is administered by 
the Department's Office of Fossil Energy and implemented by the 
National Energy Technology Laboratory (NETL), is designed to 
remove environmental concerns over the future use of coal by 
developing a portfolio of innovative clean coal technologies. 
In partnership with the private sector, efforts are focused on 
maximizing efficiency and environmental performance while 
minimizing the cost of these new technologies. In recent years, 
the Clean Coal Research Program has been structured to focus on 
advanced coal technologies with integrated carbon capture and 
storage. Co-feeding biomass with coal to current and future 
power plants is a logical part of this strategy. The coal and 
biomass co-feeding option, when integrated in an advanced 
energy system with carbon capture and storage, can provide 
electric power on a life cycle basis with near-zero greenhouse 
gas emissions. Biomass can be co-fed to nearly all coal-based 
processes, including pulverized coal combustion, advanced 
oxygen-based combustion plants, and advanced gasification-based 
plants. When combined with pre- or post-combustion carbon 
capture technologies, co-feeding biomass offers a very sound 
strategy to reduce the carbon intensity of these energy 
systems. Coal biomass systems could become part of an early 
compliance strategy, particularly in existing power plants. 
Coal biomass systems can benefit from the economies of scale 
offered by large coal-based energy systems. Large biomass-only 
plants are often constrained by low biomass energy density, 
feedstock water content, feedstock collection and preparation 
and local/regional feedstock availability. Biomass can be used 
more effectively as a co-feed in large central coal plants to 
realize the benefits of the economies of scale. Coal can also 
serve to offset the seasonal and variable nature of the supply 
and availability of biomass feedstocks.
    Considerable experience exists with a number of biomass-to-
power generation facilities that have been constructed and 
operating, particularly in Europe. The International Energy 
Agency's Bioenergy Task 32 has compiled a very extensive 
database to provide a nice overview of this experience. It 
reports that over the past five to ten years there has been 
remarkable rapid progress in the developing of co-firing. 
Several plants have been retrofitted for demonstration 
purposes, while another number of new plants are already being 
designed for involving biomass co-utilization with fossil 
fuels. The majority of these plants are equipped with 
pulverized coal boilers, which is the standard, state-of-the-
art technology. Tests have been performed with virtually every 
commercially significant fuel type, for example, lignite coal, 
sub-bituminous coal, bituminous coal and opportunity fuels such 
as petroleum coke and with every major category of biomass, 
herbaceous and woody fuel pipes generated as residue and energy 
crops. Over 40 plants in the United States have co-fired coal 
and biomass over a period of several years. Operations have 
ranged from several hours of operation to several years with 
five plants operating continuously for testing purposes, either 
on wood or switchgrass, and one plant operating commercially 
over the past two years on a mixture of coal and wood.
    Research efforts are currently focused on biomass 
preparation and pretreatment requirements, feeding coal-biomass 
mixtures into high-pressure gasifiers at commercial conditions, 
and characterizing the composition of the resultant stream to 
determine impacts on downstream components.
    Biological capture of CO<INF>2</INF> through algae 
cultivation is another CO<INF>2</INF> reduction strategy that 
is gaining attention as a possible means for greenhouse gas 
reductions from these fossil fuel plants. Algae, the fastest-
growing plants on Earth, can double their size as frequently as 
every two hours while consuming CO<INF>2</INF>. Algae can be 
grown in regions such as desert conditions as not to compete 
with farmlands and forests, and they do not require fresh water 
to grow.
    While it is recognized that the greenhouse gases stored by 
algae will ultimately be reduced to the atmosphere, there is a 
net-carbon offset by effectively using more of the carbon 
contained in the fuel to produce energy.
    In conclusion, to establish a new and widely deployed 
industry based on growing, harvesting and processing large 
quantities of biomass fuel on a regular basis, there are some 
key issues that are needed to be addressed, many of which are 
here and with the other speakers. The single most important 
issue we believe is how much biomass can sustainably be made 
available to economically and reliably support a power 
industrial facility. This factor alone, biomass availability, 
will in turn dictate the scale of plant or plants in a 
particular region. Also, experience dictates that the energy 
crop must not be competitive with the food chain, so land use 
and crop choices need to be carefully designed and managed.
    There are a number of technical challenges as well to using 
biomass in future and current plants relative to things like 
biomass feeding, slagging, fouling and corrosion of downstream 
processes and components.
    This completes my statement, and I look forward to the 
discussion period. Thank you.
    [The prepared statement of Mr. Klara follows:]

                  Prepared Statement of Scott M. Klara

    Thank you, Mr. Chairman and Members of the Subcommittee. I 
appreciate this opportunity to provide testimony on the United States 
Department of Energy's (DOE) Clean Coal Research Program, particularly 
those activities related to co-feeding biomass materials with coal that 
reduce the life cycle carbon intensity of electric power generation and 
large industrial processes.
    Biomass can be introduced to our nation's energy mix as a feedstock 
input to thermal energy power plants. In addition, the emissions output 
of fossil energy power plants can be used to cultivate algae for 
subsequent energy use. Both applications are effective strategies for 
reducing the carbon intensity of our nation's power generation fleet 
and industrial processes.

Introduction to Clean Coal Research Program

    Fossil fuel resources represent a tremendous national asset. 
Throughout our history, an abundance of fossil fuels in North America 
has contributed to our nation's economic prosperity. In Secretary of 
Energy Steven Chu's October 12, 2009, letter, delivered to Energy 
Ministers and other attendees of the Carbon Sequestration Leadership 
Forum in London, he said that: ``Coal accounts for 25 percent of the 
world's energy supply and 40 percent of carbon emissions, and is likely 
to be a major and growing source of electricity generation for the 
foreseeable future.'' Secretary Chu further stated, ``. . . I believe 
we must make it our goal to advance carbon capture and storage 
technology to the point where widespread, affordable deployment can 
begin in eight to ten years . . .. But finding safe, affordable, 
broadly deployable methods to capture and store carbon dioxide is 
clearly among the most important issues scientists have ever been asked 
to solve.''
    The Clean Coal Research Program--administered by DOE's Office of 
Fossil Energy and implemented by the National Energy Technology 
Laboratory--is designed to remove environmental concerns over the 
future use of coal by developing a portfolio of innovative clean coal 
technologies. In partnership with the private sector, efforts are 
focused on maximizing efficiency and environmental performance, 
including carbon dioxide (CO<INF>2</INF>) capture and storage, while 
minimizing the costs of these new technologies. In recent years the 
Clean Coal Research Program has been structured to focus on advanced 
coal technologies with integrated Carbon Capture and Storage (CCS). The 
Program is focused on two major strategies:

        <bullet>  Mitigating emissions of greenhouse gases (GHG) from 
        fossil energy systems; and

        <bullet>  Substantially improving the efficiency of fossil 
        energy systems.

    Displacing coal fuel with biomass provides an opportunity to reduce 
GHG emissions from our nation's power production and industrial 
facilities.

Background and Potential Importance of Coal-Biomass Systems

    A key challenge to enabling the continued widespread use of coal 
will be our ability to reduce climate warming GHG emissions. Utilizing 
a coal-biomass feedstock combination complements a carbon capture and 
storage strategy to reduce GHG. Co-feeding biomass also offers the 
potential for the Nation to meet its energy and environmental goals, 
while using domestic energy resources and furthering domestic energy 
security.
    The coal and biomass co-feeding option, when integrated in an 
advanced energy system like advanced gasification-based technology with 
CCS, can provide electric power, on a life cycle basis, with near-zero 
GHG emissions.
    Biomass can be co-fed to existing pulverized coal combustion 
plants, advanced oxygen-based combustion plants, and advanced 
gasification-based plants. When combined with pre- or post-combustion 
carbon capture technologies, co-feeding biomass offers a sound strategy 
to reduce the carbon intensity of existing and future coal-based energy 
systems.
    Coal-biomass systems could become part of an early compliance 
strategy, particularly in existing power plants. Further, coal-biomass 
systems can benefit from the economies of scale offered by large coal-
based energy systems. Large biomass-alone power plants are constrained 
by low biomass energy density, feedstock water content, feedstock 
collection and preparation, and local/regional feedstock availability. 
Biomass can be used in economically available quantities as co-feed in 
large central coal plants, to realize the benefits of economies of 
scale. Coal can also serve to offset the seasonal and variable nature 
of the supply of biomass feeds.

CO<INF>2</INF> Perspective of Coal-Biomass Systems

    CO<INF>2</INF> reductions associated with using biomass in existing 
pulverized coal-fired power generation facilities is fairly 
straightforward. CO<INF>2</INF> reductions from existing plants will be 
nearly equivalent to the amount of carbon in the biomass feedstock, 
less the amount of fossil fuel produced CO<INF>2</INF> needed to 
harvest, prepare, and transport the biomass to be combusted in the 
boiler. Technology modifications needed to co-feed coal and modest 
amounts of biomass into existing plants available today and being 
adopted by industry. For example, First Energy is in the process of 
converting units 4 and 5 of their Burger Plant in Shadyside, Ohio, to 
produce up to 312 MWe firing up to 100 percent biomass.
    Gasification-based units, such as Tampa Electric, offer the 
opportunity to combine biomass offsets of carbon emissions from coal 
with CCS, resulting in near-zero overall plant carbon emissions. Recent 
NETL engineering analyses indicate that net-zero life cycle carbon 
emissions can be achieved by co-feeding biomass into Integrated 
Gasification Combined Cycle (IGCC) plants with 90 percent carbon 
capture and sequestration. The quantity of biomass co-feed needed to 
reach net-zero emissions varies depending on the type and rank of coal 
utilized. Limiting issues for both combustion and gasification-based 
systems include biomass availability and cost, both of which must be 
overcome by the development of improved technology if we are to 
dramatically increase the amount of biomass deployed, and the 
associated carbon benefits in future power production systems.
    While biomass feedstocks are generally viewed as having a low-
carbon footprint, a careful life cycle analysis must be performed to 
fairly characterize their true profile; this is especially true when 
considering cultivating new biomass crops that are to be dedicated to 
energy production. For example, some carbon capture processes can make 
large quantities of affordable fertilizer that could have beneficial 
effects when reclaiming mined or poor quality land, thus serving as a 
potential pathway for easing land-use considerations associated with 
biomass energy crops. The potential also exists for the beneficial 
reuse of CO<INF>2</INF> recovered from coal-biomass power plants to 
produce and process algae for subsequent energy use. Such energy 
systems could be located near the markets they would serve. These two 
strategies could be useful to enhance overall plant economics by the 
value added from beneficial reuse approaches, thus helping to support 
the costs of deployment of the needed CO<INF>2</INF> infrastructure--
building CO<INF>2</INF> pipelines and paying for transport and storage.

Global Perspectives and Experience with Coal-Biomass Operations

    Considerable experience already exists with a number of biomass to 
power production facilities that have been constructed and are 
operating, particularly in Europe. The International Energy Agency's 
Bioenergy Task 32\1\ compiled a database to provide an overview of this 
experience. It reports ``Over the past five to ten years there has been 
remarkably rapid progress over in the development of co-firing. Several 
plants have been retrofitted for demonstration purposes, while another 
number of new plants are already being designed for involving biomass 
co-utilization with fossil fuels. . . . Typical power stations where 
co-firing is applied are in the range from approximately 50 MWe (a few 
units are between five and 50 MWe) to 700 MWe. The majority are 
equipped with pulverized coal boilers . . .. Tests have been performed 
with every commercially significant (lignite, sub-bituminous coal, 
bituminous coal, and opportunity fuels such as petroleum coke) fuel 
type, and with every major category of biomass (herbaceous and woody 
fuel types generated as residues and energy crops).''
---------------------------------------------------------------------------
    \1\ http://www.ieabcc.nl/database/cofiring.html
---------------------------------------------------------------------------
    For IGCC power generation systems, tests have been performed 
successfully at the Nuon plant in the Netherlands that fed a mixture of 
30 percent demolition wood and 70 percent coal by weight to a Shell 
high-pressure, entrained gasifier. However, only limited data and 
information are available from these tests. In the United States, 
Foster Wheeler has been active assessing various aspects of coal-
biomass mixtures, with a focus on fuel selection, emissions control, 
and corrosion issues. Europe is most active in the area of coal-biomass 
co-firing, and their experience stresses the importance of biomass 
processing, to avoid slagging and fouling as potential issues to 
maintaining optimum combustion performance. In addition, there is 
presently much discussion of indirect CO<INF>2</INF> emissions of 
biomass from a life cycle basis that arise from fertilization, 
harvesting, and transport of the biomass.

United States' Perspectives and Experience with Coal-Biomass

    Between 1990 and 2000, research targeted at co-firing coal and 
biomass within combustion plants was strongly supported by DOE, 
industry, and academia, all of whom considered co-feeding coal and 
biomass in combustion power plants to be a technically viable option. 
Over 40 plants in the United States have co-fired coal and biomass over 
a period of several years. Operations have ranged from several hours to 
several years, with five plants operating continuously for testing 
purposes on either wood or switchgrass, and one plant operating 
commercially over the past two years on a mixture of coal and wood.
    While it is relatively easy to feed small percentages of biomass in 
co-firing configurations at power plants, care must be taken to specify 
the type and amount of biomass, and biomass-feed processing 
requirements that provide optimum carbon reductions with minimal 
reductions in plant efficiency.
    The information base for co-feeding coal and biomass in 
gasification technology settings in the United States is significantly 
less than that for combustion. Biomass has been successfully fed in low 
concentrations at Tampa Electric's IGCC power demonstration in Florida, 
and biomass co-feeding and preparation tests are currently being 
conducted at Southern Company's National Carbon Capture Center test 
center in Wilsonville, Alabama.

Current Office of Fossil Energy Coal-Biomass Activities

    Research is being conducted on biomass preparation and pretreatment 
requirements, feeding coal-biomass mixtures into high-pressure 
gasifiers at commercial conditions and characterizing the composition 
of the resultant gas stream to determine impacts on downstream 
components.

Algae Production as a GHG Reduction Strategy

    Biological capture of CO<INF>2</INF> through algae cultivation is 
another CO<INF>2</INF> reduction strategy that is gaining attention as 
a possible means to achieve reductions in GHG emissions from fossil-
fuel processes. Algae, the fastest growing plants on Earth, can double 
their size as frequently as every two hours, while consuming 
CO<INF>2</INF>. Algae can be grown in regions, such as desert 
conditions, so as not to compete with farmland and forests; and they do 
not require fresh water to grow. Algae will grow in brackish water, 
plant-recycle water, or even in sewage streams, and, when cultivated 
within closed systems, these waters can be recycled, thereby minimizing 
further water use.
    While it is recognized that the greenhouse gases stored by the 
algae will ultimately be released to the atmosphere, there is a net 
carbon offset by more effectively using the carbon contained in the 
coal. The coal is used to produce power and then again for algae 
production, hence, a net-carbon offset is realized by an increase in 
the energy extracted from the coal, compared to that same coal being 
used for power generation only.
    A cost-effective, large-scale production system for growing algae 
using CO<INF>2</INF> from a power plant has not yet been demonstrated. 
Using Recovery Act funds, DOE is sponsoring a project with Arizona 
Public Service to develop and ultimately demonstrate a large-scale 
algae system coupled with a power plant. The utilization of algae for 
carbon management is an integral part of the project. The project has 
already proven the process at a small scale using a one-third acre 
algae bioreactor, which has been operating for weeks using power plant 
stack emissions to produce sustained algae growth. Additionally, a 
prototype algae cultivation system is being evaluated for continuous 
operation. The project will ultimately assemble a fully integrated 
energy system for beneficial CO<INF>2</INF> use, including an algae 
farm of sufficient size to adequately evaluate effectiveness and costs 
for commercial applications. To complement the engineered system in 
Arizona, DOE has solicited Small Business Innovation Research proposals 
to explore novel and efficient concepts for several processing aspects 
of CO<INF>2</INF> capture for algae growth. The results from these 
efforts should prove useful to future algae farming applications.

Conclusion

    Prior to the current global emphasis on carbon reductions, coal-
biomass research, development, and demonstration focused on waste 
utilization, e.g., demolition wood in the Netherlands and waste wood 
from the lumber industry in the United States. The major objective of 
those efforts was to reduce the amount of wastes going to landfills. 
More recent interests have also facilitated the use of coal-biomass 
mixtures, e.g., the co-firing of straw with coal at Denmark's 
utilities. Now, with carbon reductions at the forefront, there is 
renewed interest and the possibility of realizing a double benefit to 
co-firing, particularly for those organizations that have been 
motivated solely by the benefits of reducing wastes (most of which are 
biomass-based). Additionally, algae production using CO<INF>2</INF> 
emissions from fossil fuel power plants is gaining attention as another 
biologically based option to reduce GHG emissions.
    To establish a new and widely deployed industry, based on providing 
(growing, harvesting, processing) biomass fuel on a regular basis, 
there are key issues to address--the single most important of which is 
how much biomass can sustainably be made available to economically and 
reliably support a power or industrial facility, and enable that 
facility to reliably and economically achieve its goal for carbon 
reduction? This factor alone (i.e., biomass availability) will, in 
turn, dictate the scale of the plant or plants in a particular region. 
Also, experience dictates that the energy crop must not be competitive 
with the food chain, so land use and crop choices need to be carefully 
designed and managed. There are technical challenges to adding large 
quantities of biomass to our nation's energy systems that must be 
overcome as well. Preparing the biomass before it is used in the plant, 
as well as potential slagging, fouling, and corrosion of downstream 
components and processes, must be addressed for both combustion and 
gasification systems.

                      Biography for Scott M. Klara

    Mr. Klara is currently the Director for the Strategic Center for 
Coal at the National Energy Technology Laboratory. Mr. Klara is 
responsible for overseeing the Department of Energy's $500 million per 
year Coal R&D Program that consists of several hundred projects related 
to technology areas such as coal gasification, carbon sequestration, 
fuel cells, advanced turbines, and coal to liquid/gaseous fuels. Mr. 
Klara has over twenty years of diversified engineering and management 
experience. His experience encompasses a broad spectrum of technology 
areas including: electric power generation; advanced separation 
processes; process control; coal conversion processes; and simulation/
systems analysis. Mr. Klara holds advanced degrees in chemical 
engineering and petroleum engineering. He is a certified professional 
engineer in the states of Pennsylvania and West Virginia. Mr. Klara has 
more than sixty peer-reviewed publications and presentations.

    Chairman Baird. Thank you, Mr. Klara. Mr. Spomer.

STATEMENT OF MR. ERIC L. SPOMER, PRESIDENT, CATALYST RENEWABLES

    Mr. Spomer. Thank you, Mr. Chairman and distinguished 
Subcommittee Members. I appreciate this opportunity to share 
Catalyst Renewables' operational lessons learned and insights 
on this important topic. I ask that my detailed written 
testimony be included in the record as I intend to share only a 
few key points.
    Catalyst was a successful green, renewable and sustainable 
energy company before being green was so popular. Our biomass 
experience originates with the Lyonsdale plant in Lyons Falls, 
New York. We purchased this 19 megawatt combined heat and power 
facility in 2003. At that time, the plant was in distress, but 
after significant capital investment and reestablishment of 
trust and confidence with the local forest community, we have 
been able to help Lyonsdale return to viability.
    Catalyst developed and deployed an approved sustainable 
forestry management plan in conjunction with its renewable 
energy credit from the New York State Renewable Portfolio 
Standard. Today, the Lyonsdale ``wood basket'' is considered 
the healthiest forest in New York State. Wood from the forest 
and purpose-grown woody biomass energy crops offers a 
significant renewable environmentally acceptable alternative to 
fossil-based energy supplies.
    The United States biopower effort is being led by renewable 
energy generation innovators like Catalyst, and our strategies 
can be applied to all our United States forests.
    Woody biomass holds significant revitalization potential 
for the rural economies of our forest and farm communities. 
Woody biomass is CO<INF>2</INF>-neutral. Woody biomass is 
sustainable and enhances forest health.
    So why does woody biomass, around for eons, merit your 
attention and inclusion in a research and development portfolio 
for the future? First, wood wins in every environmental, 
economic and effectiveness category. Using woody biomass offers 
a clear national security advantage for using clean, renewable, 
home-grown fuel for baseload thermal energy and electricity. 
Woody biomass has a proven, reliable national logistics 
handling system, but biomass is not just wood. Today we have 
new integrated biomass handling system for the efficient and 
effective inclusion of crop residues and livestock nutrients. 
So our first research and development suggestion is the design, 
development and operational tests and evaluation of regional 
logistic systems, including integration of rail transport and 
integrated staging areas for woody biomass, crop residues and 
nutrient feedstocks. Integrated handling systems must be 
designed and tested to be commercially and operationally 
effective and suitable with a minimum of handling ``touches'' 
as industry develops new facilities. A concerted effort to 
advance comingled biomass supplies would enhance resource use, 
reduce costs, and expand biomass availability for renewable 
thermal energy and electricity. We suggest multiple regional 
demonstrations suited to regional feedstocks are reasonable and 
prudent.
    Second, Catalyst is constantly seeking cleaner, more 
reliable production of renewable baseload heat and power. Our 
foremost concerns are efficiency, environmental suitability, 
and elimination of greenhouse gas emissions. Presently, our 
already permitted 37 megawatt Onondaga Renewables plant under 
development in Geddes, New York, will be the cleanest woody 
biomass generating facility in North America. These bragging 
rights do not come cheap. We are commissioning a bubbling 
fluidized bed (BFB) boiler. BFB technology is widely recognized 
as the most efficient combustion conversion device for biomass 
residues. However, the BFB boilers come with a significant 
associated energy penalty, pressurized air flow. Large 
quantities of air required to counterbalance the mass of the 
boiler bed and propel the mass into a fluidized state, and this 
results in a six percent penalty on efficiency. In the case of 
Onondaga, that is 21,000 megawatts-hours a year.
    Next, CO<INF>2</INF>-neutral woody biomass is also 
virtually sulphur-free, and our systems can already effectively 
eliminate particulate matter, leaving emissions of oxides of 
nitrogen, NOX, the most important remaining consideration. 
Today we use catalytic reduction systems, including selective 
catalytic reduction and regenerative selective catalytic 
reduction.
    Fresh catalytic units are capable of continuously reducing 
NOX by more than 98 percent. At Onondaga, the catalyst will 
operate at high conversion efficiency for about 10,000 hours, 
but then it must be replaced and disposed of. Presently, NOX 
reduction catalysts cannot be regenerated.
    Finally, maintaining optimal chemical reaction temperatures 
in catalytic reduction units operated for the elimination of 
NOX and the elimination of use of fossil fuels as reheat or 
energy source is essential. Presently, oil or natural gas is 
burned to maintain flue gas temperatures to effect rapid and 
high NOX conversion. For a modern biomass conversion plant, the 
heat approaches 10 percent of the total biomass value. That is 
3.7 megawatts of capacity at Onondaga.
    To summarize, we must strongly suggest specific 
congressional direction to the U.S. DOE and funded research and 
development authorizations for appropriations: to design, test, 
and deploy integrated biomass logistic systems, to research, 
develop and test equipments to eliminate parasitic power loss 
and bubbling fluidized bed biomass boilers, to research, 
develop, test and deploy catalytic units that have extended 
operational lives and that can be regenerated in place, and to 
research, develop, test and deploy energy improvements able to 
eliminate the need for auxiliary fossil fuel usage in RSCR 
(regenerative selective catalytic reduction) and SCR-NOX 
control devices.
    Mr. Chairman and distinguished Subcommittee Members, thank 
you or the opportunity to provide this testimony.
    [The prepared statement of Mr. Spomer follows:]

                  Prepared Statement of Eric L. Spomer

    Thank you, Mr. Chairman and distinguished Subcommittee Members, for 
the opportunity to provide testimony to the Committee on Science and 
Technology, Subcommittee on Energy and Environment for the ``Biomass 
for Thermal Energy and Electricity Through a Research and Development 
Portfolio for the Future'' hearing. I appreciate this opportunity to 
share Catalyst Renewables' operational lessons learned and insights on 
this important topic, which is a core area of commercial and 
environmental concern to Catalyst Renewables. Mr. Chairman, Catalyst 
was a successful ``green,'' renewable and sustainable energy company 
before being ``green'' was so popular.
    Catalyst Renewables develops and owns energy projects deploying 
leading-edge technologies using clean, renewable resources--woody 
biomass and geothermal--to produce power and thermal energy. Our goals 
include creating environmentally sound, renewable energy alternatives 
that can be sustained in current and future energy markets, and to 
actively engage the communities that we serve. Catalyst builds fiscally 
and environmentally responsible solutions that free us from the limited 
supply and unstable pricing of fossil fuels as we, in fact, build a new 
pathway to energy's future.
    Our operational biomass experience originates with Lyonsdale 
Biomass at Lyons Falls, New York. We purchased this 19 MWe Combined 
Heat and Power (CHP) facility in 2003. At that time, the plant was in 
distress, but after significant private capital transfusions and re-
establishment of trust and confidence with the men and women of the 
local forest community logistics pipeline, we have been able to help 
Lyonsdale Biomass return to viability. We were successful in 
competitive renewable energy credits auctions for the New York State 
Renewable Portfolio Standard (RPS) . . . the only woody biomass 
facility ever to do so. In an important sidelight, to qualify for the 
RPS, Catalyst had to develop, prepare and deploy a New York State 
Department of Environmental Conservation (NYSDEC)-approved sustainable 
forestry management plan, which became the first plan deployed in New 
York State. Today, we are anecdotally told by NYSDEC that the Lyonsdale 
``wood basket'' is considered the healthiest forest in New York State.
    Wood from the forest and farmed purpose grown woody biomass energy 
crops offers a significant renewable alternative and environmentally 
more acceptable replacement options to diminishing fossil-based energy 
supplies. In our western forests, this energy harvested in a thoughtful 
management plan and released via controlled combustion or gasification 
instead of devastating forest fires, can produce significant 
distributive CHP that will spur economic vitality. Across the Northern 
Forest of New York, New Hampshire, Vermont and Maine, our neighbors are 
equally embracing the challenge of energy from mixed northern hardwood 
trees produced in close proximity to urgent demand for renewable 
energy. This effort is being led by renewable energy generation 
innovators like Catalyst Renewables and their strategies can be applied 
to all our United States forests using the extensive renewable energy 
stored and continually produced by wood.
    Woody biomass from the forest and from farmed and purpose-grown 
woody biomass energy crops holds significant revitalization potential 
for the rural economies of our forest and farm communities by creating 
an alternative source of income for landowners and circulating wealth-
creating energy dollars through the local economy. In New York, which 
is characterized by a fossil fuel-intensive power generation sector 
(51 percent of power generated), substituting woody biomass for coal-
powered electrical generation significantly reduces imported energy 
costs. Naturally possessing a short supply chain, woody biomass is 
produced in close proximity to demand and the end-user. This provides 
an important link and business relationship between the power plant and 
local community. As these fuels are available locally, the financial 
resources are spent locally, thereby encouraging the local economy and 
providing income for local businesses. Wood energy adds financial value 
to the forest and supports critical restorations and improvements from 
timber-stand management thinnings. The sustainability of local 
woodsheds can be enhanced by the inclusion of purpose grown woody 
biomass on under-utilized or abandoned farmland including fast-growing 
Root Process Method  (RPM) native hardwoods and short rotation woody 
crops such as shrub willows developed by SUNY-ESF and being 
commercialized by Catalyst Renewables.
    The energy life cycle analyses of the purpose grown woody biomass 
energy crop systems and subsequent conversion of biomass to electricity 
via combustion and gasification is positive in many ways. The net 
energy ratio for the production and conversion of purpose grown woody 
biomass is 1:11 for co-firing and 1:16 for a gasification system. This 
means that for every unit of nonrenewable fossil fuel energy used for 
growth and harvest, 11-16 units of usable energy are produced. In 
essence, forests and purpose grown woody biomass energy crops are large 
solar collectors that capture the sun's energy and store it as woody 
biomass. The net energy ratio for woody biomass is far superior to the 
net energy ratio for electricity from a combined cycle natural gas 
system (1:0.4). Research directly correlates this data to wide scale 
energy applications of mixed northern hardwood feedstocks from our 
northeast states and feedstocks of western hardwood feedstocks.
    Woody biomass from the forest and from farmed and purpose-grown 
woody biomass energy crops are CO<INF>2</INF> neutral, which means that 
energy and other products can be produced with no net addition of 
CO<INF>2</INF> to the atmosphere. Biomass for bio-energy including 
liquid transportation fuels can be drawn from a variety of feedstock 
sources including forests, agricultural crops, organic residue streams 
and dedicated woody or herbaceous crops. Research suggests development 
and deployment of woody biomass resources have distinct energy, 
economic and environmental advantages over traditional agricultural 
crop sources:

        <bullet>  Woody biomass is available year round and from 
        multiple sources. End-users are not dependent on single source 
        material.

        <bullet>  The net energy ratios for bio-energy and bio-products 
        including liquid transportation fuels derived from woody 
        biomass are large and positive, meaning that considerably more 
        energy output is produced from these systems than is used in 
        the form of fossil fuels to produce the woody biomass and 
        generate end products.

        <bullet>  Woody biomass can be sustainably managed and 
        produced, while simultaneously providing an array of 
        environmental and socioeconomic benefits.

        <bullet>  The physical-chemical characteristics of woody 
        biomass from hardwoods are fairly consistent even when supplied 
        from multiple sources.

        <bullet>  The forest products industry and wood-based renewable 
        energy generation firms have developed superior technical and 
        engineering competencies to manage woody biomass.

    USDOE/USDA estimates sustainably harvested forest woody biomass can 
nationally provide at least 368 million dry tons of wood per year. 
Nationally, the net annual incremental forest woody biomass growth on 
almost 500 million acres of U.S. timberland exceeds forest woody 
biomass removals by almost 50 percent. In the north-central states 
growth exceeds removals by 95 percent. This ratio is even greater in 
the northern forest of the northeast states, where growth exceeds 
removals by 125 percent. In New York State, there are over 18.5 million 
acres of timberland with over 750 million tons of standing biomass. The 
net annual increment growth vs. removals on New York timberland is more 
than 300 percent.
    At a Catalyst Renewables facility, Lyonsdale Biomass, in Lyons 
Falls, woody biomass is being used to generate 19MWe of electricity for 
the grid and post-generation thermal power at 15,000 pph for the 
Burrows Paper Company. Catalyst Renewables is presently harvesting and 
installing planting stock at Catalyst's commercial shrub willow energy 
crop plantations in and around Central New York. This 600-acre 
plantation is the first commercial shrub willow energy crop plantation 
in North America. For every MWe of renewable power produced, Catalyst 
off-sets 2,500 tons of coal and $90,000 of exported energy cost. This 
is very important because New York State imports over $2,500 worth of 
mostly fossil-based energy for every man, woman and child in the State.
    Consumers increasingly need base-load energy that is renewable, 
clean, and affordable from renewable sources like geothermal and 
biomass. One of the simplest and oldest of renewables is direct 
combustion of wood. Wood supplied more energy than fossil fuels in the 
United States until the 1880s, when coal superseded wood. Today, due to 
re-growth of forests and improved technologies, sophisticated thermal 
combustion is being used across Europe, supplying heat, cooling, and 
power and reducing greenhouse gas emissions. A high-efficiency wood-
burning plant was recently opened in Simmering-Vienna with total 
thermal capacity of 65 MW, delivering electricity to the grid and heat 
to the city's district energy system. More than 1,000 woody biomass 
facilities have been constructed in Austria, nearly all local 
community-based; more than 100 combine heat and electric power. The 
facilities emit remarkably low quantities of air pollutants, including 
greenhouse gases, and have thermal efficiencies across the system 
approaching 90 percent. Europe's thousands of new community-scale woody 
biomass facilities clearly demonstrate that, woody biomass can be 
rapidly implemented, can reduce oil imports and greenhouse gas 
emissions, and can increase energy security with wood drawn from local 
woodsheds including purpose grown woody biomass from under-utilized or 
abandoned farmland.
    Regionally, areas with sustainable wood supplies need to deploy 
woody biomass CHP as new construction and renovated fossil CHP sites. 
Such initiative is well targeted to the Northeast United States, given 
the region's abundant forest land and dependence on heating oil. Woody 
biomass CHP has great potential in the Southeast and West as well. 
Relatively rapid transitions to woody biomass CHP heating and cooling 
are technically and economically achievable in schools, municipal 
offices, hospitals, prisons, and industrial facilities. This includes 
better use of wood collected by municipalities from diseased and storm-
damaged trees and from construction sites. The volume of safely 
combustible urban wood in the United States is nearly 30 million tons 
per year. Often, local communities dispose of this wood at some expense 
and incurring negative environmental results while missing energy 
benefits that could come from its clean combustion.
    The potential thermal value of community-based CHP alone is 
significant. If New York were to commission one hundred community-scale 
0.75 MW CHP projects per year over a five-year construction period at 
an incremental investment would be about $100 million for each of the 
five construction years. However, fuel savings would increase to at 
least $100 to $180 million per year, and emissions of fossil CO<INF>2</INF> 
could decrease by 0.75 to 1.0 million tons per year. The woody biomass 
required by such an initiative totals less than 20 percent of a recent 
estimate of New York's energy-wood supply. By increasing the purpose 
grown biomass component of the supply with fast-growing Root Process 
Method  (RPM) native hardwoods and short rotation woody crops such as 
shrub willows developed by SUNY-ESF and being commercialized by 
Catalyst Renewables on New York's abandoned and under-utilized farm 
land the pressure on the open-loop biomass supply could be reduced by 
20 percent.
    Total U.S. energy consumption is presently about 100 quads [British 
thermal units (BTUs)] per year. U.S. wood delivers about quads per year 
and the national sustainable energy-wood supply potentially contains 
about five quads per year. Although these rates may seem small, they 
are enormous quantities of energy, comparable to power production from 
hydroelectric sources (3 quads per year) or the content of energy in 
the Nation's Strategic Petroleum Reserve (4 quads). Considering 
controversial plans to expand the Nation's nuclear capacity, presently 
at 10 quads per year, applying purpose grown woody biomass for future 
potential wood energy is reasonable and prudent as it enhances 
development from forests and woodlands with resources from low-
productivity, abandoned and under-utilized agricultural lands and from 
urban brownfield sites.
    So, why does woody biomass . . . around for eons . . . merit your 
attention and inclusion in a Research and Development Portfolio for the 
Future? Wood wins in all the environmental, economic and effectiveness 
categories. Likewise, using woody biomass offers a clear national 
strategic advantage of a clean, renewable home-grown base-load thermal 
energy and electricity resource and woody biomass comes with a 
significant practical advantage: a proven, reliable national logistics 
handing system. We appreciate the value of crop residues as a potential 
biopower feedstock, but we are daunted by our national absence of an 
efficient and effective crop residue collection and delivery system. On 
the other hand, the Nation's forest products industry's logistics 
system is mature and readily adaptable to the demands of CHP systems. 
This asset is our first research and development focus suggestion: That 
is, design, development and operational test and evaluation of 
appropriate regional logistics systems including integration of rail 
transport and strategic staging areas of woody biomass and crop residue 
feedstocks. Such systems are not ``chicken or egg'' situations. 
Integrated handling systems must be designed and tested to be 
commercially and operationally effective and suitable with a minimum of 
handling ``touches.'' In addition, integrating woody biomass with other 
available feedstocks, such as livestock nutrients, biosolids, and 
similar products is problematic with currently available handling and 
processing equipment. A concerted effort to advance co-mingled biomass 
supplies would enhance resource utilization and reduce cost. We suggest 
multiple regional demonstrations suited to regional feedstocks are 
reasonable and prudent. Delivery system inefficiencies as dollars per 
ton of biomass, manifests throughout the CHP conversion process. Costs 
saved during biomass harvest, preparation and delivery multiple as 
costs savings to end-users of both electrical energy and thermal power.
    Catalyst Renewables is constantly seeking cleaner, more reliable 
production of renewable base-load heat and power. Presently, we have a 
37MWe facility ``Onondaga Renewables'' under development in Geddes, New 
York. Already permitted, Catalyst Renewables asserts based on existing 
state-of-the art technology that ``Onondaga Renewables'' will be the 
cleanest woody biomass generating facility in North America. Employing 
a Bubbling Fluidized Bed (BFB) boiler, the technology is widely 
recognized as the most efficient conversion device for combusting woody 
biomass residue. The BFB's tolerance for fuels having low heating 
density, having significant moisture content, are irregularly sized and 
potentially contaminated with miscellaneous inert materials such as 
soil and rocks make the BFB the premier system for efficiently and 
reliably converting loggings residues into useful energy.
    Owing to the relatively low operating temperatures of BFBs, they 
intrinsically thermally fix lower amounts of oxides of nitrogen (NOX) 
relative to conventional boiler systems. Owing to intimate commingling 
in the fluidized bed between fuel, hot bed medium and oxidizing gases, 
combustible material is combusted to completion. Additionally, alkali 
absorbent material within the fluidized bed can capture and control 
potential pollutants such as sulfur and acid gases.
    However, fluidization comes with a significant, associated energy 
penalty-pressurized airflow. Large quantities of air are required to 
counter-balance the mass of the boiler bed and propel the mass into a 
fluidized state. The associated fan and blower power demands result in 
a six percent system efficiency penalty as compared to less 
environmentally beneficial traditional, fixed grate boiler systems. As 
applied to Onondaga Renewables project, the annual power required for 
air handling is the equivalent of 21,000 megawatts-hours. Therefore, we 
suggest a second important research and development focus area is the 
mitigation of fluidized-bed parasitic power loss. Specifically, biomass 
CHP would significantly benefit from research and development of more 
efficient fans, blowers and electric motor drive units for all 
fluidized bed boiler systems. Likewise, research designed to achieve 
pressure drop reductions through air conveyance ductwork would reduce 
associated power requirements and significantly improve overall system 
efficiency.
    Based on Catalyst Renewables' commitment to environmentally benign 
heat and power production is the elimination of Greenhouse Gas 
emission. Already CO<INF>2</INF> neutral, woody biomass is also 
virtually sulphur-free, which leaves emissions of oxides of nitrogen 
(NOX) as the next major consideration. Modern combustion installations 
often reduce NOX emissions, by causing a chemical reaction between NOX 
and a reagent, typically ammonia or urea. The speed and completeness of 
the reaction is facilitated with catalyst. Popular catalytic NOX 
reduction systems include selective catalytic reduction (SCR) and 
regenerative selective catalytic reduction (RSCR). In both systems, the 
catalyst is a ceramic matrix, often honeycomb like, contained within a 
housing comprised of several tons of catalyst.
    Fresh catalytic units are capable of continuously reducing NOX by 
more than 98 percent. In typical industrial/power generation 
application such as Onondaga Renewables, catalyst is expected to 
operate at high conversion efficiency for approximately 10,000 hours 
after which, the catalyst must be replaced and disposed of as a solid 
waste--presently, NOX reduction catalysts cannot be regenerated. As a 
third research and development focus, Catalyst Renewables suggests 
operational effectiveness and suitability at biomass conversion 
facilities can significantly benefit from research and development 
designed to extend the useful operating life of NOX reduction 
catalysts. Whether the deactivation mechanism be physical, thermal or 
chemical, the biomass conversion operator is focused on permit emission 
limits and whether the catalyst can produce the desired level of 
control. Catalyst recharge/replacement is a significant inefficiency; 
it requires the cessation of operations resulting in opportunity 
losses, capital expenditure for fresh catalysts, loss of un-reacted 
reagent while using aged catalyst with lower conversion efficiency, 
labor expense and disposal costs. For our Onondaga Renewables biomass 
facility, associated catalyst costs for typical life cycle amount to 
more than $1.00 per megawatt hour of generation.
    The final and most difficult research and development focus 
involves maintaining optimum chemical reaction temperatures in 
regenerative selective catalytic reduction (RSCR) units operated for 
the elimination of oxides of nitrogen (NOX), while eliminating the use 
of high quality fossil fuels as an energy source. Presently, distillate 
oil or more typically natural gas is burned to maintain flue gas 
temperatures to effect rapid and high NOX conversion. For a modern 
biomass conversion power plant, the heat input to a RSCR unit 
approaches 10 percent of the total biomass energy value. Although RSCR 
systems are designed to recapture and recycle heat between its multiple 
sub-units, the reliance on a continuous supplement of fossil fuel 
remains a substantial huddle to widespread use. Not only does RSCR 
auxiliary fuel use directly reduce the overall plant conversion 
efficiency, its emissions contribute to climate change emissions. 
Furthermore, fossil fuel use even at this relatively low level can 
ensnare most biomass electrical generating units in regulations for the 
control and reporting of greenhouse gases. For these reason we advocate 
for research and development energy improvements that would eliminate 
the need auxiliary fuel usage in regenerative-SCR NOX, control devices.
    Mr. Chairman and distinguished Subcommittee Members, thank you or 
the opportunity to provide testimony to the Committee on Science and 
Technology, Subcommittee on Energy and Environment for the Biomass for 
Thermal Energy and Electricity: A Research and Development Portfolio 
for the Future hearing. I appreciated this opportunity to share 
Catalyst Renewables' operational lessons learned and insights on this 
important topic.

                      Biography for Eric L. Spomer

    Eric Spomer formed Catalyst Renewables (formerly known as NGP Power 
Corp.) with Natural Gas Partners VI, L.P. in 2001. Catalyst is now an 
independent renewable energy development company, and Eric manages a 
staff with expertise in project development, generation technologies, 
operations and financing. The company is focused on developing, 
acquiring and operating power generation facilities utilizing proven 
technologies and reliably available renewable fuels--primarily biomass 
and geothermal today.
    Eric earned BA and MBA degrees from Southern United Methodist 
University in 1982 and 1992, respectively. From 1982 to 1986, he worked 
as an independent landman in the Rocky Mountain region. In 1986 he 
joined NCNB in Charlotte, NC, as a credit policy officer in the real 
estate lending group, later moving to Tampa and Dallas in the same 
capacity. After performing due diligence and transition tasks related 
NCNB's acquisition of First Republic Bank, Eric joined the Energy 
Banking Group, where he handled large corporate credits through 1993. 
From 1993 to 1997, Eric was co-founder, COO and CFO for a natural gas 
marketing, gathering and processing company. Immediately prior to 
forming Catalyst Renewables, Eric was a principal in an energy merchant 
banking group, structuring transactions and assisting in bankruptcies 
and restructurings within the energy industry.

    Chairman Baird. Thank you, Mr. Spomer. Dr. Burns.

  STATEMENT OF DR. ROBERT T. BURNS, PROFESSOR, DEPARTMENT OF 
  AGRICULTURAL & BIOSYSTEMS ENGINEERING, IOWA STATE UNIVERSITY

    Dr. Burns. I would like to thank the Committee for the 
opportunity to provide information today. It is a privilege to 
be invited. I was specifically asked to speak about research 
and development needs regarding the anaerobic digestion of 
animal manures to produce energy via biogas.
    Anaerobic digestion is the conversion of manure into 
biogas, which contains primarily methane, through a process 
that is without oxygen. It is a process that has been around 
for years, we have used for a long time and have a relatively 
good handle on.
    The biogas that is derived from animal manures can be used 
as a renewable energy source in various ways. It can be 
directly utilized on the farm for heat or other uses. It can be 
directly combusted in boilers to produce hot water. It can be 
cleaned and conditioned, what we call upgraded, and can be 
injected into the natural gas pipeline. It can be used to fuel 
engine generators or micro turbines for electricity generation 
or used as a fuel source for Stirling engine cycles, fuel cells 
and some other options.
    In addition to producing renewable energy, the anaerobic 
digestion of animal manures also provides some environmental 
options. It reduces odors, which in a farm setting is a very 
important situation. It reduces organic material, potentially 
reduces pathogens and generates marketable carbon credits for 
sale through the reduction of the base greenhouse gas emissions 
from those systems. The manure from dairy, swine, beef, feedlot 
and layer systems has been successfully digested in the United 
States and abroad, and some types of manure systems are more 
easily to install on digester systems than others.
    But if we took a look at the manure from all four of these 
species that I just mentioned: layers, beef feedlot, dairies 
and swine systems, and were to anaerobically digest all of that 
manure in the United States to produce electricity, we could 
generate over 20 billion kilowatt hours, which would represent 
about one half of a percent of the total United States 
electricity generation in 2008, or about 17 percent of the nine 
non-hydroelectric renewable provision in this country.
    But we have to recognize that we can't necessarily digest 
all of that manure, we can't get 100 percent market 
penetration. The U.S. EPA AgSTAR Program has done some very 
good reports that have looked at which systems are feasible. 
Specifically in the diary and swine industry, they believe that 
some of the larger systems are more feasible, and if we take 
that market share that they believe would be good candidates 
for digestion, this still represents about 6.3 billion kilowatt 
hours per year generated.
    The implementation of digestion within the United States 
has been very limited, however. Currently we have 135 
operational manure digesters in this country. If we contrast 
that to the two leading countries in the world, China and 
Germany, China currently has 16,000 manure anaerobic digesters 
that are medium and large-scale, similar to our concentrated 
animal feeding operation systems, or concentrated animal 
feeding operations I should say. Germany has approximately 
5,000 systems that are manure-based or manure- and silage-
based. The AD (anaerobic digestion) technology is proven, but 
what we have seen is that the AD energy production costs in 
this country are too high to compete in the competitive market.
    From a standpoint of going back on the grid, typically you 
are going to see wholesale rates in the United States average 
around three cents per kilowatt hour. It varies by location in 
the country. Germany is currently receiving 33 U.S. cents per 
kilowatt hour for that similar energy, and in China, nine to 
ten cents per kilowatt hour.
    The research and development needs then that I see are 
those that could reduce the cost of energy derived from manure 
anaerobic digestion systems so we can compete in the current 
energy market. Specifically, of some examples of these R&D gaps 
that I would like to share with the group, first is a low-cost 
biogas upgrading options. We have tried and true biogas 
upgrading systems, but currently the reported cost to upgrade 
biogas is equal to or greater than the current cost to purchase 
natural gas. So it makes it not economically feasible to pursue 
that option.
    The development of lower-cost systems, especially those 
that could be applied on farm and smaller systems, would be 
very useful. The development of additional direct use options 
would also be handy, as I mentioned. Because the cost for 
biogas upgrading is so high, if we could skip the upgrade costs 
and directly use unconditioned biogas, especially on the farm, 
it would give us a much more economical opportunity to do a 
cost avoidance situation. This is very basic research, but it 
is very practical in nature. It is something that would provide 
a lot of forward traction if we could come up with those 
systems.
    Next, the development of anaerobic digestion systems that 
are compatible with swine, deep-pit finish operations. Most of 
the pigs in this country, the majority, are finished in the 
Midwestern United States, and a majority of those finishing 
systems utilize what is called a deep-pit system. Manure is 
stored directly under the animals. Those systems are not 
directly compatible with anaerobic digestion systems, and the 
development of a system that it would allow the adaptation 
without large cost would bring that market sector into the 
game.
    The adaptation and development of high solid digestion 
systems to manure systems--there have been high solids or dry 
digestion systems in the municipal world for some time. To move 
those systems into manure would also provide benefits.
    Finally, the development of advanced, lower-cost NOX 
controls for biogas combustion and generation systems. In some 
parts of the United States, specifically in California, NOX 
limits lower than we can currently achieve are being written 
into permits with a lot of the technology that is out there, 
from a cost-effective standpoint, and that has limited some 
implementation.
    I would like to conclude by saying the number of manure 
digesters in the United States is increasing. I think this is 
primarily due to the fact that we see increasing grant support 
at the federal and State level to build digesters, so we are 
going to continue to see these systems come on line. We are not 
cost competitive in the energy market right now. This topic 
touches energy, environment, and agriculture, and I think it 
presents an excellent opportunity for DOE, EPA and USDA to work 
synergistically to help answer some of these gaps.
    Thank you very much.
    [The prepared statement of Dr. Burns follows:]

                 Prepared Statement of Robert T. Burns

      Anaerobic Digestion of Animal Manures for Biogas Production

                          Document prepared by
           Dr. Robert T. Burns, P.E. and Lara B. Moody, P.E.
           Department of Agriculture & Biosystems Engineering
                         Iowa State University

                            October 19, 2009

Overview of Manure AD

    While the anaerobic digestion of manure and other organic 
substrates is not a new technology, there has been a recent increase in 
interest regarding the production of renewable energy from the 
anaerobic digestion of manures. The primary drivers behind the renewed 
interest in biogas production from the anaerobic digestion of manures 
include an increased interest in producing renewable energy, the 
development and implementation of a viable carbon credit market in the 
U.S., and an increase in the availability of grant funding to support 
the development of renewable energy production systems, such as manure 
anaerobic digestion systems.
    Anaerobic digestion is a process for converting organic material 
into biogas, which is composed primarily of carbon dioxide 
(CO<INF>2</INF>) and methane (CH<INF>4</INF>). Because methane is an 
energy-rich compound, biogas can be used as a fuel. For this reason, 
anaerobic digestion is considered a means of extracting energy from 
animal manures and other organic residues. As is suggested by the word 
anaerobic, the digestion process is carried out by microorganisms that 
function in an environment without oxygen. Anaerobic digestion is used 
for processing and treating organic wastes from industry, sewage 
treatment plants, and animal feeding operations. This document will 
focus solely on its use at animal feeding operations for manure and 
process wastewater.
    The main gaseous emissions from anaerobic digestion of manure are 
CO<INF>2</INF> and CH<INF>4</INF>; however, trace amounts of gaseous 
hydrogen sulfide, ammonia, nitrogen, carbon monoxide, and hydrogen can 
be present in biogas depending on the characteristics of the material 
being digested. The typical composition of biogas resulting from 
anaerobically digested manure is 60-70 percent CH<INF>4</INF> and 30-40 
percent CO<INF>2</INF>. Biogas should be at least 50 percent CH<INF>4</INF> 
by volume to be effectively combusted as a fuel (USDA-NRCS, 2007). The 
volume of biogas produced for a given animal species is related to the 
organic content of the waste, the portion of organic material that 
could be converted by the digestion process, the fraction of the total 
manure that can be collected for digestion, and the conversion 
efficiency of the digester.
    Biogas can be used as a renewable energy source in various ways. It 
can be directly utilized on-farm for heat, light or other purposes, 
directly combusted in boilers to produce hot water, cleaned and 
conditioned and sold into a natural gas pipeline, used to fuel engine-
generator or micro-turbines for electricity generation, or used as a 
fuel source for Stirling cycle engines or fuel cells. In each of these 
cases, the manure-derived biogas can offset fossil-fuel use, thereby 
providing reductions in greenhouse gas emissions and generating 
marketable carbon credits. The use of biogas reduces methane emissions 
from stored manure, and this reduction from the base-line manure 
management scenarios determines the greenhouse gas emission credits 
that can be potentially marketed. It should be noted however that the 
amount of methane emitted by stored manure varies greatly with manure 
and storage conditions.
    In addition to producing renewable energy that can be used to 
replace traditional fossil fuels, controlled anaerobic digestion of 
animal manures reduces odors in manure management systems, reduces the 
organic strength of manures, and can potentially reduce the pathogen 
content of manures. Odor from stored animal manure is primarily the 
result of volatile organic compounds (VOC) and reduced sulfur compounds 
that are produced due to the ongoing microbial processes in any manure 
or organic-waste storage system. In a digester with a biogas recovery 
system, both odorous (e.g., hydrogen sulfide & VOCs) and non-odorous 
(methane, hydrogen) compounds are collected and destroyed during 
combustion. The organic matter content in manures is reduced during 
anaerobic digestion; it is microbially degraded and converted to 
biogas. However, not all organic matter is converted to biogas, and the 
achievable anaerobic conversion efficiency is dependent upon digester 
operation and feedstock loading parameters. Anaerobic digestion is a 
nutrient-neutral process; in other words, you can produce energy but 
retain the fertilizer value of the manure. While the anaerobic 
digestion of manure does not remove macro-nutrients such as nitrogen 
and phosphorus, the digestion process does convert a portion of these 
nutrients into forms that are more readily available to plants. The 
anaerobic digestion process also reduces the total solids content of 
manures and thus makes them easier to land apply as fertilizer in 
regards to pumping and handling.

Estimated Energy Production Potential from Manure Anaerobic Digestion

Total Animal Manure U.S.
    Based on manure storage and handling methods at U.S. animal feeding 
operations, energy production via anaerobic digestion of animal manure 
is technically feasible at dairy, swine, beef feedlot, and caged layer 
facilities. At dairy, swine, beef feedlot, and caged layer facilities 
manure can easily be collected and handled as a feedstock for an 
anaerobic digestion system. Meat bird production manure (turkeys and 
broiler chickens) mixed with bedding is generally only removed from a 
production house at the end of one or more production cycles, therefore 
it was excluded from the calculated energy production potentials shown 
below.
    The energy production potential from manure anaerobic digestion can 
be estimated based on expected methane yield from various digested 
manure types based on their Chemical Oxygen Demand (COD) content. 
Methane production is equated to the destruction of organic matter 
(measured as Chemical Oxygen Demand (COD) ), where every gram of COD 
converted, produces 395 mL of CH<INF>4</INF> (at 35<SUP>+</SUP>C and 1 
atm) using anaerobic digestion (Speece, 1996). The energy production 
estimates presented in Table 1 are based on the on-hand inventory of 
animals by type in the U.S., the mass of organic matter (estimated via 
COD) excreted per day per animal, and the expected anaerobic digestion 
conversion efficiency for a given manure type. To provide a basis for 
comparison, the potential energy production from the anaerobic 
digestion of manure has been estimated and expressed in billions of kWh 
per year as shown in Table 1. These estimates assume that one cubic 
meter of methane contains 33,500 BTU and that engine generators with a 
conversion efficiency of 30 percent are used. (Table 1).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Based on the number of dairy cows, swine, cattle on feed, and 
layers in the U.S. (USDA-NASS, 2009) and on manure excretion values 
(ASABE, 2006), the energy production potential from anaerobic digestion 
of manure in the U.S. is estimated to 20.4 billion kWh per year. By 
comparison, in 2008 the total U.S. electricity generation was 4.1 
trillion kWh (EIA, 2009). Approximately nine percent of the total U.S. 
electricity generation in the U.S. was from the renewable energy sector 
in 2008. Table 2 shows the renewable energy sources and their current 
electricity net generation. If all of the available manure from the 
U.S. dairy, swine, beef and egg-layer poultry industries were 
anaerobically digested it is estimated that 20.4 billion kWh could be 
produced per year, which would be equivalent to approximately 0.5 
percent of the total 2008 U.S. electrical generation. The biomass 
renewable energy source category (consisting of waste, landfill gas, 
municipal solid waste, other biomass, and wood and derived fuels) is 
currently the greatest non-hydroelectric renewable energy source, with 
wind energy a close second, at 45 percent and 42 percent, respectively. 
Utilizing energy from anaerobic digestion of manure could potentially 
provide a significant renewable energy source, supplying as much as 
16.5 percent of the current non-hydroelectric renewable energy 
capacity.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    However, it must be recognized that anaerobic digestion is not a 
feasible option for every U.S. animal feeding operation. A study 
documented by U.S. EPA AgStar (2006) indicated that unit costs for 
construction and operation decrease significantly as digester system 
size increases. Specifically, the U.S. EPA AgStar report indicates that 
anaerobic digestion systems on facilities with milking herds larger 
than 500 cows are more likely to have positive financial returns than 
facilities with less than 500 cows. Similarly, confinement swine 
operations utilizing flush, pit recharge, or pull-plug pit systems with 
more than 2,000 animals (or deep-pit systems with more than 5,000 
animals) are more likely to be economically feasible than operations 
with fewer animals. Using the constraints above, the U.S. EPA AgStar 
(2006) document provided an estimated electrical generation capacity of 
6.3 billion kWh per year. It is important to note that this estimate 
does not include potential renewable energy production from U.S. beef 
or poultry production systems.
    The current manure based anaerobic digester electrical production 
capacity for the systems considered to be most economically feasible, 
can be derived from the U.S. EPA AgStar Anaerobic Digester Database 
(U.S. EPA AgStar, 2009). As of September 2009, manure based digesters 
in the U.S. with electricity and co-generation systems produced a 
combined total of 422 million kWh per year. Current manure based 
digesters in the U.S. utilize dairy, swine, beef, layer, and duck 
manure as well as other industry by-products as co-substrates. In the 
U.S., dairy and swine operations have the greatest energy production 
potential. Current manure-biogas-based electrical energy production is 
seven percent of the U.S. EPA AgStar potential estimated for dairy and 
swine production, and it is two percent of the potential when basing 
the estimate on all usable manure sources.

Dairy
    Utilizing the U.S. dairy cow numbers available from USDA-NASS 
(2009), the estimated energy production potential from all dairy cows 
is 9.6 billion kWh per year. However, recognizing that it may not be 
feasible to develop biogas recovery systems at all farm locations, U.S. 
EPA AgStar (2006) reports that there were 2,623 dairy farms with herd 
sizes greater than 500 animals with a potential energy production yield 
of 3.0 billion kWh per year. On the basis of animal numbers, California 
has the greatest energy production potential, with 963 farms 
maintaining herds greater than 500 animals (Table 3). However, on the 
basis of current electricity production, Wisconsin leads the country in 
dairy manure based anaerobic digestion energy by producing 30 percent 
of the current total anaerobic digestion based electrical production 
from U.S. dairies. The current U.S. dairy digester projects only 
produce 10.7 percent of the ``feasible'' energy production potential 
reported by the U.S. EPA AgStar report.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Swine
    Utilizing the U.S. pork production numbers available from USDA-NASS 
(2009), the estimated energy production potential from all hogs is 5.3 
billion kWh per year. However, recognizing that it may not be feasible 
to develop biogas recovery systems at all farm locations, U.S. EPA 
AgStar (2006) determined there were 4,281 swine operations utilizing 
flush, pit recharge, or pull-plug pit systems with more than 2,000 
animals (or deep-pit systems with more than 5,000 animals). Deep pit 
systems, common in the Midwestern U.S., would need to be modified to 
provide a means of frequent digester loading as well as a storage 
system for digested effluent before anaerobic digestion systems could 
be installed on these facilities. The U.S. EPA AgStar study (2006) 
estimated that it would be feasible for deep pit operations with 
greater than 5,000 head to undergo the expense necessary to modify a 
deep pit system for biogas production and recovery. On the basis of 
animal numbers, North Carolina has the greatest energy production 
potential (when Mid-western deep-pit systems are excluded), with 1,179 
farms maintaining a feasible number of animals (Table 4). The current 
swine digester projects produce less than one percent of the 
``feasible'' energy production potential.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Cattle on Feed
    Utilizing the U.S. beef production numbers available from USDA-NASS 
(2009), the estimated energy production potential from all cattle on 
feed is 3.2 billion kWh per year. Currently, there are two beef manure 
digester projects in the U.S. (located in Iowa and Pennsylvania) with a 
combined electrical generation capacity of 21.8 million kWh per year, 
which is less than one percent of the production potential. The top 
five states raising cattle on feed include Texas, Nebraska, Kansas, 
Iowa, and Colorado (USDA-NASS, 2009). Manure collected from cattle 
feed-lots for digestion needs to be relatively free from soil or other 
inert material. As such, concrete feed-lots or cattle house over 
slatted floors are better candidates for anaerobic digestion systems 
than earthen feed-lots.

Layers
    Utilizing the U.S. layer industry production numbers available from 
USDA-NASS (2009), the estimated energy production potential from all 
layers and pullets is 2.3 billion kWh per year. Currently, there are 
three layer manure digester projects in the U.S. (located in 
Pennsylvania and North Carolina) with a combined electrical generation 
capacity of 2.4 million kWh per year, which is 0.1 percent of the 
production potential. The top five states in number of hens for egg 
production are Iowa, Ohio, Indiana, Pennsylvania, and California. Layer 
manure contains more COD (and thus more biogas production potential) on 
an as-is basis than many other manures. The lack of high-solids manure 
digesters, as well as concerns over ammonia toxicity and grit removal 
have limited the implementation of anaerobic digesters on layer farms 
in the U.S.

State of the Industry

Manure Digester Numbers & Trends
    There are currently 135 operational manure based digesters in the 
United States according the U.S. EPA AgStar--Guide to Operational 
Systems released in February, 2009. It is estimated that approximately 
250 manure based anaerobic digesters have been built on U.S. farms over 
the past 20 years. Other countries, such as Germany and China, have 
rapidly adopted manure-based anaerobic digesters over the past decade, 
but the U.S. has been much slower to implement this technology. China 
currently has approximately 16,000 manure based digesters operating on 
medium and large-scale concentrated animal production facilities. The 
number of large-scale manure-based digesters has increased six-fold in 
China over the past five years. Similarly, Germany has over 5,000 
digesters in operation that co-digest manure and other substrates such 
as corn silage. Like China, the majority of German manure-based 
digesters have been put into operation in the last five years. Based on 
estimates made by Eurostat, The United States has approximately four 
times the number of dairy cows, beef cattle, and pigs as Germany, yet 
Germany has 37 times the number of manure based biogas plants. 
Likewise, China has approximately three times the number of dairy cows, 
beef cattle, and pigs as the United States, yet China has 118 times the 
number of manure based biogas plants as the United States. This data 
indicates that both Europe and China are ahead of the U.S. in 
implementing manure based anaerobic digestion systems for the 
production of renewable energy from animal manures.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Both China and Germany have government sponsored programs in place 
that provide a subsidized electrical purchase rate for electricity 
produced from manure-based anaerobic digesters. Currently, Germany pays 
$0.33 per kWh for electricity produced from manure and silage based 
anaerobic digestion, and China pays $0.09 per kWh. The rate paid for 
electricity produced from manure-based anaerobic digestion in the 
United States varies by state. Some states have implemented green rates 
for electricity generated from renewable sources such as manure 
anaerobic digestion, but in most areas of the United States, the rate 
paid for electrical power produced from manure anaerobic digestion that 
is sold back to the utilities is the prevailing wholesale rate, which 
averages around $0.03 per kWh. A review of 38 U.S. manure-based 
digester case-studies suggests that the average cost to produce 
electricity using a manure-based anaerobic digestion system in the U.S. 
was approximately $0.10 per kWh in 2006 (USDA-NRCS, 2007). This data 
highlights the need to develop anaerobic digestion systems and 
associated technologies that can reduce the energy production cost 
using manure-based digester systems.
    Data collected by the US EPA AgStar program indicates that 78 
percent of operational U.S. manure digesters are located on dairies. 
Additionally, 90 percent of all U.S. manure-based digesters are 
generating electricity.
    Manure based anaerobic digester numbers are increasing in the 
United States. The 2007 U.S. EPA AgStar--Guide to Operational Systems 
reported that there were 42 operational manure-based digesters in the 
U.S. in 2007, while the 2009 U.S. EPA AgStar--Guide to Operational 
Systems reports that there are currently 135 operational systems. 
Additionally, the 2009 AgStar report indicates that there are currently 
22 manure-based digesters under construction and an additional 65 more 
planned in the United States. This recent increase in interest in 
manure-based digesters is correlated to an increase in grant funding 
support for manure-based digester construction through State and 
federal programs.

Manure Anaerobic Digester Technology
    The anaerobic digestion process is well understood, and there are 
examples of manure digesters that have operated successfully for more 
than 20 years both in the Unites States and abroad. The overall success 
(defined here as systems remaining in operation) rate of manure 
anaerobic digestion has been about 50 percent over the past two decades 
in the United States. An analysis of the most recent U.S. data compiled 
in the U.S. EPA AgStar--Guide to Operational Systems indicates that 
approximately 250 manure anaerobic digestion systems have been 
constructed in the United States over the past 20 years. Currently, 54 
percent of the total number manure digestion systems that have been 
constructed in the U.S. are still in operation. It is important to note 
that a lack of return-on-investment has been the driver that has lead 
to many decisions to stop the operation of existing manure-based 
anaerobic digestion systems rather than physical or technological 
problems with the digesters themselves. Like many alternative energy 
technologies, the development and utilization of manure anaerobic 
digestions systems on full-scale farming operations has historically 
been high-cost and high-risk compared to traditional manure management.

Technology Development Gaps

    The primary challenge to the wider adoption of manure anaerobic 
digestion on U.S. farms has been the lack of a return-on-investment 
from renewable energy sales from these systems. As such, research and 
development into technologies that will reduce the renewable energy 
production costs for manure-based anaerobic digestion systems is 
needed. Specific examples of research and development needs are listed 
and further explained below.

Low-cost on-farm biogas cleaning systems
    As indicated previously, biogas contains more than methane. Biogas 
consists of methane (CH<INF>4</INF>), carbon dioxide (CO<INF>2</INF>), 
and trace amounts of hydrogen sulfide (H<INF>2</INF>S) and other 
components, such as small amounts of ammonia (NH<INF>4</INF>) and 
hydrogen (H<INF>2</INF>). Biogas produced from manures typically 
contains between 60-70 percent methane by volume. Carbon dioxide 
concentrations vary between 30-40 percent by volume. Biogas is also 
typically saturated with water vapor. Methane concentrations must be at 
least 50 percent for biogas to burn effectively as fuel. Varying levels 
of hydrogen sulfide and moisture removal are required before biogas and 
be utilized as a fuel in most applications. Carbon dioxide removal is 
not required for the direct combustion of biogas for on-farm heat or 
electricity production, but if a high BTU fuel is needed (examples 
would include direct sales of biogas to the natural gas pipeline and 
compression and storage of biogas as a vehicle fuel), CO<INF>2</INF> 
removal would be required. Although the amount of hydrogen sulfide 
(H<INF>2</INF>S) in manure-based biogas is small (typically measured in 
hundreds to thousands of parts per million), it must be removed prior 
to use for most biogas applications. If biogas will be sold to the 
pipeline as natural gas, it must be completely conditioned (moisture 
and CO<INF>2</INF> removal) and cleaned (H<INF>2</INF>S) to very strict 
standards.
    There are proven and reliable methods for cleaning and conditioning 
(sometimes referred to as ``upgrading'') biogas. The cost of biogas 
upgrading is currently reported to range from $6 to $10 per MMBtu 
($0.60 to $1 per therm) depending on the cleaning technology selected 
and the size of the installation. Typically, biogas cleaning and 
conditioning costs increase on a $ per MMBtu basis as installation size 
decreases. The current reported costs to clean and condition biogas 
currently exceed the commercial price of natural gas. As such, the 
development of lower-cost biogas cleaning and upgrading technologies 
are needed for the use or sale of upgraded biogas from manure-based 
anaerobic digestion systems to be feasible. For smaller on-farm 
applications, this need is even greater since the cost per MMBtu is 
typically greater than for larger systems.

Development of biogas Direct-Use options
    Biogas can be combusted and used to produce electricity in an 
engine generator or micro-turbine, cleaned and conditioned and sold to 
the natural gas pipeline, or used directly on the farm to produce heat. 
Engine generators and turbines used to produce electricity have been 
estimated to represent approximately 36 percent of the initial capital 
cost of farm-based anaerobic digestion systems (USDA-NRCS, 2007). 
Internal combustion electrical generation systems also represent a 
large fraction of the operation and maintenance cost of manure-based 
anaerobic digestion systems. The direct-use of biogas on the farm as an 
energy source provides a method for farms to produce and utilize 
renewable energy with a lower capital investment. Direct on-farm use 
options include use as a heat source for animal housing systems (either 
through direct combustion or using boiler based systems), as a heat 
source for grain drying or as a fuel for vehicles and equipment used on 
the farm. If biogas is well conditioned and cleaned, then the resulting 
methane can be used as a direct replacement for natural gas or propane 
on the farm. As noted previously in this document however, the current 
cost to upgrade biogas to natural gas quality currently equals or 
exceeds the cost to purchase natural gas. One option to avoid these 
currently economically unfeasible biogas upgrading costs is to develop 
on-farm direct use options that can operate on either raw or partially 
upgraded biogas. Examples would include the development of new, or 
modification of direct-combustion systems for heating animal housing or 
for drying grain that could reliably operate on raw (unconditioned and 
un-cleaned) biogas This is a very basic research and development need, 
but a very practical one.

AD systems for Mid-west Swine Finish systems (deep-pit systems)
    The swine finishing industry represents the second largest 
renewable energy production potential from anaerobic manure digestion 
in the U.S. Manure from U.S. swine finisher operations is estimated to 
have the potential to provide 3.53 billion kWh per year of renewable 
energy. The greatest concentration of swine finishing operations are 
located in the Mid-Western United States. Iowa produces more market 
hogs than any other state in the U.S., but currently no renewable 
energy is being generated from swine manure anaerobic digestion in the 
state. All swine systems types together (breeding/gestation/farrowing, 
nursery and finishing operations) in the U.S. produce less than one 
percent of the ``feasible'' energy production potential identified by 
the U.S. EPA AgStar program. While swine finishing operations represent 
the largest energy production potential within the swine sector, many 
finish operations utilize manure management systems that are not easily 
compatible with current anaerobic digestion technologies. Deep-pit 
manure management systems are the most commonly used manure management 
systems on Mid-western swine finish operations. In a deep-pit system 
the pigs are housed on a slatted floor and their manure is stored in an 
eight foot deep pit located directly under the animals. Since the 
manure management system is completely under roof, no rainfall is 
collected or comes in contact with the manure. Manure is typically 
stored for a one-year period in a deep-pit system and is then utilized 
as a crop fertilizer. With a deep-pit system there is no external 
manure storage, the manure is continually collected in the deep pit as 
it is excreted by the pigs since it is allowed to fall through the 
slatted floor. While this approach provides a system that is immune 
from weather related discharges, the lack of an external manure storage 
makes the application of current anaerobic digestion systems much more 
expensive. This is because the raw (undigested) manure and the digested 
effluent need to be stored separately and not co-mingled with current 
digester technologies. Research is needed to develop anaerobic 
digestion systems that can be utilized with current deep-pit manure 
management systems without the cost of constructing new external 
storage for digested effluent.

AD systems for Solid and Semi-Solid Manure Digestion
    Traditionally, manure anaerobic digestion has been confined to 
farming operations that generate liquid manures or liquid manure 
slurries. This is because traditional manure digester designs require 
manures that can be pumped and handled hydraulically. A large fraction 
(30 percent?) of manure in the U.S. that is handled as a solid or 
semi-solid. One example is layer manure: the estimated energy 
production potential from the U.S. layer industry through the anaerobic 
digestion of manure is 2.3 billion kWh per year. Currently, only 0.1 
percent of this energy production potential from layer manure has been 
reached in the U.S. There are currently only three layer manure 
digester projects in the U.S. with a combined electrical generation 
capacity of 2.4 million kWh per year. The majority of layer manure in 
the U.S. is managed as a solid material in either high-rise or manure-
belt housing systems. Since manure is collected on a regular schedule 
from the manure-belt housing systems, they would be very good 
candidates for anaerobic digestion systems. Additionally, solid-manure 
handling systems for beef and dairy are also potential candidates for 
high-solids digestion systems. Solid and semi-solid anaerobic digestion 
systems have been successfully utilized for nearly two decades on a 
variety of municipal organic wastes. The development of anaerobic 
digestion systems that are feasible to utilize with solid and semi-
solid animal manure management systems would allow for the production 
of renewable energy from these animal production systems within the 
United States.

Advanced NOX controls for biogas engines and micro-turbines (CA issue)
    Dairy farms represent the largest potential for renewable energy 
production from manure-based anaerobic digestion in the United States 
of any given animal type. California is the state that has the greatest 
number of dairy farms with over 500 head. The U.S. EPA AgStar program 
has identified dairies with more than 500 head as having the greatest 
potential for the economical application of manure digesters. Yet at 
present, only 3.3 percent of the potential renewable energy production 
from California dairies larger than 500 head is being generated. 
Biogas-to-energy systems in the central valley of California (where the 
majority of the larger dairies in California are located) must meet 
strict NOX emissions limits required by the California Air Resources 
Board and the San Joaquin Air Pollution Control District. A NOX limit 
of nine parts per million has been established as the Best Available 
Control Technology (BACT) requirement for systems that combust biogas 
in this area. The engine generator systems commonly used to combust 
biogas and produce electricity will not meet the California nine-part 
per million BACT limit. NOX control systems such as selective catalytic 
reduction can be utilized on internal combustion biogas engines to meet 
the California BACT NOX limits, but the cost of adapting and utilizing 
currently available technology increases the cost of renewable energy 
production from these systems. Research into new innovative, lower-cost 
NOX control technologies as well as the development of lower-cost 
selective catalytic reduction systems targeted at farm-scale internal 
combustion generators for NOX removal options from exhaust gases 
generated from the on-farm combustion of biogas needs to be conducted. 
The identification and development of these systems would enable 
additional renewable energy generation from the dairy sector.

References

American Society of Agricultural and Biological Engineering. 2006. 
        D384.2 Manure Production Characteristics. ASABE Standard, St. 
        Joseph, MI.

Birkmose, T., H.L. Foged, J. Hinge. 2007. State of Biogas Plants in 
        European Agriculture. Prepared by the Danish Agricultural 
        Advisory Service for the European Parliament.

Burns, R.T. 2009. Current Status of Manure Anaerobic Digestion in the 
        U.S. and Beyond. Presentation at the conference ``Energy 
        Production from Anaerobic Digestion of Dairy Manure,'' Sept. 
        28-29, 2009, Madison, WI.

Energy Information Administration. 2009. Renewable Energy Consumption 
        and Electricity Preliminary Statistics. U.S. Department of 
        Energy. Viewed on-line on 10/14/09 at: http://www.eia.doe.gov/
        cneaf/alternate/page/renew<INF>-</INF>energy<INF>-</INF> 
        consump/rea<INF>-</INF>prereport.html

Eurostat. 2009. European Union Agricultural Statistics. Viewed on-line 
        on 10/6/09 at: http://epp.eurostat.ec.europa.eu/portal/page/
        portal/agriculture/data/main<INF>-</INF>tables

Speece, R. 1996. Anaerobic Biotechnology for Industrial Wastewaters. 
        Archae Press. Nashville, TN.

United States Department of Agriculture--National Agricultural 
        Statistics Service. 2009. United States Agricultural Commodity 
        Statistics. Viewed on-line on 10/6/09 at: http://
        www.nass.usda.gov/QuickStats/
        indexbysubject.jsp?Pass<INF>-</INF> group=Livestock+%26+Animals

United States Environmental Protection Agency--AgStar. 2009. Anaerobic 
        Digester Database. Viewed on-line on 10/16/09 at: http://
        www.epa.gov/agstar/operational.html

United States Environmental Protection Agency--AgStar. 2006. Market 
        Opportunities for Biogas Recovery Systems: A guide to 
        Identifying Candidates for On-Farm and Centralized Systems. 
        EPA-43008-06-004. Viewed on-line on 10/14/09 at: http://
        www.epa.gov/agstar/resources.html

United States Department of Agriculture--Foreign Agricultural Service. 
        2009. Global Commodity and Products Markets. Viewed on-line on 
        10/6/09 at: http://www.fas.usda.gov/commodities.asp

United States Department of Agriculture--Natural Resources Conservation 
        Service. 2007. Technical Note No. 1, An Analysis of Energy 
        Production Costs from Anaerobic Digestion Systems on U.S. 
        Livestock Production Facilities.

                     Biography for Robert T. Burns
    Robert T. Burns is a tenured Professor of Agricultural and 
Biosystems Engineering at Iowa State University with a joint extension/
research appointment in the area of environmental management of 
agricultural systems. He holds a B.S. in Agricultural Engineering, a 
M.S. in Environmental Engineering and a Ph.D. in Civil Engineering from 
the University of Tennessee. He is a licensed Professional Engineer 
(P.E.). His research focuses on animal waste management and includes 
work air emissions monitoring and mitigation from animal production 
facilities, anaerobic digestion, solids separation and phosphorus 
recovery. His area of extension specialization is the design of animal 
waste management systems and nutrient management planning for livestock 
and poultry operations. Robert currently leads a national Comprehensive 
Nutrient Management Planning (CNMP) certification program for USDA 
Technical Service Providers (TSPs). Robert has developed and lead 33 
national and international training courses dealing with animal waste 
management topics. Dr. Burns manages the ISU Animal Waste Management 
Laboratory and leads a 25-person Animal Waste Management team composed 
of full-time staff, graduate students and undergraduate students. Dr. 
Burns' Animal Waste Management team is completely funded by external 
competitive grants, and has average annual competitive external support 
of over $1.5 million per year.
    Dr. Burns has sixteen years of experience working on environmental 
and agricultural engineering projects. During his professional career 
Robert has published over 200 technical publications dealing with 
animal waste and air quality management, served as PI or Co-PI on 53 
funded grants totaling over 6.8 million dollars and served as a major 
or co-major professor to 24 Master's and doctoral students. Prior to 
joining the faculty at Iowa State University, Robert was on the faculty 
at The University of Tennessee for nine years where he served as the 
Water Quality and Waste Management specialist for the Tennessee 
Agricultural Extension Service. From May 15-November 15, 2006 Dr. Burns 
served a six-month assignment as a National Conservation Engineer 
within the Conservation Engineering Division of the Washington, DC 
National Headquarters office of the USDA Natural Resources Conservation 
Service. In this position he worked on alternative manure treatment 
systems and USDA Technical Service Provider Issues.
    Dr. Burns has worked on environmental and agricultural engineering 
projects and other consulting services with the USEPA, U.S. AID, USDA-
NRCS, USDA-FAS, The Commonwealth Development Corporation of Great 
Britain, America's Clean Water Foundation, Conestoga Rovers and 
Associates, Thoreau Environmental Capital and numerous State 
departments of agriculture and environmental protection. Robert has 
worked on projects in Armenia, Croatia, Bulgaria, Denmark, Romania, The 
Democratic Republic of Zambia, The Republic of Korea, and the United 
Kingdom. Robert has designed over 350 animal manure management, 
irrigation and water supply systems. In 2003 Robert received the Nolan 
Mitchell Extension Worker Award from the American Society of 
Agricultural Engineers for distinguished educational programming in the 
areas of water quality and animal waste management. In 2008 Dr. Burns 
was appointed to the USDA National Agricultural Air Quality Task Force 
for a two-year term. This task force is charged with advising the U.S. 
Secretary of Agriculture with respect to the role of USDA to provide 
oversight and coordination related to agricultural air quality. Robert 
also serves as the Chair of the National Pork Producers Council, Pork 
Air Science Policy Advisory Committee (PASPAC) where he assists the 
U.S. swine industry to review and best utilize current scientific 
information in regards to air emissions from pork production systems.

                               Discussion

    Chairman Baird. Thank you, Dr. Burns. An outstanding series 
of information from all of you. Thank you very much, and I will 
recognize myself for five minutes to ask questions and will be 
followed by my colleagues here.
    Thanks again to our honored guests. We appreciate your 
presence and wish you a good day and an enjoyable visit. Thank 
you very much.

                      Methane as a Greenhouse Gas

    Dr. Burns, I have a question--I have got a lot of questions 
for all of you, but let me just start with this one since you 
just spoke. It is my understanding that methane is a more 
potent greenhouse gas by quite a significant factor relative to 
CO<INF>2</INF>. I don't know the answer to this, and maybe you 
don't, either, but I am going to ask it. In the energy bill 
that has been kicked around in the House and what is working in 
the Senate, does reduction of methane through the kind of 
process you have described, do you get a greater credit for 
that than you would if you were reducing CO<INF>2</INF> by 
volume? I don't know that that is the case, but it seems like 
it might ought to be.
    Dr. Burns. Let me see if I can rephrase your question to 
make sure I understand. Methane is recognized, depending on 
which protocol you are looking at and which time scale 
between----
    Chairman Baird. You need to hit your mic again or move it. 
Is it lit up? There you go.
    Dr. Burns. Yes, sir. Methane is recognized to be 21 to 23 
times more potent than CO<INF>2</INF>, depending upon which 
protocol and time scale. Now, if I can rephrase the question, 
are you asking is the combustion of methane--obviously when we 
combust methane we also generate some CO<INF>2</INF> in that 
process, and if I understand you correctly, you are asking if 
we receive a net gain from the combustion of methane as 
compared to the CO<INF>2</INF> that is emitted from the 
process?
    Chairman Baird. That is part of the question, and then the 
other question would be this. If we are not in some way using 
the methane to generate energy, presumably some of that is just 
being released into the atmosphere. So should you get, under 
any of the energy bills that are moving, do you think you 
should get credit for reducing the methane that is going into 
the atmosphere through your kind of processes?
    Dr. Burns. Yes, and I think the answer is yes, you should 
get credit, but it has to be recognized that the credit 
increment is tied to what was the existing system, i.e., if 
there had not been a digester at this location, how much 
methane would be generated?
    Chairman Baird. Right.
    Dr. Burns. Because once the anaerobic digestion process is 
put in, we are going to greatly increase the methane 
production. So it is that differential between the two that 
should be credited.

               How DOE can Diversify Its Biomass Programs

    Chairman Baird. Got you. Very, very good point. One of the 
things that strikes me as I listen to the testimony of all of 
you really is that we have got this remarkable resource that 
can be used in a number of ways, and I really appreciate that. 
I think our staff has done an outstanding job of giving us 
diverse perspectives on ways things can be used. But as I look 
at the biomass program in DOE--and maybe I am wrong and maybe 
someone can correct me, or if not, help us figure out what we 
ought to do--but as I look at the biomass program, biopower, 
really like we are talking about today, it has really been 
neglected. It has mostly been fuels, and mostly frankly 
ethanol. I mean, we just put so much effort into that and it 
seems to me at the expense of much of what you are doing.
    And so what I would like to ask your comments--you have all 
actually given excellent suggestions for things DOE could 
conceivably do better. It doesn't seem like it is being done 
now. It is almost solely focused on ethanol. Do you have some 
comments--if this committee or this Congress were to direct DOE 
and say, you know, ``we want you to give more attention to 
biopower,'' in any of the forms you all have talked about, how 
would that best be accomplished in your interaction with DOE? 
Some of you work for some of the labs that get funding for DOE. 
I don't want to put you in a difficult spot there, but from 
your professional expertise, how would that--how could we best 
make sure that we are broadening the portfolio of possible uses 
of biomass? And I will just open that up to whomever wants to 
take a stab. Mr. Spomer, you look ready to go, so fire away.
    Mr. Spomer. I think the first thing that generally exists 
today is there is a real bias against things that burn, in 
whatever form, whether it is gasification or direct combustion. 
Ultimately there is combustion of wood. If we can get past that 
bias and start to focus on the fact that, according to USDA, 
from the forest, there is 386 million bone-dry tons a year from 
the forest alone. When you add in all these other factors, you 
start to get into 1.2 billion tons per year of biomass. We are 
talking about eliminating, whether it is biofuels or biopower, 
that would be a huge portion of our national need for power and 
for fuel. So first we have got to get the recognition that this 
is good for the forest. The methane question is an excellent 
one. If this stuff lies and rots on the forest floor or whether 
it is agricultural waste that is lying in the ditch, it is 
going to convert to 50 percent methane, 50 percent 
CO<INF>2</INF>. By combusting it, we may be carbon-neutral, but 
we are significantly greenhouse gas positive. The key thing is 
to use technology and advances in technology and support 
advances in technology to improve the efficiency of the 
conversion so we can compete economically.
    Chairman Baird. And as a businessman, and I don't want to 
put words in your mouth, but from what I am hearing, it sounds 
like--would it be fair to say that the bulk of the research 
that has been coming out of DOE in terms of how to deal with 
biomass as an energy source--has not been particularly 
beneficial to the kind of utilization that you do in your 
industry?
    Mr. Spomer. Almost none.
    Chairman Baird. Okay. And here is an industry that is using 
wood products constructively and has revitalized a rural 
economy. Mr. James, if you wish to comment on that, please?
    Mr. James. Thank you, Mr. Chairman. It might be instructive 
for the Subcommittee to ask DOE to confirm or correct my 
understanding--and this is from hearing other scientists--that 
the combustion of biomass is a more efficient conversion of 
that material into energy than using it to make liquid fuels. I 
am not one to suggest we should not make liquid fuels with that 
material, but we should also be striving for, where we can, 
maximum utilization of maximum benefit.
    The other thing, Mr. Chairman, I would suggest that some 
investigation might be worthy. We are very fortunate to have a 
technology that is in demand internationally, and I can tell 
you that the Europeans, and particularly the British here 
lately, because they have developed some new incentives to use 
dedicated biomass if you will, are scouring around the United 
States locking up our biomass in long-term contracts. Now, I 
don't want to hurt our business opportunities, but as a citizen 
I am concerned that there could be a point in the future where 
we have developed our technologies and we have committed 
ourselves with the appropriate climate legislation and we find 
out that our feedstocks are being exported in other places. I 
would urge that the Subcommittee might ask for some research in 
that particular area.
    Chairman Baird. Outstanding points. And you know, you said 
it more delicately than I might, but one of the sad things 
about I think the ethanol emphasis has been, and my 
understanding of the research on that, our net energy output is 
negative on that after a whole lot of work and investment. I 
mean, with corn-based ethanol at any rate, not to mention all 
the food impacts and the fertilizer and the water.
    I am particularly intrigued also, Mr. James, by this issue 
of on-site processing of materials. I have got timber 
communities now that have 20 to 25 percent or more 
unemployment. They have just been devastated, and the idea that 
when you go out there with your skidders and everything else, 
all the logging equipment that you could take out along as part 
of the contract, as part of the bid, take out equipment to 
process wood fuels in some fashion--it makes an awful lot of 
sense to me, especially with the economic implications and the 
energy implications. So I applaud you for that.
    Anyone else want to talk about this issue of DOE and ways 
they could maybe diversify the portfolio in a different way?
    Mr. Spomer. Just one thing. I would like to give DOE some 
credit for. They supported our effort at developing plantation 
fuel purpose-grown biomass in New York. We have done some 
interesting work with the State University in New York, 
Environmental Science and Forestry College, on purpose-grown 
dedicated woody biomass. I think that that, in addition to the 
existing portfolio that was described, could really make a 
difference. It takes fallow farmlands, otherwise not useful. 
This is not a competitor with food. It is an opportunity for 
people to get a revenue stream, and that is particularly good 
because it acts as a carbon sink in addition to being carbon-
neutral on the generating side.
    Chairman Baird. Thank you. I recognize Mr. Inglis for five 
minutes. I apologize to my colleagues. I went over a little 
bit.

                 Activities at Agri-Tech Producers, LLC

    Mr. Inglis. Thank you, Mr. Chairman. So show and tell, Mr. 
James. Do you have any of the product with you? I was hoping 
so, because I saw it in Spartanburg, and I thought that--will 
you get it, Katrina?
    Chairman Baird. Is this product placement?
    Mr. Inglis. Yeah, it is. Have you seen what it looks like?
    Chairman Baird. Has anybody got a match?
    Mr. Inglis. A pipe might be appropriate. If you could light 
it in a pipe--maybe not.
    Chairman Baird. We don't deal with that in this committee.
    Mr. Inglis. So anyway, it is really interesting.
    Chairman Baird. Sometimes people on this committee, I think 
they have been smoking something. So we are going to leave 
that.
    Mr. Inglis. I just thought my colleagues would be 
interested in seeing it because I got to see it in Spartanburg. 
It is a very interesting product. You can see how it could be 
fed immediately into the--mixed with the coal, right? That is 
what we are looking at here?
    Mr. James. Yes, Congressman. I have given you two samples, 
one is torrefied wood chips, and the other is semi-torrefied or 
a mixture of torrefied----
    Chairman Baird. You have not mixed up Dr. Burns' substance 
with this? Before I pass this down, I want to----
    Mr. James. Although we are exploring whether the process 
can be helpful there.
    Dr. Burns. Yeah, sure.
    Mr. James. But you also have some torrefied switchgrass 
condensed into a pellet--excuse me, a briquette. So you have 
got two forms of samples there.
    Chairman Baird. Thank you. So this is efficient to burn as 
an energy source?
    Mr. James. It is extremely efficient, much more efficient 
than untreated wood or cellulosic material.
    Chairman Baird. And would you burn this--I am sorry. I am 
jumping into your time.
    Mr. Inglis. No, it is all right. You can smell--it smells 
sort of like charcoal or something like that.
    Chairman Baird. Pass this down to Roscoe. He will be 
wanting some of this on his farm.
    Mr. Inglis. So yeah, by looking at it, you can see how 
easily it could be co-fed with coal, I guess, because it has 
sort of the look and feel of coal, pulverized coal. It has less 
energy density I guess because it is less dense stuff.
    And also, I have got one of these brochures, I will show it 
to the Chairman, of what it looks like out in the field, the 
machine out in the field so that you can basically at the 
location get rid of some of the water and thereby reduce the 
transportation costs if you move it on to where it is going to 
be burned, right?
    Mr. James. Yes, the picture you are referring to is the 
prototype on campus at North Carolina State University. And we 
are developing, with the help of Kusters Zima, your constituent 
company in your district, larger units that are fixed units 
that will be placed close to forest areas or agriculture areas. 
But thanks to DOE support, we are also looking at developing 
mobile units which will be on wheels, we hope, and be able to 
actually go from logging deck to logging deck, maybe from 
community to community, in order to process material as close 
to the point of harvest as possible.
    Mr. Inglis. It is very interesting.
    Mr. James. Mr. Chairman, you and your Committee Members or 
Subcommittee Members are certainly welcome to come and take a 
look at the prototype as some point in time if you choose to do 
so. We would be glad to make arrangements for you.
    Chairman Baird. Thank you.
    Mr. Inglis. Do you have any wipes for everybody up here 
now? They have got it all over their hands. The Chairman was 
just wiping his hands all over my papers, I want the record to 
show. Anyhow, I guess I asked for it. So it is very helpful.

                       Landfill Biogas Production

    Dr. Burns, the BMW in Spartanburg, South Carolina, gets 
more than 50 percent of its power from a trash dump, takes some 
methane, runs it through a 10-mile pipeline and powers north of 
50 percent of the power needs of the plant. And the interesting 
thing about that, there are a number of wonderful things about 
it, but one of them is that they have speculated in the future 
perhaps rather than the ``not in my backyard'' (NIMBY) 
principle, they might actually be saying, here, put your trash 
right here in my industrial development. I want a big trash 
dump right here. So instead of a 10-mile pipeline, we have a 
half-a-mile pipeline to a bunch of industrial facilities that 
are using. Similar problem I guess for siting hog farms and 
things like that. If they become an energy producer, then it is 
less hard to site those, I suppose, right?
    Dr. Burns. There is certainly an economy of scale that is 
associated with energy production through anaerobic digestion. 
Landfill biogas production systems are typically much larger in 
terms of the generating capacity than manure systems would be. 
My understanding is landfill systems are currently--the 
electricity generated from those systems is probably done so at 
a cost that is a third or so of the cost of what we are 
currently seeing as generation costs from manure digestion 
systems. Again, they are larger systems, typically three to 
four megawatt generating capacity, and they are very 
predictable systems. With the landfill operation, the materials 
there, it is in tune, and there is a very predictable life 
expectancy. You are going to be able to draw a curve that says 
what the gas yield is going to be. It is going to exponentially 
come up, it is going to level off, it is going to decay. So you 
know that yield. And there are other factors that make manure 
digestion a little tougher. I mean, animals are not coming in 
and out of the landfill. There is not potential changes in your 
biomass generation capacity in that landfill because the gas 
yield in the landfills occur generally after they are closed, 
and then you yield that gas toward energy.
    So they have been very successful. It is a model that can 
be looked at but there are some differences; primarily scale, I 
think, would be the one that would be different from what we 
see in ag systems with manure.
    Mr. Inglis. Thank you. Thank you, Mr. Chairman.
    Chairman Baird. Thank you. Dr. Bartlett.

              The Energy Needs of Biopower Fuel Production

    Mr. Bartlett. Thank you. You mentioned that you get more 
energy from burning this than if you burned wood. But unless we 
are going to suspend the law of thermodynamics, you won't get 
more energy from it than you would have gotten if you burned 
that wood because you have some energy invested in creating 
this product. So really, you are trading convenience for energy 
because you are going to get less energy out of your wood 
eventually if you go through this process and then burn it than 
you would have gotten if you had burned it initially. So you 
are trading energy for convenience here, are you not?
    Mr. James. Congressman, of course, you are correct. 
However, the systems, boilers and otherwise, that burn 
material, burn more efficiently with higher BTU and less moist 
material. There is a lot of energy lost if you were to burn 
greenwood. You have got to use a lot of energy to evaporate the 
water off of that, and you are sacrificing some of the 
efficiency of your boiler----
    Mr. Bartlett. So that helps offset your loss here?
    Mr. James. Exactly.

                             Forest Health

    Mr. Bartlett. Let me ask you a question about forest 
health. Absent fires, how does removing biomass from forests 
make them healthier? If we look at a tropical rainforest, if 
you remove the biomass, you have removed essentially all of the 
nutrients because they are all in the cycle of life. That has 
to be somewhat true in our temperate forests, although nowhere 
near to the extent of the tropical rainforest. I am having 
trouble understanding how removing biomass, absent fires, how 
removing biomass makes the forest healthier.
    Mr. Spomer. I can use the example of upstate New York and 
really the whole northeastern, mixed northern hardwood forests.
    Absent an active--typically what happens in New York, for 
example, absent a low-grade biomass market, loggers--there is 
active logging going on up there. They are taking maple, the 
cherry, the best wood, and with no market for anything else, 
they take that out, turn it into furniture, tabletops, and they 
leave the stuff that you really don't want, diseased trees, 
unmerchantable timber, sometimes non-indigenous species, and 
then they also leave the junk on the floor. And what happens in 
the area around, say, our Lyonsdale plant, is that there is 
active forest thinning because there is a market for the low-
grade material. When pulp and paper was active, there was a 
market for that low-grade material. The pulp industry has 
basically dried up in the north, and absent a market for that, 
you have got a changing nature of the native forest in New York 
and in Maine and in other places, more so in New York. And 
those forests tend to be less healthy----
    Mr. Bartlett. Less healthy? You mean that they don't have 
the kind of trees growing there that you would like to have 
growing? So when you take the trash trees out as biomass, that 
permits the maples and cherries and so forth to be more 
competitive?
    Mr. Spomer. Right, and also thinning the forest allows new 
growth. In a mono-aged forest where you have got a big canopy 
and you are not getting new growth, you are not as efficient at 
consuming CO<INF>2</INF>. A forest fires is nature's way of 
fixing that problem. It is not a big problem in the Northeast 
where it is particularly damp. It is worse in my home State of 
Colorado where the whole forest can go up in a hurry. Being 
able to thin the forest and allow new growth, diverse growth, 
is good. The Audubon Society tells us it is good for habitat, 
and the Department of Environmental Conservation says it is 
critical for forest health in New York.
    Mr. Bartlett. That helps me understand what you mean by 
forest health. It doesn't mean you are growing more forest, it 
means you are growing the kind of forest you would like to 
grow.

                  Protecting Topsoils and Soil Quality

    I have questions for the second round, and let me just 
introduce it now, in that I have a huge concern for 
sustainability. Even with no-till farming, for every bushel of 
corn we grown in Iowa, three bushels of topsoil go down the 
Mississippi River, and topsoil is topsoil because it has 
organic material in it. We can rape our soils for a few years, 
and then we will not have the quality of soils--we are fighting 
very hard today to maintain the fertility of our soils. I am 
having trouble understanding how we can take very much biomass 
off our soils and still maintain that fertility to the soils.
    Let us come back for a second round to a discussion of this 
because I think that experiments in sustainability are the most 
needed experiments in this field.
    Thank you, Mr. Chairman.
    Chairman Baird. Thank you, Dr. Bartlett. I am going to go 
ahead and let you follow up on that if you like because I went 
over a little bit as did Mr. Inglis, and I think it is an 
important line of questioning. So if you are interested, let us 
follow up on that.
    Mr. James. Congressman, if I could respond to your earlier 
question about forest health, the natural course is for a 
forest to have fires every several years which thin out the 
underbrush. That is the naturally occurring thing.
    Mr. Bartlett. You are from what state?
    Mr. James. I am from South Carolina.
    Mr. Bartlett. Okay. That is different than up here. I 
cannot remember a forest fire up here. It just doesn't happen 
in our temperate forests, at least none that I am familiar 
with. Once in a while you have a little dry litter burn, but a 
real forest fire, we just don't have them. I never heard of a 
forest fire here. It is really different than your pine forests 
down there and in the west. We don't have them here.
    Mr. James. My point is, to go onto forest health issues, to 
the extent there is a lot of underbrush and small diameter 
trees that are crowded against each other, the rapidity with 
which disease and infestation spreads in the forest is 
accelerated. So being able to mechanically thin those, since in 
most forests we live and we run highways through and we do 
other things that don't allow prescribed burns to take place, 
mechanical thinning is what is happening to the extent there is 
budget for it.
    For example, the Forest Service has a limited budget, and 
one of the reasons that they have developed the Woody Biomass 
Utilization Program was to try to generate a cash stream off of 
that biomass that would allow them to treat additional acreage 
in the forest.
    The other thing I would say is that the process that we 
have, the living parts of the tree, which are the bark and the 
leaves, tend to turn into a fine powder whereas the corpus of 
the tree turns--you know, when you feed chips in, you get chips 
out. That fine powder tends to have more minerals in it, and we 
are looking to see whether that can be a biochar or soil 
application material that could go back into the forest or back 
on the farm to enhance soil health.
    Chairman Baird. Do other panelists want to address the 
broader issues of soil quality and the loss thereof in regard 
to biomass? Dr. Burns.
    Dr. Burns. Yes, sir. I think it is an excellent comment, 
and I would just like to comment on when we look at manure 
anaerobic digestion to point out that those manurers will still 
be land applied as fertilizers. Digestion, it is important to 
understand, is a nutrient neutral process. The amount of 
nutrients removed through the anaerobic digestion process for 
the obligate requirement of the microbes is very, very small. 
So those macro nutrients are going to be utilized by crops. The 
nitrogen (N), phosphorus (P), and the potassium (K) are still 
going to be there, and farmers that utilize anaerobic digesters 
are still going to have to have the same land base for their 
nutrient management plan, and that manure is still going to go 
to the field. It is true, however, that it will go to the field 
with less carbon content than it contains prior to digestion. 
For beef and dairy systems, we can expect to see 30 to 40 
percent of that organic carbon being converted over to methane 
and CO<INF>2</INF> in the process and for swine and layers, we 
are more in the 60 to 70 percent range. But those nutrients 
from a fertility standpoint will still be there, and the 
benefits of the fiber, and a lot of that carbon is still going 
to be there from building the soil till.

                       Manure Methane Production

    So in that system, we are still going to see manure go into 
the ground as a fertilizer and be utilized that way.
    Mr. Bartlett. If manure is spread on the field and you go 
through sheet composting, there is little or no methane 
produced by that?
    Dr. Burns. In a composting process----
    Mr. Bartlett. If it is sheet composting, you spread the 
manure on the field so that there is no anaerobic activity 
going on. It is very thin, then you shouldn't get methane, 
should you?
    Dr. Burns. No, sir, if we keep the system aerobic in 
nature, we will not generate methane. It will go through 
aerobic respiration. It will generate CO<INF>2</INF>. There 
will still be carbon loss there and also unfortunately with 
that aerobic process, we are probably going to lose nitrogen 
out of the system as gaseous ammonia.
    Mr. Bartlett. You have to incorporate it into the soil to 
avoid that?
    Dr. Burns. Incorporation of solid manures is recommended to 
avoid that gaseous ammonia loss, yes, sir.
    Chairman Baird. Thank you, Dr. Bartlett, important line of 
questioning, and I think especially regarding what we have seen 
with ethanol which you have talked about with great eloquence 
in the past in this committee.

                   Siting Biomass Research Within DOE

    Continuing on the theme I began earlier, it seems apparent 
in a number of areas of additional research and government 
activity--whether it is intellectual property or targeted 
research on catalysts and a host of areas where we could be 
doing things--if DOE were to spend, give more attention to 
biopower broadly, from your gentlemens' perspective, what 
office of DOE would be technically equipped to do that? Where 
would we best go within DOE to make this happen? Mr. James and 
then Dr. Stevens?
    Mr. James. Mr. Chairman, I will try to take a stab at that. 
The answer to your question is I am not exactly sure. However, 
the Office of Biomass certainly comes to mind. If I could also 
go back to an earlier point that you made, we participated with 
others in our region in one of the last solicitations for a 
biomass supply chain, and as I recall, the language in the 
solicitation did not exclude making solid fuels, but there may 
have been a bias toward liquid fuels. I think your staff might 
wish to analyze the awards that came out of that solicitation. 
It may make sense for whatever part of DOE that is going to 
take on this assignment to have a very specific solicitation 
for solid fuels or some other types of activity that supports 
some of the testimony that you have heard today. So there is 
not an ambiguity and then I guess some opportunity for--I don't 
want to use the word bias but some opportunity for not fully 
exploring that opportunity.
    Chairman Baird. And to follow up, Mr. James, obviously you 
are in the industry that would deal more with the solid rather 
than the liquid. Would there be a counter-argument that would 
say, well, the reason they are biased, if there was a bias, the 
reason they favored--let us not deal with predilection, but 
maybe they just made an empirical scientific judgment that 
there is more bang for the buck, so to speak, or better return 
on investment in liquid fuels. Is that the case or do you think 
it was more--I am not trying to put you on the spot, but the 
question for me is, we should be looking at all our options, 
but we have to look critically at those options.
    Mr. James. I think we should look at all options, and we 
support all options. However, the understanding that I have 
from the scientists that I am talking to, suggest that direct 
combustion, whether treated or untreated, of biomass gets 
more--you end up with more energy on a net basis than you would 
by converting it into a liquid fuel.
    Chairman Baird. Partly because of Dr. Bartlett's repeated 
observation of the second law of thermodynamics.
    Mr. James. I am sure he is right again on that, sir.
    Chairman Baird. Thank you. So your point would be, 
whichever branch of DOE is focused on this, we want it to be a 
focus that it is not just in name only and we are going to go 
right back to the liquid results?
    Mr. James. The other thing I would say, Mr. Chairman, that 
the electric utilities and other coal users are great 
collaborators, and we have had, you know, good luck in working 
with a variety of utilities. So there is an opportunity to 
leverage some of the users, including coal suppliers, if you 
will, into this process because we all need to figure out, how 
do we work together? How do we use existing distribution and 
supply chains that are already in place in order to make a 
system work?
    So I think if a solicitation could be a little more 
specific in our case on solid fuels and encourage collaboration 
between users and suppliers and other members of that value and 
supply chain, then we could come up with a very robust 
solution.
    Chairman Baird. It will be my intention following this 
hearing to actually inquire precisely of these kind of issues 
of DOE in writing. We will drop them a note.
    Dr. Stevens, I want to applaud PNNL for its work on forest 
products, obviously given our region, and PNNL has really been 
a pioneer.
    What insights can you offer on this question?
    Dr. Stevens. Well, I am not in the position to recommend 
where you put your money, but I would simply comment that 
Office of Biomass Program has had active biopower programs 
several years ago. And several of the people who worked on 
those then are still there. The expertise is resident, and the 
capability exists there today for applications-oriented work, 
and of course Office of Sciences are capable of doing very 
basic work as well. As a recommendation it would be very useful 
to bring together the two to solve both the very fundamental 
problems and the applications problems in a meaningful way.
    Chairman Baird. That is very, very useful. Maybe we should 
move the first presidential caucus to a timber state, and we 
would have a different focus on the products.
    Anyone else wish to comment on this? Mr. Inglis?

                        Biopower in Urban Areas

    Mr. Inglis. Thank you, Mr. Chairman. You know, Dr. Burns, I 
am very interested in what you are talking about and how it may 
apply to human waste as well as animal waste. I was in Mumbai a 
while ago, and we were traveling through the city at 2:00 or 
3:00 in the morning, and I really thought if we struck a match 
we might have exploded. And we were told, and I don't know if 
it is correct, but we were told it is because they discharge 
the effluent into the bay at that time of day. So it was 2:00 
or 3:00 in the morning, and it was just an amazing amount of 
methane aroma, having grown up on the coast and knowing what 
marsh gas is like. So it really struck me that a country like 
that that has so many people and has to come up with some way 
of coping with that waste problem, if you can turn waste into 
something good, it sure is a win-win proposition. Actually, 
while there we visited a place where they are doing that. They 
are taking food waste from a dormitory and turning it into 
methane that then powers the kitchens. And I asked them about 
actually not the scalability, it is the opposite of 
scalability, keeping it small enough that you could actually do 
a neighborhood that way, and they said that is the challenge. 
You don't want to, in the case of such a system, you don't want 
to build it so large because you lose some of the benefits. If 
you can do it much more locally, you have this great benefit of 
being able to have a relatively small system that takes a great 
deal of waste and then turns it into something useful.
    Is that something that, as we develop things on the farm, 
is that a possibility of moving into the city with those kind 
of lessons learned on the farm?
    Dr. Burns. I think there are great examples around the 
world of where that has already been done, and I think whether 
you are going to see that implemented or not is going to depend 
on where you are in the world, i.e., what is the relative cost 
of energy. For example, the largest number of manure digesters 
by far are in the class of what we call ``domestic digesters'' 
where human excrement, not soil, is mixed with household waste 
and some animal manure. Specifically right now there are over 
37 million of these household digesters in China, and they have 
been growing significantly because the central government of 
the People's Republic of China has put a great amount of 
funding into supporting their construction. I have done work 
with these systems outside of Tianjin and some watershed 
projects where they are using them to try to reduce pathogens 
and so forth. But what you see is it is a very quickly-adopted 
system, and the biogas that is generated is used for heat, for 
light in these systems. India has four million of these 
systems. Nepal has 140,000. You see them in locations, again, 
where the relative cost of energy, if you were to look at the 
cost of, say, purchasing propane or natural gas in those 
communities, versus the cost of going out and picking up wood 
to build a fire in the corner of your home, those costs are 
such that it makes a lot of sense to generate biogas. If we 
look at the relative cost of energy in this country, you don't 
see those systems adopted because energy from a relative cost, 
from our income, is so low that we are going to purchase it 
rather than pick up wood to cook.
    There are, though, examples of a lot of biogas being 
generated from municipal wastewater treatment plants in this 
country. It is very common, it has been done for years, it is 
very successful. Those facilities, however, are typically 
aerobic treatment plants because, recall that we mentioned 
anaerobic digestion is nutrient neutral, so we will go through 
the tertiary treatment process and use an aerobic step where we 
will biologically remove nutrients, and it may also be with 
some combinations of some chemical steps as well. But then the 
solids that are generated off that other primary clarifiers are 
typically digested anaerobically, and that biogas yield will 
then be converted through either IC (internal combustion) 
engines or microturbines into electricity production. So we do 
see it come from that standpoint.
    Mr. Inglis. Interesting. Anyone else want to add anything 
to that? If not, thank you, Mr. Chairman.
    Chairman Baird. Dr. Bartlett.

                 The Sustainability of Biopower Sources

    Mr. Bartlett. Methane is the coal miner's black banth, is 
that true? Explosive gas in coal mines is methane, is it not, 
which is odorless, isn't it? So the odor you get from the swamp 
is not the methane. It is something that goes along with the 
methane. Our irrational exuberance over bioenergy has resulted 
in two bubbles which have burst. The first was the hydrogen 
bubble, and nobody talks about hydrogen anymore because I think 
they finally figured out that hydrogen is not an energy source. 
You will always get less energy out of the hydrogen than it 
took to make the hydrogen. The second bubble that broke was the 
corn ethanol bubble, and I and one of my staff people did some 
early, back-of-the-envelope calculations and reached 
essentially the same conclusions that the National Academy of 
Sciences reached. They said if we turned all of our corn into 
ethanol, every bit of it, and discounted for fossil fuel input, 
it would displace 2.4 percent of our gasoline. They said you 
could save more gas than that by tuning up your car and putting 
air in the tires. They further said that if we took all of our 
soybeans and converted them into soy diesel, a more efficient 
process by the way than corn ethanol, that this would displace 
2.9 percent of our diesel. Now, most of our arable land, our 
farmland, is planted to corn and soybeans. So just as an old 
dirt farmer being very practical, when I note that if we took 
all of our corn and converted it to ethanol, discounting for 
fossil fuel input, you would displace 2.4 percent of our 
gasoline, and if you did the same thing for all of our soybeans 
for soy diesel, you would displace 2.9 percent of our diesel, 
and noting that corn and soybeans are grown on almost all of 
our land that is good enough to grow crops on, I am wondering 
sustainably how much we should really expect to get from our 
lands that are not good enough to grow either of these crops 
on. I just think that the third bubble that is going to break 
is the cellulosic ethanol bubble. I think we will get something 
there. I think we will get nothing like the potential that many 
people feel. Am I wrong?
    Mr. Spomer. This is a topic that I know something about, 
and you have asked a number of questions in there. First, on 
the purpose-grown portion of it, let us use the State of New 
York, for example. We are looking at getting five bone-dry tons 
per acre on about, up to an available two million acres of 
fallow farmland that is perfect for fast-growing woody biomass 
willow. And that is a copus crop. We don't till the soil. You 
will go through 21 years of life before you have to replace it, 
harvesting every three years. That five tons per acre--let us 
assume we just get a million of it planted--is 600 million, 
potentially, based on a process that we are working on, roughly 
600 million gallons of year of petroleum products, not ethanol. 
The conversation, as I used to say, if it was easy to turn wood 
into alcohol, some guy in Tennessee would have figured out how 
to do it a long time ago.
    The fact is, though, it is not a stretch to turn it into 
hydrocarbons, and it is being done, it can be done.
    Mr. Bartlett. Now, what about sustainability, though?
    Mr. Spomer. Well, the sustainability side of it is your 
harvest plan. Are you taking biomass, which by definition in a 
forest sense is the waste, not the--you never go down and cut a 
tree down just for biomass in the Northeast. They are going to 
go in and do their normal logging thinning process----
    Mr. Bartlett. But if you leave that on, those trimmings, in 
the forest, it then contributes to the humus in the forest and 
therefore the nutrients which helps additional trees grow. At 
least to some extent, our forests have to be a bit like 
tropical rain forests. When you remove the tropical rain 
forest, you have laterite soils that bake as hard as a brick 
and you have essentially no good agricultural land.
    Mr. Spomer. Okay, and the worst thing you can do to the 
forest is put a farm on it. The best thing you can do for a 
forest is keep it thin because for example, in New York, it 
takes up to 60 years to grow a harvestable tree. You have got 
60 years of leaf shed from that tree that is putting nutrients 
back into the soil. When you take down a typical northern 
hardwood, up to 50 percent of that tree is not going to be 
turned into furniture. That remaining top and limb is going to 
rot in the form that you would see it in the forest, and it is 
not going to necessarily turn into nutrients. It is going to be 
turning into methane and CO<INF>2</INF>. That is the stuff that 
we clean up. Those leaves that shed every year are going back 
to put nutrients back into the soil.
    So from a sustainability perspective, it is at least 
demonstrated in New York specifically that thinning the forest 
properly increases the total rate of growth of that forest and 
therefore the CO<INF>2</INF> intake of that forest. You are 
giving it more room to move, you are allowing younger trees to 
grow. So from a sustainability perspective, at least--and we 
are not the experts. We rely on experts who have told us this, 
that it is truly sustainable and truly good for the health of 
the forest long-term. So if you just assume that on a national 
basis, assume that is true on a national basis, and we are 
talking about half of the hydrocarbon fuel use in this country 
could come from sustainable forest biomass.
    Mr. Bartlett. Mr. Chairman, I am still skeptical and I look 
at what we could get from all of our arable land, and we expect 
to get many times that from this land that is not good enough 
to grow either corn or soybeans on. I still remain skeptical of 
what the real sustainability is going to be. Even though those 
limbs and top rot and the CO<INF>2</INF> and methane goes off, 
you have still got humus there. That is what holds water, that 
is what holds nutrients in the forest. So you still have 
something very valuable that is left after that.
    Thank you, Mr. Chairman.

             Forest Products From Federal Lands as Biomass

    Chairman Baird. Thank you, Dr. Bartlett. And I can speak 
just briefly about the--I will get to you in just a second, Dr. 
Burns. In the Northwest, one of the challenges we have is we 
have got literally millions of acres of disease, and this is 
really true in the Rockies, of diseased trees which are tinder 
dry and are ready to go up in smoke. Now, admittedly, not the 
entire tree burns unless it is a really bad fire, and what is 
happening in the northwest is we are actually thinning some of 
those out for forest health in two ways. The forests are 
overgrown, and that increases the fire risk, but also if you 
have got insect-infested trees you need to get those out.
    Here is the sad part from a global overheating perspective, 
we are actually taking that wood out, stacking it up, and 
burning it. Now, if you care about CO<INF>2</INF>, which I know 
you do, the paradox for me is we are actually spending good 
money for the sake of forest health to get this stuff out, but 
we actually are not using it for energy. And sadly the initial 
draft of the energy bill that passed the house, prohibited, 
expressly prohibited the use of forest products from federal 
lands to count as biomass. Not only did it prohibit that, it so 
severely restricted private lands that that became impractical. 
And then the down waste stream. So then let us say you process 
the byproducts to pulp and paper, then you get black liquor out 
as a byproduct. The only way you can count black liquor, 
according to the initial bill, a renewable fuel source, was if 
every shred of fiber upstream came from a renewable source as 
defined by this. It was a ludicrous approach, and actually I 
got that fixed in the energy bill. It was myself and a 
coalition of others. But it was maddening to see a bill that 
was supposedly designed to diversify our energy portfolio and 
reduce greenhouse gases basically giving no credit for using 
greenhouse gases for fuel and leaving it instead on the ground 
to rot or burn up.
    So your point is absolutely well-taken. I think it 
absolutely does apply if we were to just say we were going to 
grow huge forests and we are going to cut them down and never 
replenish that soil. I think you would have some adverse 
impacts. But when we are taking byproducts out from the normal 
harvest process or from dead and diseased trees, I think we can 
use it actually pretty productively, not that it is a panacea 
as some looked at I think ethanol.
    Dr. Burns, you had a comment?

                 More on Siting Biomass Research at DOE

    Dr. Burns. Yes, Mr. Chairman. I wondered if it were 
possible to circle back to your question on what office in DOE 
would be best equipped to provide broader assistance in the R&D 
area.
    Chairman Baird. Not just possible, desirable.
    Dr. Burns. Okay. Thank you, sir. Perhaps the Energy 
Efficiency and Renewable Energy (EERE) Office might be the 
correct office to look at some of this. They have been involved 
in fuel cell work and advanced conversion of electricity work 
and I believe they might be the appropriate people to take a 
look at some of the R&D needs that were identified earlier in 
the hearing.
    Chairman Baird. Share with me your insights on why that 
would be superior. I don't have a dog in the fight. You say the 
biomass activity?
    Dr. Burns. I don't have experience with the Biomass Office, 
and I am just simply familiar that the Renewables Office has 
been doing some work that fits closer to this category, or 
closely with this category. I don't know compared to the 
Biomass Office.
    Chairman Baird. Okay. We have gone a long time today. Did 
you have another follow-up question, Dr. Bartlett? Mr. Inglis?
    I am not going to ask you to do this on the record, 
actually on the record if you want to, but I am not going to 
ask today, but if any of you want to comment at some point 
about how DOE can be more responsive. It is not just about what 
entity is there, but you all have given us very good 
suggestions for everything ranging from intellectual property 
rights as mentioned earlier, catalysts, et cetera, to 
technologies to logistical flow of materials. I don't know, I 
am not experienced enough or knowledgeable enough, to know--you 
talked about DOE drops down requests for proposals or grant 
opportunities, et cetera. To what extent is there a bottom-up 
process? In other words, where you call could talk--actually, I 
am going to ask you to answer that, where you folks are, people 
in the industry, not just you here, but others who may be in 
the audience or doing other things who can say to DOE, hey, 
here is what we really need, not you telling us what you think 
we need but this is what we need. Can you conduct some research 
or create proposals? What mechanisms exist or have you been 
able to, both pro and con, if there are both and then we will 
finish up if my colleagues will indulge that question, please?
    Mr. James. Mr. Chairman, I am not aware of any specific 
mechanism at the moment. We do have relationships with USDA, 
and they have created conferences and other kinds of get-
togethers that allow us to have some dialogue with them. I 
remember doing a webinar with USDA staff where several dozen of 
them were on the line with us talking about torrefaction. Thank 
you for having the hearing. It turns out that some DOE folks 
that I have been trying to talk with for the last month are 
here, and we are going to get together and do some chatting 
after this meeting.
    Chairman Baird. We will bring donuts to the next one and 
really get something done.
    Mr. James. But you know, I think there needs to be more 
mechanisms that allow us to get together and have some 
dialogue, and I am sure the agency will do that.
    I want to compliment Secretary Chu and the energy that he 
has brought to the agency. I see a lot of difference in the 
agency now, and we are looking forward to finding ways to 
collaborate with him.

                                Closing

    Chairman Baird. Great. Anyone else wish to comment on that? 
If not, I want to bring the hearing to a close. I want to thank 
our witnesses for testifying before this subcommittee. I want 
to thank particularly my colleagues for their insightful and 
informative questions and comments. The record will remain open 
for two weeks for additional statements for the Members and for 
answers to any follow-up questions the Subcommittee may ask of 
the witnesses.
    Witnesses are excused with our gratitude, and the hearing 
now stands adjourned. Thank you all very much and thanks to the 
guests in the audience as well.
    [Whereupon, at 3:52 p.m., the Subcommittee was adjourned.]

                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Don J. Stevens, Senior Program Manager, Biomass Energy & 
        Environment Directorate, Pacific Northwest National Laboratory, 
        U.S. Department of Energy

Questions submitted by Representative Paul D. Tonko

International Activities

Q1.  You mentioned international research activities around biomass 
pyrolysis in your oral statement. Please provide us more information on 
this research and the interests of the countries funding it.

        <bullet>  Of the countries you are working with, which one is 
        leading in the area of biomass pyrolysis for power production?

A1. There is International recognition of the potential for pyrolysis 
to meet a variety of fuel and electricity needs. Interest in pyrolysis 
is strong in European countries including Finland, the Netherlands, 
Germany, Austria, and the United Kingdom. Canada also has significant, 
long-standing programs in pyrolysis, and more recently, Australia, 
Malaysia, China, and other countries have also expressed interest.
    The interest in producing electricity is particularly strong in 
European countries, where renewable energy policies have created 
markets for high priced biopower. By comparison, policy incentives of 
similar magnitude do not exist in United States. Some countries see 
biopower as the earliest use of bio-oil, with transportation fuels 
being viewed as an attractive alternative as the upgrading technology 
advances.
    Pacific Northwest National Laboratory is involved in several 
collaborative research programs with international groups. Douglas C. 
Elliott, an international expert on biomass pyrolysis at PNNL, leads 
the International Energy Agency's Bioenergy Agreement's Task 34, 
Biomass Pyrolysis. This Agreement promotes information exchange, 
exchange of researchers, and production of joint scientific reports. 
The activities of this group leverage the resources of all 
participating countries. DOE's Office of the Biomass Program represents 
the United States at the IEA Bioenergy Agreement's Executive Committee.
    PNNL is also working in two international collaborations, one with 
Canada and one with Finland, to examine the extent of stabilization and 
upgrading needed for utilization of bio-oil for either electric 
generation or biofuel applications. This work is examining the 
characteristics of bio-oils produced from a range of biomass 
feedstocks, including beetle-killed pine, with the intent of matching 
those with end-use requirements. The work leverages DOE-OBP's funding 
with equivalent amounts from Canada and Finland to organizations such 
as Finland's VTT Laboratory, Natural Resources Canada (Canmet) 
Laboratory, and the University of British Columbia.
    Based on their long-standing interests and also their current RD&D 
activities, both Finland and Canada can reasonably be considered 
leading international countries in the area of using pyrolysis for 
biopower.

Is Additional Biopower RD&D Needed?

Q2.  In 2002, the Biomass Program was formed to consolidate the 
biofuels, bioproducts, and biopower research efforts across DOE into 
one comprehensive RD&D effort. It is my understanding that the Office 
of Biomass does little, if any biopower research anymore. Given the 
pending Renewable Electricity Standard legislation in both the House 
and the Senate, what would a Biopower Initiative look like at DOE?

        <bullet>  What kind of goals and RD&D would you recommend?

        <bullet>  How much would it cost to implement a strategic 
        biopower program to meet pending Renewable Electricity 
        Standards?

        <bullet>  Under a new biopower initiative what is the best way 
        to organize the RD&D activities?

                <bullet>  If yes, what office at DOE is technically 
                equipped to conduct this RD&D?

                <bullet>  What activities is the Office Fossil 
                technically suited to conduct?

                <bullet>  What activities are EERE technically suited 
                to conduct?

A2. With finite amounts of biomass available annually, our nation must 
make informed decisions about our priorities for using this resource. 
To help make these decisions, we need a solid scientific basis to show 
where the greatest impact can be obtained between the options for 
power, fuels and chemicals. The scientific basis requires some analysis 
be conducted.
    If this information concludes that biopower is a priority for 
biomass utilization, then RD&D needs to be focused on technologies that 
offer high-efficiency electricity generation. Advanced technologies 
such as gas turbines or fuel cell systems offer potential electric 
generation efficiencies in the range of 30-40 percent. This compares 
with typical wood-fired combustion/steam-cycle systems which have 
electric generation efficiencies of approximately 15-25 percent. By 
focusing RD&D on the high-efficiency generation technologies, we can 
achieve the highest impact from the finite biomass resource.
    The cost of such a program will depend on many things including the 
relative levels of research and demonstration activities, as well as 
other factors. PNNL, as a government Laboratory, is not in a position 
to recommend a specific funding level.
    The organization of such a program will depend on the types of 
research being conducted, and particularly if co-firing with coal or 
other fossil resources is included. PNNL conducts research for both 
DOE-EERE and DOE-FE, and believes that both organizations have relevant 
capabilities. The DOE Biomass Program had an ongoing biopower program 
several years ago, and the technical capabilities to conduct such a 
program still exist there. OBP has a solid understanding of biomass 
reaction behavior and biomass sustainability, both of which are crucial 
to a successful program. Likewise, DOE-FE has important capabilities 
around co-firing biomass with fossil resources. In addition, the 
efforts of DOE's Office of Science may also be necessary to solve 
fundamental scientific questions that arise. A successful RD&D effort 
would likely include all of these organizations.

                   Answers to Post-Hearing Questions

Responses by Mr. Scott M. Klara, Director, Strategic Center for Coal, 
        National Energy Technology Laboratory, U.S. Department of 
        Energy

Questions submitted by Chairman Brian Baird

Q1.  Is Additional Biopower R&D Needed?

A1. In 2002, the Biomass Program was formed to consolidate the 
biofuels, bioproducts, and biopower research efforts across DOE into 
one comprehensive RD&D effort.

Q1a.  It is my understanding that the Office of Biomass does little, if 
any biopower research anymore.

A1a. The Department's Office of Biomass Program (OBP) has funded 
biopower related programs since 2000.

In previous years:

          2000-2001: Awarded several co-firing and gasification-for-
        power projects (eleven awards made)

          2002: Directed by the Administration and Congress to reduce 
        emphasis on biopower and/or co-firing

          2002-Present: Shifted emphasis to develop gasification and 
        pyrolysis-based technologies for transportation biofuels 
        production

Current activties:

          Suny Cobleskill, Biowaste to Bioenergy, FYO8-FY1O, up to 
        $1,279,200--a program to determine the efficacy of a bench-
        scale prototypic rotary kiln gasification system for the 
        conversion of biomass into a clean energy. Sponsored by 
        Congressman Paul D. Tonko (D-NY 21st District).

          Raceland Raw Sugar Corporation, Bio-Renewable Ethanol and 
        Co-Generation Plant, FY05-FY10, up to $3,557,000--a program to 
        identify, determine, and understand fundamental burn 
        characteristics and properties of alternative fuel sources to 
        replace coal for energy generation, with emphasis on impacts in 
        cement processing. Sponsored by Senator Mary L. Landrieu (D-LA) 
        and Senator David B. Titter (R-LA).

          The National Renewable Energy Laboratory, the Pacific 
        Northwest National Laboratory, UOP, and Ensyn Technologies have 
        a project ``Biomass Pyrolysis''. In the project's second phase, 
        pyrolysis oil produced in the study will be upgraded to varying 
        degrees and tested for power generation, to establish the level 
        of upgrading required and any cost advantages.

          The Program is involved in several feedstock activities that 
        have relevance to biopower production (although not conducted 
        specifically for this purpose), for example:

                i.  The Program is currently updating its 2005 report 
                ``Biomass as Feedstock for a Bioenergy and Bioproducts 
                Industry: The Technical Feasibility of a Billion-Ton 
                Annual Supply.'' This report assesses the forest-
                derived and agriculture-derived biomass resources of 
                the U.S.

                ii.  The Program is working with the Sun Grant 
                Initiative to address barriers associated with the 
                development of a sustainable and predictable supply of 
                U.S. biomass feedstocks, including woody feedstock.

    In addition, EERE's Office of Industrial Technologies Program (ITP) 
is funding two biomass-related projects:

          Burns & McDonnell Engineering Company, RD&D of Biomass 
        Boiler Applications for the Food Processing Industry, up to $ 
        1,999,963--Demonstrates use of a biomass (wood waste and tire-
        derived fuel) boiler system to offset natural gas consumption 
        at the facility.

          Fiscalini Farms L.P., Renewable Energy Power Generation 
        Project, up to $779,300--Measures and analyzes a biogas energy 
        system for power generation. The system will use digester gas 
        from an anaerobic digester located at the Fiscalini Farms dairy 
        for power generation with a reciprocating engine.

Q1b.  Given the pending Renewable Electricity Standard legislation in 
both the House and the Senate, what would a Biopower Initiative look 
like at DOE?

A1b. During December 2009, OBP is conducting a Biopower Technical 
Strategy Workshop to identify the technical and economic hurdles of 
biopower deployment. This knowledge will aid OBP's strategic planning 
for biopower together with three regional workshops on biomass 
feedstocks. A draft report of the biopower workshop will be made 
available.

Q1c.  What kind of goals and RD&D would you recommend?

A1c. During December 2009, OBP is conducting a Biopower Technical 
Strategy Workshop to identify the technical and economic hurdles of 
biopower deployment which could be used to identify appropriate goals 
and any RD&D needed to achieve them.

Q1d.  How much would it cost to implement a strategic biopower program 
to meet pending Renewable Electricity Standards?

A1d. The cost of a strategic biopower program is dependent upon the 
final renewable electricity standards and policy.

Q1e.  Under a new biopower initiative what is the best way to organize 
the RD&D activities?

A1e. During December 2009, OBP is conducting a Biopower Technical 
Strategy Workshop to identify the technical and economic hurdles of 
biopower deployment which could be used to identify appropriate goals 
and any RD&D needed to achieve them.

Q1f.  If yes, what office at DOE is technically equipped to conduct 
this RD&D?

A1f. The OBP within the Office of Energy Efficiency and Renewable 
Energy (EERE) is technically equipped to conduct this RD&D in 
coordination with the Office of Fossil Energy's Clean Coal and Natural 
Gas Power Systems Program.

Q1g?.  What activities is the Office Fossil technically suited to 
conduct?

A1g. The Office of Fossil Energy's Clean Coal and Natural Gas Power 
Systems Program is technically suited to conduct coal combustion and 
gasification at scale, and power generation from the gasified stream. 
Additional RD&D into gasification/co-firing could bring cost reductions 
and greater acceptability of the technology in the electrical utility 
industry.

Q1h.  What activities are EERE technically suited to conduct?

A1h. Within EERE, the OBP believes that it currently has the 
capabilities to manage an RD&D program that would cover the breadth of 
activities which may be suggested by the Biopawer Technical Strategy 
Workshop.
                   Answers to Post-Hearing Questions
Responses by Robert T. Burns, Professor, Department of Agricultural & 
        Biosystems Engineering, Iowa State University

Questions submitted by Representative Paul D. Tonko

Q1.  In your testimony, you mentioned that a 2006 U.S. EPA AgStar 
report indicates that anaerobic digestion systems on facilities with 
milking herds larger than 500 cows are more likely to have positive 
financial returns than facilities with less than 500 cows. There are 
many of these small and medium sized dairy farms in my district in 
Upstate New York. In light of this fact, what federal policies do we 
have in place, or do you think we should have in place, to incentivize 
and entice smaller farms to use anaerobic digesters?

A1. The current dis-incentive for both small and large farms to invest 
in manure anaerobic digestion is the lack of financial return from the 
sales of either methane or electricity from these systems. Due to 
economies of scale and increased efficiency with larger internal 
combustion generator systems, the larger farms may be able to produce 
power at a lower cost than smaller farms, but the cost is typically 
greater than the rate they can sell the power for. Currently there are 
Federal grant programs that dairy producers can apply to for funds to 
support some portion of digester construction costs. Specifically the 
USDA Rural Energy for America (REAP) program can be applied to for a 25 
percent construction cost grant with a $500,000 cap, and the American 
Recovery and Reinvestment Act (ARRA) Section 1603 program can be 
applied to for a 30 percent construction cost grant with no cap. While 
these funds do provide an incentive to dairies that successfully apply 
for and receive the grant funds, they do not address the fact without 
grant support, the cost to produce renewable energy through manure 
anaerobic digestion typically exceeds the current market value of that 
energy. Countries that have effectively incentivized the construction 
of manure anaerobic digestion systems on farms of all sizes include 
Germany and China. In both cases they have provided a government 
subsidized rate for electrical power produced using manure digesters. 
In the case of China, both grant funding for the construction of 
anaerobic digesters and a subsidized renewable energy rate have been 
provided.

Q2.  You also mention that the current U.S. dairy digester projects 
only produce 10.7 percent of the feasible energy production potential 
reported by the U.S. EPA AgStar report. We all recognize that dairy 
farmers are faced unprecedented and challenging economic times. 
However, when the industry stabilizes for a bit, what barriers 
currently exist to enabling a greater number of dairy digester projects 
to come online? How can we fix these barriers? What can we learn from 
Wisconsin, where 73.9 percent of the potential for this technology is 
implemented, versus just 23.5 percent for the United States?

A2. I believe that primary barriers to bringing more dairy manure 
anaerobic digestion systems online in the U.S. are 1) lack of return 
from renewable energy sales and 2) lack of a well-developed manure 
digester support industry in the United States. I also believe that 
when producers become able to earn a sufficient rate of return from 
renewable energy production with manure digesters that a sustainable 
manure digester support industry will develop in the United States. 
Historically, dairy farmers in Wisconsin were more successful in 
receiving USDA-9006 funding support for digesters than other locations 
in other states. I believe this is why Wisconsin has been more 
successful that other states in terms of achieving a larger percentage 
in terms of dairy manure digester implementation compared to potential.

Q3.  Your testimony suggests that other countries, such as China, which 
has approximately three times the number of dairy cows, beef cattle and 
pigs as the U.S. but 118 times the number of manure biogas plants as 
the U.S., have more favorable policies towards electricity rates for 
this type of technology. Do you believe a federal policy is necessary 
to advance this technology in the U.S., as opposed to a piecemeal 
state-by-state policy?

A3. Countries that have provide a nationally subsided price for 
renewable energy that is significantly higher than the current market 
price of energy have many more operational manure anaerobic digesters 
that the United States. The most notable examples are China and 
Germany, with over 16,000 and 5,000 operational manure based anaerobic 
digesters respectively. I believe that if a similar policy were adopted 
at the Federal level, that it would stimulate the implementation of 
farm based anaerobic digesters in the United States.

</pre></body></html>
